<html>
<title> - SAFETY AND RELIABILITY OF THE U.S. NUCLEAR DETERRENT</title>
<body><pre>[Senate Hearing 105-267]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-267


 
                     SAFETY AND RELIABILITY OF THE
                         U.S. NUCLEAR DETERRENT

=======================================================================


                                HEARING

                               before the

                SUBCOMMITTEE ON INTERNATIONAL SECURITY,
                  PROLIFERATION, AND FEDERAL SERVICES

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 1997

                               __________

      Printed for the use of the Committee on Governmental Affairs





                        U.S. GOVERNMENT PRINING OFFICE
 44-720 cc                     WASHINGTON : 1997
_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402




                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
SUSAN M. COLLINS, Maine              JOHN GLENN, Ohio
SAM BROWNBACK, Kansas                CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         JOSEPH I. LIEBERMAN, Connecticut
THAD COCHRAN, Mississippi            DANIEL K. AKAKA, Hawaii
DON NICKLES, Oklahoma                RICHARD J. DURBIN, Illinois
ARLEN SPECTER, Pennsylvania          ROBERT G. TORRICELLI, New Jersey
BOB SMITH, New Hampshire             MAX CLELAND, Georgia
ROBERT F. BENNETT, Utah
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk
                                 ------                                

   SUBCOMMITTEE ON INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL 
                                SERVICES

                  THAD COCHRAN, Mississippi, Chairman
SUSAN M. COLLINS, Maine              CARL LEVIN, Michigan
PETE V. DOMENICI, New Mexico         DANIEL K. AKAKA, Hawaii
DON NICKLES, Oklahoma                RICHARD J. DURBIN, Illinois
ARLEN SPECTER, Pennsylvania          ROBERT G. TORRICELLI, New Jersey
BOB SMITH, New Hampshire             MAX CLELAND, Georgia
                   Mitchel B. Kugler, Staff Director
                Linda Gustitus, Minority Staff Director
                       Julie Sander, Chief Clerk




                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Cochran..............................................     1
    Senator Levin................................................     3

                               WITNESSES
                        Monday, October 27, 1997

James R. Schlesinger, former Defense Secretary, former Chairman 
  of the Atomic Energy Commission, and former Secretary of Energy     4
Victor H. Reis, Assistant Secretary of Energy for Defense 
  Programs.......................................................    22
Robert B. Barker, Assistant to the Director, Lawrence Livermore 
  National Laboratory............................................    39

                     Alphabetical List of Witnesses

Barker, Robert B.:
    Testimony....................................................    39
    Prepared statement...........................................    47
Reis, Victor H.:
    Testimony....................................................    22
    Prepared statement...........................................    28
Schlesinger, James R.:
    Testimony....................................................     4
    Prepared statement...........................................     8
    Article from the Wall Street Journal, dated July 12, 1993, 
      entitled ``Clinton Defers a Necessity--Nuclear Testing,'' 
      submitted by Mr. Schlesinger...............................    11

                                APPENDIX

Questions and responses from Mr. Reis............................    69
Questions and responses from Mr. Barker..........................    70
C. Bruce Tarter, Director, University of California, Lawrence 
  Livermore National Laboratory, prepared statement..............    71
Letter to Hon. Jon Kyl from Mr. Tarter, dated September 29, 1997, 
  with Responses to Senator Kyl's questions regarding 
  Comprehensive Test Ban Treaty (CTBT)...........................    72
Letter to Hon. Jon Kyl from Mr. Hecker, dated September 24, 1997, 
  with Responses to Senator Kyl's questions, and letter dated 
  September 9, 1997, to Secretary Pena and Secretary Cohen.......    80
``Stockpile Stewardship Program, Overview and Progress,'' October 
  1997, by the Department of Energy, Office of Defense Programs, 
  submitted by Mr. Reis..........................................    88
``Report to Congress on Stockpile Reliability, Weapon 
  Remanufacture, and the Role of Nuclear Testing,'' by George H. 
  Miller, Associate Director for Defense Systems, Paul S. Brown, 
  Assistant Associate Director for Arms Control, and Carol T. 
  Alonso, Deputy A Division Leader, dated October 1987, Lawrence 
  Livermore National Laboratory, submitted by Mr. Tarter.........   112





                   THE SAFETY AND RELIABILITY OF THE
                         U.S. NUCLEAR DETERRENT

                              ----------                              


                        MONDAY, OCTOBER 27, 1997

                                     U.S. Senate,  
                Subcommittee on International Security,    
                     Proliferation, and Federal Services,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thad Cochran, 
Chairman of the Subcommittee, presiding.
    Present: Senators Cochran, Thompson, Domenici, and Levin.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. The meeting of our Subcommittee will 
please come to order. Today, our hearing topic is the safety 
and reliability of the U.S. nuclear deterrent. This 
Subcommittee has had a full schedule this year, holding 11 
hearings on proliferation, arms control, export controls, 
ballistic missile defense, and nuclear deterrence, exploring 
each issue and examining the relationships among these issues.
    Our first hearing in February was on the future of nuclear 
deterrence, and today's hearing, the last for this year, is an 
outgrowth of that hearing. The witnesses at that first hearing 
were Dr. Walt Slocombe, General Andrew Goodpaster, and Richard 
Perle. As expected, there was some disagreement among the 
witnesses. But there was a convergence of views on a key point, 
that as long as the United States has nuclear weapons, these 
weapons must be safe and reliable, without regard to the size 
of the stockpile. The witnesses agreed that unsafe or 
unreliable nuclear weapons would undermine the central 
functions assigned to these weapons in our national security 
strategy.
    For most of the last 52 years, the United States has 
ensured the safety and reliability of the nuclear stockpile 
through periodic testing of these weapons. In September 1996, 
however, President Clinton signed a zero-yield Comprehensive 
Test Ban Treaty, pledging that the United States would, 
subject, of course, to the advice and consent of the Senate, 
bind itself to an international regime that forswears nuclear 
testing. In signing the CTBT, the President made a political 
decision to end the testing of America's nuclear weapons, 
announcing that the United States would attempt, instead, to 
ensure the safety and reliability of our weapons through a 
science-based Stockpile Stewardship and Management Program.
    The directors of our national labs, Lawrence Livermore, Los 
Alamos, and Sandia, pledged their best efforts to design and 
implement such a program. Nevertheless, as Los Alamos Director 
Hecker has said, ``We recognize that there is no substitute for 
full-systems testing in any complex technological enterprise. 
This is certainly true for nuclear weapons. A robust nuclear 
testing program would certainly increase our confidence.''
    That the senior leadership of these labs accepted the 
challenge of ensuring the stockpile's safety and reliability 
through some new method should be given due weight when the 
Senate considers the Comprehensive Test Ban Treaty. These labs 
have a record of success and unparalleled scientific and 
engineering achievement, and the people who have worked at 
them, beginning with the Manhattan Project, are deserving of 
America's appreciation.
    Even so, this impressive record of success has not been 
unblemished by failure, so when the lab directors now say they 
think the Stockpile Stewardship Program will be good enough in 
a zero-yield environment to ensure the safety and reliability 
of our nuclear weapons because it is the best program they can 
develop, the Senate must take their judgment into account. But 
we must also ask a fundamental question. Is this assurance good 
enough?
    In preparing for this hearing, Subcommittee staff met with 
senior officials of the three labs and the Department of Energy 
headquarters. They have all been unfailingly available and 
helpful in explaining the details of the Stockpile Stewardship 
Program. The nearly universal desire expressed by these experts 
has been a preference to delay joining the Comprehensive Test 
Ban Treaty until the Stockpile Stewardship Program is more 
mature, until its prospects for success are more likely.
    I quote statements that have been made to Subcommittee 
staff by senior lab and Energy Department officials. ``How do 
we know that we have failed? We do not have an acceptable 
answer yet.'' ``The Stockpile Stewardship Program might be good 
enough. We hope it is good enough.'' Stockpile stewardship is 
``our best attempt, though it might not be enough.'' ``We do 
not know if stockpile stewardship is good enough, and we do not 
know when we will know if it is good enough.'' ``There is no 
guarantee that stockpile stewardship will work. It is just the 
best we can do.'' ``I am skeptical of the Stockpile Stewardship 
Program.''
    Nobody yet knows if the program will sufficiently offset 
the loss of nuclear testing, and if so, when we will know it, 
nor have we a good idea of when we will know if it will not be 
an adequate replacement for testing. The key question is 
whether the United States should agree to give up testing when 
the Stockpile Stewardship Program may never become an 
acceptable alternative.
    We have with us today three witnesses of impressive 
credentials and experience to assist us in examining the 
Stockpile Stewardship Program and its relationship to the 
Comprehensive Test Ban Treaty. Testifying first will be Dr. 
James Schlesinger, former Secretary of Defense for Presidents 
Nixon and Ford, former Secretary of Energy for President 
Carter, former Director of Central Intelligence and Chairman of 
the Atomic Energy Commission. Our second witness will be Dr. 
Vic Reis, Assistant Secretary of Energy for Defense Programs. 
Our final witness will be Dr. Robert Barker, currently the 
Assistant to the Director of the Lawrence Livermore National 
Lab. Dr. Barker has designed nuclear weapons and participated 
in their testing and has served as the Assistant to the 
Secretary of Defense for Atomic Energy.
    Dr. Schlesinger, welcome to our Subcommittee. Before 
proceeding, though, I want to recognize my distinguished 
colleague, the Senator from Michigan, Senator Levin, for any 
comments that he might have.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me join you in 
welcoming all of our witnesses this afternoon.
    The subject before us this afternoon, which is the 
Department of Energy's Stockpile Stewardship and Management 
Program, is, indeed, a key underpinning of the Comprehensive 
Test Ban Treaty and it is this program which enabled the 
President to decide to seek a zero-yield test ban treaty and it 
is this program which will, hopefully, provide for a safe and 
reliable deterrent in the future without nuclear weapons 
testing.
    The witnesses this afternoon represent a variety of views 
on the Stockpile Stewardship Program and on the Comprehensive 
Test Ban Treaty itself. One of the witnesses that we had hoped 
to be able to join us, and I had requested you, Mr. Chairman, 
to extend the invitation on short notice, which you were kind 
enough to do, was Dr. Tarter. He apparently did not get that 
invitation in time and was unable to join us. But again, I very 
much appreciate, Mr. Chairman, your willingness to add him to 
the list. I would like to get a statement of his for the 
record, if that would be OK.
    Senator Cochran. Without objection, we will make a 
statement from him a part of the record.
    Senator Levin. Of course, the question we face is whether 
or not the testing of nuclear weapons is necessary to maintain 
a safe and reliable nuclear deterrent or will the Stockpile 
Stewardship Program ensure a safe and reliable stockpile? The 
top scientific experts with responsibility for the program have 
confidence that stockpile stewardship will provide the 
knowledge needed to answer the question in the affirmative, 
indeed, that Stockpile Stewardship Program will ensure a safe 
and reliable stockpile.
    Are there any guarantees? As in most things in life, there 
are no guarantees. The question is whether or not there are 
sufficient safeguards that will be in place, including 
maintaining the ability to conduct a test, if necessary, so 
that the reliance which the stewards of the stockpile have on 
the Stockpile Stewardship Program is well founded.
    This program and this test ban treaty have allowed us to 
take a significant step to reduce the nuclear danger and to 
reduce the importance of nuclear weapons to global security and 
to enter into a Nonproliferation Treaty and to have that 
treaty, be available for others to sign. Those are very 
important goals, as well, and those goals have been achieved, 
in part because the stewards of our stockpile have confidence 
in the Stewardship Program, and that, in turn, has allowed us 
to enter into the Comprehensive Test Ban agreement which is so 
significant an achievement in terms of reducing the reliance on 
nuclear weapons and the possibility of trying to end the 
proliferation of those weapons in the world.
    The issue before us today is a very important one, and as 
always, Mr. Chairman, you have put your finger on a very 
significant issue and we look forward to the testimony of our 
witnesses today.
    Senator Cochran. Thank you very much, Senator.
    Let me also extend a word of welcome to our distinguished 
Senator from Arizona, Mr. Kyl, who joins us today. He has had 
an active interest in the subject that we are discussing and 
also has exchanged communications with the Directors of the 
Livermore and Los Alamos Labs. We intend to put the questions 
and answers that Senator Kyl has obtained on this subject at 
least in an addendum to our hearing record and we appreciate 
his being here.
    Dr. Schlesinger, welcome again. Thank you very much for 
being here. You may please proceed. We have a copy of your 
testimony, which we will put in the record in full, and you may 
proceed to make any comments, summarize it, or read it, 
whatever pleases you, sir.

   TESTIMONY OF JAMES SCHLESINGER, FORMER DEFENSE SECRETARY, 
  FORMER CHAIRMAN OF THE ATOMIC ENERGY COMMISSION, AND FORMER 
                      SECRETARY OF ENERGY

    Mr. Schlesinger. Thank you, Mr. Chairman, Senator Levin, 
and Senator Kyl. I am delighted to be here. I thank you for the 
invitation. I will attempt to lay out some of the issues that 
will lie before the Senate as it comes up to the issue of 
ratification of the CTBT.
    Mr. Chairman and Members of the Subcommittee, as the Senate 
considers the CTBT, it will be obliged to focus on one 
dominant, ineluctable result of its ratification. Over the 
decades ahead, confidence in the reliability of our nuclear 
weapons and in the U.S. deterrent would inevitably decline. The 
Stockpile Stewardship Program will unquestionable mitigate that 
decline to some extent. It is hoped that it may mitigate the 
decline to a substantial extent. But for the moment, that 
remains only a hope. Mitigation is, of course, not the same as 
prevention. Over the decades, the erosion of confidence 
inevitably will be substantial.
    A nuclear weapon is a complicated device, especially so the 
sophisticated weapons in the U.S. stockpile. Its numerous 
components must function together with split-second timing. 
There is scant margin for error. Moreover, a nuclear weapon 
must be able to endure highly stressful environments. On a 
ballistic missile, for example, a weapon must withstand the 
shock of sharp acceleration, the sub-zero temperatures of 
space, heat of reentry, deceleration, and possibly impact. Air-
delivered weapons must undergo similar physical stress, though 
to a lesser degree. Once again, there is little tolerance for 
miscalculation.
    There has never been an adequate statistical basis for 
establishing weapon reliability, nor have we been able 
adequately to measure the other phenomenon that I have just 
mentioned. Inevitably, there has always been a good deal of 
estimation and educated guesswork in estimating weapon 
reliability and overall system reliability. A permanent test 
ban would, of course, amplify those problems.
    As a nuclear weapon ages, its individual components are 
subject to the effects of aging--corrosion, deterioration, and 
unexpected as well as expected failure. The shelf life of U.S. 
nuclear weapons was expected to be some 20 years. In the past, 
the constant process of replacement and testing of new designs 
gave some assurance that weapons would not be subjected to the 
effects of aging. But in the future, we shall be vulnerable to 
the effects of aging because we shall not be able to replace or 
to test weapons. In a decade or so, we will be beyond the 
expected shelf life of weapon in the stockpile.
    It might be noted that a 1978 report to the Armed Services 
Committee stated, ``The reliability of our nuclear weapons has 
been assured by the continuous introduction of recently-tested 
new designs and by a constant turnover of the stockpile made 
possible by the retirement of old weapons before they have 
begun to deteriorate.'' It may also be noted that for Soviet, 
and now Russian, weapons, the expected shelf life has been 10 
years. Unlike ourselves, the Russians continue to produce some 
thousands of weapons each year to replace aging weapons in 
their inventory. By contrast, despite an explicit policy 
commitment, the United States at this time lacks the capability 
either to fabricate or to certify new warheads.
    The Stockpile Stewardship Program will, among other things, 
disassemble nuclear weapons selected from the stockpile, 
subject the components to careful individual scrutiny, looking 
for signs of corrosion, decay, et cetera. Individual components 
will be replaced if the judgment is reached that they have 
failed or are near failure. We will try to make those 
replacements as identical as possible to the earlier component. 
A problem exists that individual components go out of 
production, manufacturers go out of business, materials change, 
production processes change, certain chemicals previously used 
in production processes may have been forbidden under new 
environmental regulations, and so on. The upshot is that we can 
never be quite certain that these replacement components will 
work as did their predecessors.
    The Department of Energy is to be applauded for its 
commitment meticulously to examine weapons in the stockpile. I 
trust that the Congress will not fail to provide the funds for 
the Stewardship Program. But one must also recognize that the 
reassurance once available through the testing of weapons, at 
least to the point of nuclear ignition, is no longer there. In 
addition, the Stewardship Program will create new facilities 
intended to reduce our still incomplete knowledge regarding 
what occurs in a nuclear explosion.
    It will also provide funding for further enhancement of 
computation power. But these new facilities and new 
enhancements will not be fully available for a decade and then 
the experimentation and the assessment of the results will 
require additional years. Moreover, even significantly enhanced 
computation power would still not be able to simulate a weapon 
3-dimensionally. And, of course, unlike a reliable weapon, 
which can be simulated symmetrically, that is, 2-dimensionally, 
a weapon undergoing decay decays asymmetrically.
    Once again, I trust that the Stewardship Program will be 
vigorously pursued and will be vigorously supported by the 
Congress. Nonetheless, it will be many years before the new 
facilities and new capabilities are in place. It will be more 
years before the projected experiments can be completed and 
assessed. If the treaty is ratified, the Stewardship Program 
would be subjected to the usual budget pressures and to the 
possible erosion of support by the administration or by the 
Congress. It will be many, many years before we can assess 
adequately the degree of success of the Stewardship Program and 
the degree to which it may mitigate the decline of confidence 
in the reliability of the stockpile.
    We should bear in mind that DOE and laboratory personnel 
were never asked, what should we do to sustain or to maximize 
confidence in the reliability of our weapons? To that question, 
the answer remains obvious, as recently testified by the 
current directors of the lab. Periodic testing, at least a very 
low yields, remains desirable. By ``very low yields'', I mean 
in the 1 to 2 kiloton range, Mr. Chairman.
    Instead, they have been asked the question, given an 
international commitment to eliminate nuclear testing, how can 
you best seek to sustain confidence in weapon reliability? To 
that rather different question, the system has responded with a 
vigorous program for stewardship, but no one now has either the 
experience or the knowledge to anticipate the degree of success 
of the Stewardship Program. When queried, DOE or laboratory 
officials will indicate that there is a good chance that, 
through the program, we shall be able to maintain sufficient 
confidence in the stockpile.
    They also know that it will be more than a decade before we 
can judge how successful the Stewardship Program will have been 
and they recognize that never before have we depended on 
weapons as old as those steadily aging weapons in the 
stockpile. In assuring weapon reliability, there is no 
substitute for nuclear testing. How imperfect or how 
satisfactory a substitute the Stewardship Program will prove to 
be remains to be seen.
    For many years, the Congress has received repeated and 
persistent testimony from officials at the DOE and its 
predecessor agencies, from laboratory directors and scientists, 
from the Chiefs, and from the relevant CINCs that nuclear 
weapons testing was essential.
    I have here comments by General Powell, for example, to the 
question, ``Are you prepared to recommend to the President that 
we continue nuclear testing?'' General Powell, ``I would 
recommend to the Secretary and to the President it is a 
condition that we could not meet,'' that is, the Russian demand 
that we cease testing. ``I would recommend against it. We need 
nuclear testing to ensure the safety and security of our 
nuclear stockpile. As long as one has weapons, you have to know 
what it is that they will do, so I would recommend continued 
testing.'' I have a statement from Admiral Crowe and I have 
similar statements from six laboratory directors.
    The testimony in the past has been clear. Suddenly, that 
testimony has changed and now we have a somewhat more ambiguous 
response. Senators will, no doubt, want to satisfy themselves 
to what extent things have really changed.
    We must also contemplate what is implied by the permanent 
cessation of nuclear testing. As one senior official has 
confided, none of us can comprehend what that means. Some 36 
years ago, President Kennedy decided to resume nuclear testing 
after the Soviet Union broke the moratorium. Consider what it 
would mean to have an equal period of 36 years in the future 
without weapons testing. We would then be dependent upon the 
judgment of engineers who are being hired today, that is, 
dependent on the judgment of personnel who will have no 
personal experience either in designing or in testing nuclear 
weapons. In place of a learning curve, we would experience an 
extended unlearning curve. In brief, we are embarked on a 
voyage into the unknown.
    Mr. Chairman, let me now turn away from technical issues to 
the political and strategic issues. Does a decline in the 
confidence in the stockpile, to a degree which cannot now be 
predicted, matter all that much? Quite clearly, in the current 
circumstances, it matters far less than it would have at the 
height of the Cold War. The collapse of the Soviet Union and 
the Warsaw Pact has substantially reduced the dependence of the 
United States and its allies on nuclear weapons. The challenge 
of holding a nuclear umbrella over our allies in Western Europe 
and elsewhere has been substantially alleviated. Moreover, the 
requirement to initiate the use of nuclear weapons in response 
to an overwhelming conventional attack has been eliminated, at 
least for the time being. Indeed, any need for such a nuclear 
response to a conventional attack has, at least for this 
period, happily disappeared.
    Given these altered circumstances, does a decline in the 
confidence in the stockpile reliability matter at all? If the 
United States were just another country and its nuclear posture 
were designed simply to deter attack on its own territories, 
such a decline would probably have only limited significance.
    The United States is, however, not just another country. 
Its geopolitical role on the current world scene is unique. It 
has both acquired and has had thrust upon it international 
responsibilities. It is still pledged to hold a nuclear 
umbrella over its NATO allies and Japan. It has a semi-
commitment also to hold an umbrella over other states, possibly 
including those non-nuclear weapons states that have signed the 
NPT. Its forces are stationed in many countries. Though it 
itself has abandoned chemical and biological weapons, it has 
threatened to retaliate with nuclear weapons to such an attack. 
In the Gulf War, such a threat apparently was sufficient to 
intimidate Saddam Hussein from employing chemical weapons.
    In addition, the United States has a very ambitious foreign 
policy agenda. At this time, it is engaged in the expansion of 
NATO. Our most senior officials have additionally indicated 
that NATO membership should be open to any democratic country 
in Europe. If, for example, NATO is expanded to include the 
Baltic States, no conventional defense would be possible. Under 
such circumstances, if we were to fulfill a commitment to 
provide protection, we would be driven back to threatening a 
nuclear response to a conventional attack, a commitment from 
which we have only escaped recently.
    Given the nature of our foreign policy agenda and given the 
unique geopolitical role of the United States, a decline in the 
confidence in U.S. nuclear weapons cannot, therefore, be viewed 
with equanimity.
    Over the years, much of the pressure for a complete 
cessation of nuclear testing has been based upon a belief that 
such cessation would help to prevent nuclear proliferation. I 
believe that such a view is exaggerated, at best. The 
motivation for the so-called rogue nations--Iraq, Iran, Libya, 
North Korea--to acquire nuclear weapons surely will not be 
affected by whether or not the United States tests. Similarly, 
the possession of nuclear capabilities by the so-called nuclear 
threshold states--India, Pakistan, Israel--depend upon the 
regional circumstances and are scarcely affected by whether or 
not the United States tests. Indeed, the incentives might 
actually point in the opposite direction. If confidence in the 
reliability of the U.S. nuclear deterrent were to decline, 
other nations that have been content to rely on American 
protection might feel impelled to seek their own nuclear 
protection.
    The ambitious nature of the U.S. foreign policy agenda 
implies that a decline in the confidence in the reliability of 
U.S. nuclear weapons and in the U.S. nuclear deterrent could 
not be viewed with equanimity. To be sure, we might be prepared 
to limit our foreign policy agenda as confidence in the 
reliability of the stockpile declines. At the moment, however, 
there is little inclination to move in that direction and even 
less realization that such a price might have to be paid.
    The geopolitical role of the United States remains unique. 
Cessation of nuclear testing would have consequences and those 
consequences will grow as the decades pass. As members of the 
Senate consider ratification of the proposed CTBT and the 
effectiveness of the Stockpile Stewardship Program to slow down 
the decline in the confidence in stockpile reliability, they 
will, I believe, want to carefully examine the risks as well as 
the benefits of the proposed treaty. Thank you, Mr. Chairman. I 
will be delighted to respond to any questions.
    [The prepared statement and article from the Wall Street 
Journal, submitted by Mr. Schlesinger follows:]

                 PREPARED STATEMENT OF MR. SCHLESINGER

             Implications of a Zero-Yield Nuclear Test Ban
    Mr. Chairman, Members of the Committee: As the Senate considers the 
CTBT, it will be obliged to focus on one dominant, ineluctable result 
of its ratification: over the decades ahead, confidence in the 
reliability of our nuclear weapons and in the U.S. Deterrent would 
inevitably decline. The Stockpile Stewardship Program will 
unquestionably mitigate that decline to some extent. It is hoped that 
it may mitigate the decline to a substantial extent. But for the moment 
that remains only a hope. Mitigation is, of course, not the same as 
prevention. Over the decades, the erosion of confidence inevitably will 
be substantial.
    A nuclear weapon is a complicated device--especially so the 
sophisticated weapons in the U.S. stockpile. Its numerous components 
must function together with split-second timing. There is scant margin 
for error. Moreover, a nuclear weapon must be able to endure highly 
stressful environments. On a ballistic missile, for example, a weapon 
must withstand the shock of sharp acceleration, the sub-zero 
temperatures of space, heat of reentry, deceleration, and possibly 
impact. Air-delivered weapons must undergo similar physical stress, 
though to a lesser degree. Once again, there is little tolerance for 
miscalculation. There has never been an adequate statistical basis for 
establishing weapon reliability. Nor have we been able adequately to 
measure the other phenomena that I have mentioned. Inevitably, there 
has always been a good deal of estimation and educated guesswork in 
estimating weapon reliability and overall system reliability. A 
permanent test ban would, of course, amplify those problems.
    As a nuclear weapon ages, its individual components are subject to 
the effects of aging--corrosion, deterioration, unexpected as well as 
expected failure. The shelf-life of U.S. nuclear weapons was expected 
to be some twenty years. In the past, the constant process of 
replacement and testing of new designs gave some assurance that weapons 
would not be subjected to the effects of aging. But in the future, we 
shall be vulnerable to the effects of aging because we shall not be 
able to replace or to test weapons. In a decade or so, we will be 
beyond the expected shelf-life of the weapons in the stockpile.
    It might be noted that a 1978 report to the Armed Services 
Committee stated: ``the reliability of our nuclear weapons . . . has 
been assured by the continuous introduction of recently tested new 
designs and by a constant turnover of the stockpile made possible by 
the retirement of older weapons before they have begun to 
deteriorate.'' It may also be noted that for Soviet--and now Russian--
weapons, the expected shelf-life has been ten years. Unlike ourselves, 
the Russians continue to produce some thousands of weapons each year to 
replace aging weapons in their inventory. By contrast, despite an 
explicit policy commitment, the United States at this time lacks the 
capability either to fabricate or certify new warheads.
    The Stockpile Stewardship Program will, among other things, 
disassemble nuclear weapons selected from the stockpile, subject the 
components to careful individual scrutiny, looking for signs of 
corrosion, decay, etc. Individual components will be replaced if the 
judgment is reached that they have failed or are near failure. We will 
try to make those replacements as identical as possible to the earlier 
component. A problem exists that individual components go out of 
production, manufacturers go out of business, materials change, 
production processes change, certain chemicals previously used in 
production processes may have been forbidden under new environmental 
regulations, and so on. The upshot is that we can never be quite 
certain that these replacement components will work as did their 
predecessors.
    The Department of Energy is to be applauded for its commitment 
meticulously to examine weapons in the stockpile. I trust that the 
Congress will not fail to provide the funds for the Stewardship 
Program. But one must also recognize that the reassurance, once 
available through the testing of weapons at least to the point of 
nuclear ignition, is no longer there. In addition, the Stewardship 
Program will create new facilities intended to reduce our still 
incomplete knowledge regarding what occurs in a nuclear explosion. It 
will provide funding for further enhancement of computation power. But 
these new facilities and enhancements will not be fully available for a 
decade and then the experimentation and the assessment of the results 
will require additional years. Moreover, even significantly enhanced 
computation power would still not be able to simulate a weapon three 
dimensionally--and, of course, unlike a reliable weapon which can be 
simulated symmetrically, a weapon undergoing decay decays 
asymmetrically.
    Once again, I trust that the Stewardship Program will be vigorously 
pursued and will be vigorously supported by the Congress. Nonetheless, 
it will be many years before the new facilities and new capabilities 
are put in place. It will be more years before the projected 
experiments can be completed and assessed. If the treaty is ratified, 
the Stewardship Program would be subjected to the usual budget 
pressures and to the possible erosion of support by the administration 
or by the Congress. It will be many, many years before we can assess 
adequately the degree of success of the Stewardship Program and the 
degree to which it may mitigate the decline of confidence in the 
reliability of the stockpile.
    We should bear in mind that DOE and laboratory personnel were never 
asked: what should we do to sustain or to maximize confidence in the 
reliability of our weapons? To that question the answer remains 
obvious: periodic testing at least at very low-yield remains desirable. 
Instead they have been asked a question: given an international 
commitment to eliminate nuclear testing, how can you best seek to 
sustain confidence in weapon reliability? To that rather different 
question the system has responded with a vigorous program for 
stewardship. But no one now has either the experience or the knowledge 
to judge the degree of success of the Stewardship Program. When 
queried, DOD or laboratory officials will indicate that there is ``a 
good chance'' that through the program we shall be able to maintain 
``sufficient'' confidence in the stockpile. They also know that it will 
be more than a decade before we can judge how successful the 
Stewardship Program will have been, and they recognize that never 
before have we depended on weapons as old as those steadily aging 
weapons in the stockpile. In assuring weapon reliability, there is no 
substitute for nuclear testing. How imperfect a substitute the 
Stewardship Program will prove to be remains to be seen.
    For many years, the Congress has received repeated and persistent 
testimony from officials at the DOE and its predecessor agencies, from 
laboratory directors and scientists, from the Chiefs, and from the 
relevant CINC's that nuclear testing was essential. Suddenly that 
testimony has changed, and now we have a somewhat ambiguous response. 
Senators will, no doubt, want to satisfy themselves to what extent 
things have really changed.
    We must also contemplate what is implied by the permanent cessation 
of nuclear testing. As one senior official has confided--one of us can 
comprehend what that means. Some thirty-six years ago President Kennedy 
decided to resume nuclear testing after the Soviet Union broke the 
Moratorium. Consider what it would mean to have an equal period in the 
future without weapons testing. We would then be dependent upon the 
judgment of engineers who are being hired today--that is dependent on 
the judgment of personnel who will have no personal experience either 
in designing or in testing nuclear weapon. In place of a learning 
curve, we would experience an extended unlearning curve. In brief, we 
are embarked on a voyage into the unknown.
                                  II.
    Mr. Chairman, let me now turn away from technical issues to the 
political and strategic issues. Does a decline in confidence in the 
stockpile, to a degree which cannot now be predicted, matter all that 
much? Quite clearly in the current circumstances, it matters far less 
than it would have at the height of the Cold War. The collapse of the 
Soviet Union and the Warsaw Pact has substantially reduced the 
dependence of the United States (and its allies) on nuclear weapons. 
The challenge of holding a nuclear umbrella over our allies in Western 
Europe and elsewhere has been substantially alleviated. Moreover, the 
requirement to initiate the use of nuclear weapons in response to an 
overwhelming conventional attack has been eliminated. Indeed, any need 
for such a nuclear response to a conventional attack has, at least for 
this period, happily disappeared.
    Given these altered circumstances, does a decline in confidence in 
the stockpile reliability matter at all? If the United States were just 
another country and its nuclear posture were designed simply to deter 
attack on its own territories, such a decline would probably have only 
limited significance.
    The United States is, however, not just another country. Its 
geopolitical role on the current world scene is unique. It has both 
acquired and has had thrust upon it international responsibilities. It 
is still pledged to hold a nuclear umbrella over its NATO allies and 
Japan. It has a semi-commitment also to hold an umbrella over other 
states, possibly including those non-nuclear weapon states that have 
signed the NPT. Its forces are stationed in many countries. Though it 
has abandoned chemical and biological weapons, it has threatened to 
retaliate with nuclear weapons to such an attack. In the Gulf War such 
a threat apparently was sufficient to intimidate Saddam Hussein from 
employing chemical weapons.
    In addition, the United Statics has a very ambitious foreign policy 
agenda. At this time, it is engaged in expansion of NATO. Our most 
senior officials have additionally indicated that NATO membership 
should be open to any democratic country in Europe. If, for example, 
NATO is expanded to include the Baltic states, no conventional defense 
would be possible. Under such circumstances, if we were to fulfill a 
commitment to provide protection, we would be driven back to 
threatening a nuclear response to a conventional attack--a commitment 
from which we have only escaped recently. Given the nature of our 
foreign policy agenda and given the unique geopolitical role of the 
United States, a decline in the confidence in U.S. nuclear weapons 
cannot therefore be viewed with equanimity.
    Over the years, much of the pressure for a complete cessation of 
nuclear testing has been based upon a belief that such cessation would 
help to prevent nuclear proliferation. I believe that such a view is 
exaggerated at best. The motivation for the so-called rogue nations--
Iraq, Iran, Libya, North Korea--to acquire nuclear weapons surely will 
not be affected by whether or not the United States tests. Similarly, 
the possession of nuclear capabilities by the so-called nuclear 
threshold states--India, Pakistan, Israel--depend upon regional 
circumstances and are scarcely affected by whether or not the United 
States tests. Indeed, the incentives might actually point in the 
opposite direction. If confidence in the reliability of the U.S. 
nuclear deterrent were to decline, other nations that have been content 
to rely on American protection might feel impelled to seek their own 
nuclear protection.
    The ambitious nature of the U.S. foreign policy agenda implies that 
a decline in confidence in the reliability of U.S. nuclear weapons and 
in the U.S. nuclear deterrent could not be viewed with equanimity. To 
be sure, we might be prepared to limit our foreign policy agenda, as 
confidence in the reliability of the stockpile declines. At the moment, 
however, there is little inclination to move in that direction, and 
even less realization that such a price might have to be paid.
    The geopolitical role of the United States remains unique. 
Cessation of nuclear testing would have consequences--and those 
consequences will grow as the decades pass. As members of the Senate 
consider ratification of the proposed CTBT, and the effectiveness of 
the Stockpile Stewardship Program to slow down the decline in the 
confidence in stockpile reliability, they will, I believe, want to 
carefully examine the risks as well as the benefits of the proposed 
treaty.
Article from The Wall Street Journal, Monday, July 12, 1993
              Clinton Defers A Necessity--Nuclear Testing
                          By James Schlesinger
    On July 3, President Clinton announced his long-awaited decisions 
regarding the future of nuclear testing, called for by congressional 
legislation enacted in 1992. In brief, he decided to continue the 
nuclear testing moratorium for at least 15 months, to avoid nuclear 
testing unless some other nation tests, to begin negotiations for a 
comprehensive test ban starting presumably in 1996, and, apparently, to 
prohibit subsequent testing with nuclear yield.
    Since our national security and foreign policy departments had 
within recent months recommended unanimously that nuclear testing be 
resumed (and a presidential decision to do so had been announced to the 
press), these decisions represented quite a package to be buried on the 
Fourth of July weekend.
    Let us first examine the short-run implications. The most serious 
is that we have scuttled our most intimate, longtime ally. The U.S. has 
been committed to allowing the British to test the warheads for their 
Trident program (for which, incidentally, we are selling them the 
missiles) at our Nevada test range. Unless some other weapons state 
bails us out by testing first, the president's decision means that the 
British program is both delayed and degraded. Quite bluntly, we have 
treated the British more shabbily than at any time since another 
weapons doublecross, the Skybolt decision of 1962. British officials 
have steadily urged the administration to permit their tests to take 
place, but they have done so quietly, wishing to avoid an embarrassing 
public rebuff by their major ally.
Concerns Over Warheads
    This decision will seriously damage our relations with the U.K. On 
the Continent, the reaction could be even worse. The Germans will 
recall being similarly embarrassed by the neutron bomb decision of 
1977. The French will likely extract some delight in seeing the British 
(once again) come a cropper in their willingness to rely on the U.S. 
But overall the reaction will be quite simple: If the Americans despite 
their ``special relationship,'' are prepared to do this to the British, 
what kind of support can the rest of Europe expect?
    There is another near-term aspect of the decision not to test. 
Present law permits testing to enhance the safety of the weapons 
inventory. The president's decision puts us in a paradoxical and 
potentially distressing position: If we have a serious safety problem, 
we must wait for some other nation to test before we address that 
problem. Even now there are safety concerns with the W-88 warhead for 
the Trident and the W-80 for the air-launched cruise missile.
    These are, however, risks that we can tolerate. All in all, the 
president's decision does little immediate damage to America's own 
defense posture. But if we turn to the longer run, the consequences are 
potentially dire. Why this is so requires a brief explanation of the 
nature of nuclear weapons, and the continued necessity for reliability 
testing.
    A nuclear weapon is a highly complicated device. This is especially 
so for American weapons, since over the decades we have steadily sought 
to improve yield-to-weight ratios, safety, security and reliability. 
Over time, individual components of these weapons will fail or degrade, 
and will have to be replaced. Acceptable components may become 
unavailable, as manufacturers shift product lines or go out of 
business. Over time, materials may be slightly altered. Thus new 
components or components of slightly different materials must be 
integrated into weapon designs that were deployed earlier. As this 
process goes on over the years, a simple question arises: Will this 
design still work?
    That is why reliability testing is essential. As time passes, and 
as the weapon is retrofitted, we must be absolutely confident that this 
modified device will still induce the proper nuclear reaction. That is 
why nonnuclear testing, valuable as it is, is insufficient. It is why 
talk of a test ban with zero nuclear yield is irresponsible. Testing 
for reliability may be very low-yield, in the kiloton range, but it 
remains essential if we are to maintain confidence in stockpile 
reliability.
    All this should be perfectly obvious, if nuclear testing had not 
become so freighted with symbolism in the years since President 
Kennedy's atmospheric test ban. Individuals who would not allow their 
lawnmowers, let alone their automobiles, to go untested for more than a 
year will argue with apparent seriousness that our nuclear weapons can 
remain untested in perpetuity and yet remain reliable.
    The history, of complex military hardware gives no support to that 
belief. To cite one example, going into World War II the Navy's 
torpedoes had not been adequately tested because of insufficient funds. 
It took two years of war before we fully solved the problem of making 
our torpedoes effective. At the battle of Midway, the U.S. launched 47 
torpedo aircraft, with not a single hit on any Japanese ship. (The 
Japanese performance at Pearl Harbor was noticeably better.) Had it not 
been for our dive bombers (and some good luck) the U.S. would have lost 
the crucial naval battle of the Pacific war.
    We can reduce the number of tests to a minimum. We can go to very 
low-yield testing. But we cannot--unless we are irresponsible--
eliminate testing entirely. Especially now that we are reducing the 
numbers of delivery vehicles and warheads, we cannot afford to allow 
warhead reliability to erode as well. No longer will there be a 
sufficient variety of systems to tolerate, say, more than one weapon's 
reliability problem.
    The legislation adopted by Congress in 1992 (and reluctantly signed 
by President Bush) was based on the premise that we could run a few 
reliability tests between now and the end of 1996, and those few tests 
would ensure the reliability of our principal weapons designs in 
perpetuity. It is a false premise, reflecting a rather cavalier 
attitude toward stockpile reliability. It will not stand up to 
scrutiny.
    The administration will seek to justify its reversal. First, it 
will emphasize that a halt in testing is essential to our effort to 
prevent the spread of nuclear weapons. This seems to suggest that the 
reason such leaders as Kim II Sung, Saddam Hussein, Moammar Gadhafi, 
and Hashemi Rafsanjani--as well as prominent nonproliferation treaty 
holdouts like India and Pakistan--are motivated to acquire nuclear 
capabilities is that the Americans are testing.
    To say the least, this strikes me as a naive reading of the 
motivations of nuclear aspirants. Suffice it to say, to prevent the 
further spread of nuclear weapons will require a massive effort on the 
part of the U.S. and the international community, and we shall get 
scant assistance by refraining from an occasional low-yield test to 
sustain our confidence in stockpile reliability. Indeed, those many 
nations that prefer to be sheltered under the American nuclear umbrella 
(though they themselves could acquire nuclear capabilities) will 
scarcely be sustained in their policies if our actions raise doubts 
about the reliability of our weapons.
    Second, we shall hear much in the months ahead about the new 
safeguards that will be put in place as a substitute for testing: 
advanced simulation techniques, new computer codes, etc. We shall hear 
praise for the sophistication of our laboratories that can make testing 
unnecessary. Yet one conclusion remains ineluctable: In the absence of 
any nuclear testing, both the estimate of stockpile reliability and the 
degree of confidence in that estimate will erode over the decades 
ahead.
    Third, we shall hear a great deal about the soundings that were 
taken in Congress and the negotiations regarding what would be 
acceptable, before the administration abandoned its initial decision to 
resume testing. That there were such inquiries is true, but they were 
primarily with the critics of nuclear testing who sought to emphasize 
how restrictive the legislation was.
Ignoring the Critics
    Little attempt was made to listen to those lawyers who insisted 
that the legislation provided the administration with ample leeway. 
Little attempt was made to organize support for renewed testing on the 
Hill. For example, save for the principal sponsor of the legislation, 
Republicans in the Senate were ignored. In any event, it is the 
obligation of an administration not simply to defer to prevailing Hill 
sentiment but to shape attitudes on important matters of national 
security.
    The administration has acknowledged that in this case, at least, it 
has failed to do so. However, there is some good news in the 
administration's handling of this issue. In my judgment it will forever 
preclude this or another administration's obtaining the 67 Senate votes 
needed to ratify a comprehensive test ban treaty, if that treaty were 
to preclude low-yield testing for reliability purposes.
    Our principal designs are relatively new. For the next half-decade, 
perhaps for as long as a decade, the decline in the confidence in the 
stockpile will be relatively modest. If President Clinton does not 
recognize the connection between continued testing and confidence in 
the stockpile, one of his successors almost certainly will. Continued 
testing, if very modest testing, is the price of a reliable deterrent.
                               __________
    Mr. Schlesinger is former Defense Secretary, former Chairman of the 
Atomic Energy Commission, and former Secretary of Energy.

    Senator Cochran. Thank you very much, Dr. Schlesinger, for 
your interesting statement.
    Before I came over here, I was at a luncheon and the 
question came up what I had to do this afternoon. I mentioned 
to one of my luncheon companions that I would chair a hearing 
on the subject of the safety and reliability of the U.S. 
nuclear deterrent and this person said, ``Well, do not mess 
up.'' That very clearly, I think, sets the tone for this 
hearing, at least in my mind, that makes this a very serious 
undertaking. We really do need to know what we are doing and 
what the consequences of our actions in ratifying this 
Comprehensive Test Ban agreement will be and whether or not 
there is in place an acceptable alternative to testing.
    Your testimony also, I think, meets the challenge of the 
seriousness of the activity that we are about, examining the 
facts, examining the consequences, and so we deeply appreciate 
your taking time to come here to the hearing today and to 
present this impressive testimony.
    Mr. Schlesinger. Thank you, Mr. Chairman.
    Senator Cochran. You have pointed out, and I said in my 
statement, others have acknowledged the fact that there are a 
lot of unknowns about the Stewardship Program. It seems to me 
that one option for us, and I am curious to know your reaction, 
is to postpone or phase in the effective dates of any kind of 
test ban that would tie the hands of the U.S. Do you know 
whether the administration has undertaken to explore that 
option with our negotiating partners, whether or not that would 
be a practical way to see if we do develop an alternative at 
some time in the future rather than at the front end making a 
commitment that whether or not we are able to develop an 
alternative, we are bound by that agreement? What is your 
reaction to that?
    Mr. Schlesinger. Well, if the administration were prepared 
to do that, it would not be shared with me. I think that the 
administration is committed to proceeding with the CTBT as it 
has been signed and which the administration itself led in 
securing the other countries to sign. So I would doubt, at 
least at this stage, that the administration would be prepared 
to consider it.
    It would have an advantage, not only of reducing the 
uncertainties involved about the Stockpile Stewardship Program, 
Mr. Chairman, but it would also allow less opportunity for the 
normal budget pressures to chip away at the funding of the 
Stockpile Stewardship Program.
    Senator Cochran. Up until 1992, the United States made sure 
that the weapons we had were safe and reliable by conducting 
periodic tests, and while we did not obtain 100 percent 
confidence even from these tests, they did provide a level of 
confidence that was considered to be adequate by policy makers 
and by other observers throughout the world.
    Do you think these tests served the purpose of helping to 
demonstrate to potential adversaries and observers that the 
U.S. possessed nuclear weapons that worked and established the 
credibility necessary for nuclear deterrence, and if so, do you 
believe that the Stockpile Stewardship Program would 
demonstrate that same credibility in our nuclear deterrent?
    Mr. Schlesinger. It would not be a substitute or a perfect 
substitute for testing. I think that that is universally 
understood. It might prove to be, Mr. Chairman, too credible--
in this respect, that other nations, when we announced the 
Stockpile Stewardship Program, have said, this is another 
example of American technological superiority. They are trying 
to steal a march on us. They will be able to sustain their 
weapons, and we will be unable to match them. Some of our 
response, as reflected in the New York Times today, has been to 
say that we are going to be prepared to share both our 
computational ability and the information that comes from the 
Stockpile Stewardship Program with others, and we have had 
pressures from the French and from the Russians, in particular, 
with regard to that issue.
    So there is a conspiracy theory afoot around the world and 
the conspiracy theory basically says that this is the Americans 
pulling a fast one because they have technical advantages over 
us that we cannot match.
    Senator Cochran. Do you think that there are any changes or 
conditions that could be made to ratification of the treaty by 
the Senate that would make it advisable, then, or in our clear 
interest, to approve the Comprehensive Test Ban Treaty?
    Mr. Schlesinger. As I have indicated in my prepared 
remarks, Mr. Chairman, I am concerned about the permanency of 
this treaty and I am concerned about zero yield. As some of the 
Members here may recall, when President Carter dealt with the 
issue of the CTBT, it was at a time that we were seeking a 10-
year treaty and that yields up to 2 kilotons would be 
permissible. That was about the level that we could verify, 
down to that level.
    If there were a limitation in time so that we do not face 
the uncertainties for perhaps an infinite period, and if we 
were permitted to test at very low yields from time to time, I 
would feel more comfortable with this treaty.
    Senator Cochran. Thank you. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    One of the references in your testimony is to the position 
of the Chiefs relative to nuclear testing and it was my 
understanding that the Chairman of the Joint Chiefs, General 
Shalikashvili, has supported the decision of the President to 
sign the Comprehensive Test Ban. Was that not your 
understanding?
    Mr. Schlesinger. That is my understanding, Senator. I was 
referring to prior testimony to the Congress. I said that the 
testimony has changed. It is now different from what it has 
been in the past and Senators might want to inquire into the 
basis for that change.
    Senator Levin. But it is your understanding, as it is mine, 
that General Shalikashvili, reflecting the position of the 
Joint Chiefs, did support the entering into this Comprehensive 
Test Ban Treaty?
    Mr. Schlesinger. Yes, sir.
    Senator Levin. Your last statement, or your last comment in 
your statement was that we should examine the risks as well as 
the benefits of the proposed treaty and you outline some of the 
risks. Could you give us some of the benefits, in your 
judgment?
    Mr. Schlesinger. Primarily two, Senator Levin. As you are 
aware, as everyone is aware, the United States took the lead in 
acquiring the support of other nations for the CTBT. It leaned 
very hard on some of those nations, including Russia. At this 
stage, whether it was wise to have gotten into this initially 
or not, if the United States fails to ratify, that raises 
questions about our credibility, so that one benefit would be 
to sustain our credibility on a path that we have embarked on.
    The other one that I would mention, which is less 
significant than it was during the Cold War, is that when the 
United States and the Soviet Union were vying for advantages in 
the nuclear weapons area, the United States felt that it had a 
sizeable advantage over the Soviet Union at that time and that 
a limitation on testing would, in effect, slow down any 
capacity of the then-Soviet Union to reduce that advantage. I 
think that there is still something there, though there is less 
than there was during the Cold War.
    Senator Levin. Were you a supporter of the permanent 
extension of the Nonproliferation Treaty?
    Mr. Schlesinger. Absolutely. Yes, sir.
    Senator Levin. If, in fact, the participation in the 
Comprehensive Test Ban was important to gaining the permanent 
extension of the Nonproliferation Treaty, would that be added 
as a benefit on your ledger?
    Mr. Schlesinger. That is an aspect of the first point that 
I made, but it is a special aspect. Indeed, we, once again, 
perhaps unwisely, our negotiators did make those kinds of 
commitments.
    Senator Levin. Was our decision not to manufacture or 
remanufacture weapons of the same design that were previously 
manufactured, which I believe was a decision of President Bush, 
was that decision driven by the Comprehensive Test Ban, or is 
that just----
    Mr. Schlesinger. No. That decision was driven by the so-
called Hatfield Amendment.
    Senator Levin. But that had nothing to do with the 
Comprehensive Test Ban, that decision. We could change that 
decision, I presume, if we wanted to, consistent with the 
Comprehensive Test Ban, is that correct? In other words, we 
could remanufacture or manufacture weapons the way the Russians 
do, according to the same design over and over again, 
consistent with the Comprehensive Test Ban?
    Mr. Schlesinger. Yes, indeed. There are two aspects of 
that, first, that we, at this juncture, do not have that 
capability to remanufacture. Secondly, for the reasons I 
mentioned in my statement, it is impossible to guarantee that 
the components that one replaces prior components with are the 
same or identical and will act in the same way.
    Senator Levin. But my point is, when you said that we----
    Mr. Schlesinger. We are not constrained with regard to 
remanufacture.
    Senator Levin. And when you said that the Russians are 
manufacturing or remanufacturing and we are not, that is not 
anything to do with the Comprehensive Test Ban?
    Mr. Schlesinger. No. That is correct.
    Senator Levin. That is for other reasons.
    Mr. Schlesinger. We shut down our production complex for a 
variety of reasons, including environmental reasons. Whether 
that was wise or not is a question. The Russians have chosen to 
continue to run their production complex.
    Senator Levin. I just wanted to make the point, we could 
start that up again if we chose and still be within the 
Comprehensive Test Ban.
    Mr. Schlesinger. Within some years, yes.
    Senator Levin. Now, we have adopted a prohibition in the 
so-called Hatfield-Exon-Mitchell Act on testing after September 
30, 1996. This Act was passed in October 1992, had a 1-year 
moratorium on testing, and then up to five tests per year for 3 
years and then the prohibition after September 30, 1996, unless 
another country conducted a test. Do you believe that that 
should be repealed, that Act?
    Mr. Schlesinger. I think that the Act is an encumbrance, 
but in the light of the position of the administration and the 
issue of the CTBT, I do not think that the repeal of that Act 
at this time will change anything--excuse me, that amendment at 
this time.
    Senator Levin. That is all I have. Thank you, Mr. Chairman.
    Senator Cochran. Senator Domenici, you were the next 
Senator on the Subcommittee in attendance. You are recognized.
    Senator Domenici. Thank you, Mr. Chairman.
    First, I want to say to you, I am delighted to be here. I 
hope I can join in more of your hearings. There is probably no 
treaty on the horizon that is more important than this one.
    Dr. Schlesinger, let me just say, I was asking somebody 
recently if they knew you and they did not know you very well 
and I proceeded to tell them my views. I hope you know that I 
think during the last 40, 50 years, you are probably one of the 
most gifted public servants and advisors to Presidents that we 
have had in this country. I am just very, very proud of the way 
you have conducted yourself. Now, whether I end up agreeing 
with you on the Comprehensive Test Ban Treaty, that matters 
little.
    Let me see if I can do a little bit without using up too 
much time. At this moment in our nuclear weapons evolution, we 
are not manufacturing any new bombs and we are not doing any 
nuclear underground testing. That is both because the 
moratorium and the President chooses to continue the 
moratorium, which is up to him, given certain conditions. I 
assume you would probably say there has been at least one time 
when he could have said, the moratorium is off.
    He has chosen not to, but rather to proceed to try to get 
countries to sign the Comprehensive Test Ban Treaty. He has had 
some rather significant good fortune on the CTBT if it means as 
much as I think it does, although we have some verification 
questions and we have some questions as to whether we are tied 
too tightly in terms of trying to get inspection authority to 
go into foreign countries. We are required to get more than a 
simple majority, as you know, of the members because, in turn, 
we get to keep our own mechanisms for surveillance.
    But let me say, as far as the safety and reliability of the 
stockpile in this new mode, which is no new nuclear designs, we 
all should be aware, should we not, that the Joint Chiefs of 
Staff passed on this. The condition they imposed on the 
President was that the directors of our national laboratories, 
the three that we normally associate with maintaining this 
stockpile, would have to certify annually that, indeed, the 
stockpile was reliable, trustworthy, safe, et cetera. Now, they 
have been doing that, have they not, even without any nuclear 
tests?
    Mr. Schlesinger. They have been doing that. They have been 
required to do that by the established process, yes sir.
    Senator Domenici. Wait a minute. Your use of the word 
``required'' there would mean that somebody told them to. They 
have been required or the President does not have a deal with 
the Joint Chiefs?
    Mr. Schlesinger. This is a procedure that has gone on for 
many years. I think that the Chiefs were saying that this 
procedure must continue into the future. The laboratory 
directors have been required--not required, have annually 
certified the stockpile.
    Senator Domenici. But the point I am making is, they are 
pretty good people with pretty good advisors, are they not? 
They and their predecessors have kept America in its nuclear 
position, I think. The directors of the laboratories and those 
who advise them probably have kept America in the position of 
avoiding a nuclear war over all this time. I do not notice any 
failure or any diminishing of the quality of those directors.
    Los Alamos succeeded from one to another recently, and I 
think anybody in your position looking at John Browne, the 
recently-appointed new head of Los Alamos, would say he ranks 
among the three or four best nuclear weapons people in the 
world. We have a similar situation where the ambassador that 
negotiated most of our treaties for reduction in nuclear forces 
as a physicist is head of Sandia. So these people have all 
agreed, as I understand it, even as of now, that even if we do 
not have this treaty, we do not have to have any testing and we 
can maintain our stockpile, is that not correct?
    Mr. Schlesinger. They have agreed that we need not have 
testing but that the confidence in the stockpile reliability 
will decline, and that has been reiterated most recently by Sig 
Hecker, the Director of Los Alamos.
    Senator Domenici. And Sig Hecker is the director who 
apparently, as a leader among the directors, concurred that we 
could maintain this stockpile with this President when the 
question was asked of the laboratory directors.
    Mr. Schlesinger. Well, he is hopeful that we may be able to 
sustain it.
    Senator Domenici. OK.
    Mr. Schlesinger. He is very clear that we now have a lower 
confidence level.
    Senator Domenici. I guess I am concerned whether we can 
reliably maintain the stockpile with what we now have. My 
little Subcommittee on Energy and Water puts all the money up, 
so I have to learn a little bit about it. Frankly, I believe 
that science-based stockpile stewardship is a rather good 
American approach to trying to maintain those weapons without 
testing. From what I understand, within about 3 or 4 years, 
which is not a huge number of years in the life of a nuclear 
weapon even though they are getting very old, we will have all 
of the equipment, including sophisticated computers and some 
new devices to look inside the bombs to see what their status 
is. It will cost us a lot of money to get that built, but I am 
told that will make the stockpile pretty reliable. Are you 
speaking relatively, or are you saying they will be unsafe 
unless we do testing?
    Mr. Schlesinger. We do not know. We do not know. Let me 
assure you that I think that the Stewardship Program is a good 
American program, as you have put it. We are all hopeful that 
it will provide information to lessen the decline of confidence 
in the reliability of that program. But if you take the NIF, 
for example, it is not scheduled to come into existence until 
2003, if memory serves. If that program slips--as has happened 
before in the history of Department of Energy projects--it will 
be later than 2003.
    Senator Domenici. Well, NIF----
    Mr. Schlesinger. It will take many years before we have the 
computational power to look inside of a weapon 3-dimensionally.
    Senator Domenici. The NIF is the National Ignition 
Facility.
    Mr. Schlesinger. Yes, sir.
    Senator Domenici. Anybody looking at the treaty will find 
out its major initial funding was voted by five Senators here 
today who voted to put it into effect, because in the energy 
and water bill, which you all voted for, we put the first 
installment down, Mr. Chairman, to build this new facility at 
Livermore. But it is interesting.
    Mr. Schlesinger. I hope that it does not go the way of the 
super collider, Senator.
    Senator Domenici. I do not think it has a chance on the 
same grounds, but it is interesting. For while you sit here and 
say, ``We will not have that ready within a certain period of 
time,'' there is a very distinguished group of physicists in 
the nuclear community who said we did not need it anyway. So we 
have that going, too, and I do not know what you think about 
that. I did not call you in and ask you. I asked a lot of other 
people before we said, ``Let us go ahead and fund it.
    Let me move a little bit in another direction. You 
expressed some serious concern that the treaty will not prevent 
rogue states from obtaining nuclear weapons.
    Mr. Schlesinger. Correct--no, that they will seek to obtain 
nuclear weapons, that it will not inhibit their seeking to 
obtain nuclear weapons.
    Senator Domenici. Right. Do you have any other approach 
that would inhibit them from seeking to obtain rogue weapons?
    Mr. Schlesinger. The only other approach, Senator, is 
physical means.
    Senator Domenici. And it has nothing to do with whether we 
have underground testing or not.
    Mr. Schlesinger. No. The point that I was making is that 
whether or not we test is irrelevant to their motivations.
    Senator Domenici. Correct.
    Mr. Schlesinger. Yes.
    Senator Domenici. So the underground testing takes on a 
different coloration than it might have 20 years ago in that 
these rogue countries, if they would be buying weapons, do not 
need to test. They would not need testing, these rogue 
countries, would they, that you are worried about?
    Mr. Schlesinger. They do not need testing if they are 
satisfied with large weapons with relatively limited yields. I 
suspect, as your question implies, that they would be, because 
they have much less demanding purposes.
    Senator Domenici. Let me just ask another question, and if 
I need to submit some questions to you which are more specific, 
may I do that, Mr. Chairman?
    Senator Cochran. We would be happy to have you do that.
    Senator Domenici. Let me just ask, what type of program 
would you suggest that might satisfy your concerns regarding 
the situation as it is now? Do you have certain tests you think 
we ought to be conducting, certain yields, certain----
    Mr. Schlesinger. Senator, mention was made of the Hatfield 
Amendment. I would have proceeded with some confidence testing 
under the latitude of five tests that existed then. That has 
been cut off now.
    In the future, as I think I have indicated, I am not 
worried about this year or next year or the even next decade. 
What I am worried about in particular is the permanency of this 
treaty, which will prevent our testing more or less in 
perpetuity, even as the confidence in the stockpile declines. 
So that is my principal concern.
    Senator Domenici. Mr. Chairman, I might say, it seems to 
this Senator that one of the issues that we have to be 
seriously concerned about as we look at this treaty is whether 
the United States, if we sign it, would continue with the 
effort to make sure we have and use the technology to be able 
to determine to the maximum extent whether testing is taking 
place elsewhere.
    Senator Cochran. That testing is taking place elsewhere?
    Senator Domenici. Yes. In order to enforce this treaty, we 
can use our own national means of ascertaining whether an event 
occurred that may be a nuclear test. That is up to us. Then 
there are international systems that give us guideposts and 
help. What concerns me is we may get into a complacency 
situation once the treaty is done and not continue such things 
as sensor programs. Many of them are airborne, as you know; 
many of them are on satellites, as you know; and we have to 
maintain the pressure and the resources to keep that going. 
Some of them are piggy-backed, so the total mission is not all 
a military function. Some of it is a straight transportation 
function and the like. I will be working with you and others to 
see if we can have some kind of a national legislation that 
assures that we will do everything within our technological 
powers to maintain our ability to ascertain whether any event 
is occurring in another country.
    Thank you very much.
    Senator Cochran. Thank you, Senator.
    Mr. Schlesinger. Could I add one thing there with regard to 
Senator Domenici's comments?
    Senator Cochran. Mr. Secretary.
    Mr. Schlesinger. I expressed some concern that in the 
future, after hypothetical ratification of the agreement, the 
Congress or the administration might be less willing to provide 
the funds for the Stewardship Program. It seems to me that that 
could be a requirement that is written into that hypothetical 
ratification at that time, that the support of the agreement by 
the Congress would lapse if that safeguard is not observed.
    Senator Cochran. Thank you very much. Senator Thompson, the 
Chairman of our full Committee on Governmental Affairs.
    Chairman Thompson. Senator Kyl was here before me.
    Senator Cochran. He is here to observe. He is not a member 
of our Subcommittee.
    Chairman Thompson. Thank you very much, Mr. Chairman. I, 
too, appreciate the fact that you are having these hearings. It 
has been something that has been a concern of mine for some 
time and we are certainly fortunate to have Dr. Schlesinger's 
views.
    I share his recurring theme here of long-term commitment. 
We are making a long-term commitment, or would be in this 
treaty, and it is going to require a long-term commitment of 
us, both in terms of new and additional monies which you 
expressed some concern about, rightfully so, and new and 
additional people to operate these laboratories in the future. 
I do not think we are doing too well nowadays in terms of 
facing up to long-term problems and things that do not have 
some immediate benefit to us and this is going to be off the 
radar screen if it continues to go down the road that it is 
going now and the treaty is approved.
    One of the things that concerns me has to do with the 
actual management part of the Stewardship Program and the 
production facilities. You point out some of the problems in 
connection with maintaining the adequate funding, having new 
people come in who really never knew anything about the 
manufacturing of these things or that expertise and so forth 
after a period of time is going to be lost.
    I would be interested in your views, assuming that the 
Comprehensive Test Ban Treaty is approved, what are the things 
that we need to do from a production standpoint? As you know, 
that includes activities such as manufacturing of weapons 
components and modification of existing warheads and things of 
that nature, so that if we ever do need these things in the 
future, they will be there. What are the kinds of things that 
we have to be mindful of in the future?
    I was looking with some concern, as a part of the 
submission to the Senate for ratification of the treaty, the 
President proposed six safeguards that the United States should 
take to maintain our security under this treaty, and they 
mention the maintenance of nuclear laboratory facilities, 
which, of course, is important, but there is no mention of 
production facilities. What are your thoughts about this?
    Mr. Schlesinger. Of course, the administration, as I 
mentioned in my testimony, has committed itself to maintain--
made a policy commitment ``to maintain the capability to 
design, fabricate, and test nuclear weapons,'' including 
fabrication. At the moment, we do not have that capability. It 
has been a reflection of the closure of Rocky Flats, for which 
there is no replacement as yet, and will be only a limited 
replacement in Senator Domenici's State. Y-12 in your own State 
is closed down. If you look at that display, you will see that 
those are two critical elements in the capability to fabricate 
nuclear weapons. We do not have that capability at this time.
    Chairman Thompson. What are your thoughts about that?
    Mr. Schlesinger. I was concerned in 1989 when Rocky Flats 
was closed down. That was before the end of the Cold War. The 
end of the Cold War substantially alleviated that concern. I am 
still concerned about the lack of an ability to fabricate 
warheads, not as Senator Levin indicated, new warheads, but 
just to remanufacture existing warheads. When we take apart, 
when we disassemble a warhead, we disassemble parts of it to 
destruction, so that one must be able to replace those 
elements. At the moment, we have no capability to replace the 
primaries.
    Chairman Thompson. What is it going to take to reachieve 
that capability?
    Mr. Schlesinger. The Department--I think that you would 
have to speak to Secretary Reis on that--the Department has a 
plan to bring that capability back into existence on a very 
limited basis at Los Alamos. There is also a plan, I believe, 
and once again, Secretary Reis would be able to comment more 
knowledgeably on this, to bring Y-12 back into the capability 
to contribute to the weapons.
    Chairman Thompson. We can discuss that with the Department.
    Mr. Schlesinger. One other aspect, you asked the question, 
what should we do. We are trying to capture experience, 
interviews with those who have designed, those who have 
participated in the manufacture of weapons, put them on 
videotape so that that experience does not disappear. That is, 
once again, not a perfect substitute, but it would help 30 
years out or 25 years out if we have to go back for national 
security reasons to producing nuclear weapons, and even 
possibly producing new nuclear weapons.
    Chairman Thompson. Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    Secretary Schlesinger, thank you so much for being here. We 
appreciate your testimony.
    Mr. Schlesinger. Thank you, Senator.
    Senator Levin. May I just ask one more question?
    Senator Cochran. Senator Levin.
    Senator Levin. I was a little uncertain about one answer 
and that has to do with this certification procedure. My 
understanding was that the certification procedure, which I 
believe Senator Domenici was referring to, is a new 
certification procedure. You suggested it had been in place for 
some time and I am now very uncertain as to whether we are 
talking about the same certification procedure.
    Mr. Schlesinger. The laboratories have been required in the 
past, have habitually certified the stockpile. There may be new 
wrinkles in the certification procedure. I am not aware of 
them. Certification, in general, has been a function of the 
laboratory directors.
    Senator Levin. Because there was a new certification 
procedure put in place in August 1995 and that is the one 
which, I think, we have been referring to here. Thank you.
    Senator Cochran. Thank you.
    Senator Domenici. Mr. Chairman.
    Senator Cochran. Senator Domenici.
    Senator Domenici. Dr. Schlesinger, before you leave, and 
Mr. Chairman, for the Subcommittee, you mentioned one thing we 
might do in enabling legislation, is to make sure that the 
Stockpile Stewardship Program is maintained over time. When the 
treaty was sent up by the administration, Mr. Chairman, they 
did send up with it a number of proposals and commitments and 
one is a 5-year plan to maintain the nuclear stockpile 
stewardship at a level about half-a-billion dollars higher than 
now for the reasons that have been discussed here. I do not 
know whether that can ever be enabled without it being an 
entitlement. But I believe that it will come up regularly in 
the discussion of the treaty that we have to have the personnel 
to make sure that we do not suddenly wake up in 15 or 20 years 
and learn we could not do anything about a deficiency if we 
found out about it. Thank you.
    Senator Levin. Mr. Chairman, could I just follow up on the 
certification question?
    Senator Cochran. Senator Levin.
    Senator Levin. We have had two annual certifications now 
under this new certification procedure. Both reviews have found 
that the stockpile is safe and reliable. Do you have any basis 
to disagree with that certification?
    Mr. Schlesinger. No. As I indicated, I am not concerned 
about this year or next year or 5 years out. I am concerned 
about the decades ahead.
    Senator Levin. Thank you.
    Mr. Schlesinger. If I might add, with regard to Senator 
Domenici's comment, no Congress, of course, can bind its 
successors unless it is a matter of treaty or a matter of law. 
I believe that the Stewardship Program is a good program, 
irrespective of whether we give up testing, that we do not 
know, for example, what goes on inside of a nuclear weapon 
explosion. This has always been as much a matter of art as 
science and this will help to diminish our ignorance, and that 
is welcome even if we were to continue testing.
    Senator Cochran. Thank you very much, Dr. Schlesinger. 
Thank you a lot.
    Mr. Schlesinger. Thank you, Mr. Chairman.
    Senator Cochran. Our next witness is Dr. Victor Reis, who 
is Assistant Secretary for Defense Programs in the U.S. 
Department of Energy, a position he has held since August 1993. 
Dr. Reis has the responsibility for directing the Department of 
Energy's Stockpile Stewardship and Management Program. Prior to 
serving in this capacity, Dr. Reis was the Director of Defense 
Research and Engineering at the Pentagon, a position he held 
since late 1991.
    Dr. Reis, thank you very much for being here. We appreciate 
your attendance and willingness to testify before our 
Subcommittee. You may proceed with your statement.

TESTIMONY OF VICTOR H. REIS, ASSISTANT SECRETARY OF ENERGY FOR 
                        DEFENSE PROGRAMS

    Mr. Reis. Thank you very much, Senator. Mr. Chairman, 
Senator Levin, Senator Thompson, I am particularly pleased to 
be here with Dr. Schlesinger, who is sort of like the Leonardo 
da Vinci of public service. I think the only position you did 
not mention, that he also, I think, was Director of the Bureau 
of the Budget at one time. Of course, he was never elected to 
anything, but then, neither have I been. [Laughter.]
    Thank you, Mr. Chairman, for the opportunity to testify 
before you today on the Stockpile Stewardship Program. This 
program is fundamental to our national security under a 
Comprehensive Test Ban Treaty. Because this is my first time 
before this Subcommittee, I would like to begin with a brief 
history of stockpile stewardship, tell you what it is, give you 
its current status, and then answer your questions. In addition 
to my written testimony, I would like to provide the 
Subcommittee with a recently published overview of the program 
and, if you wish, submit it for the record.\1\
---------------------------------------------------------------------------
    \1\ The brochure entitled ``Stockpile Stewardship Program, Overview 
and Progress,'' Department of Energy, Office of Defense Programs, dated 
October 1997, submitted by Mr. Reis appears in the Appendix on page 88.
---------------------------------------------------------------------------
    Senator Cochran. We would be happy to have that. We 
appreciate it very much.
    Mr. Reis. The Stockpile Stewardship Program began in July 
1993 when President Clinton announced he would continue the 
moratorium on nuclear weapons testing and seek a Comprehensive 
Test Ban Treaty for nuclear weapons, a goal that has been 
sought since President Eisenhower. In August 1995, President 
Clinton announced his intention to seek a zero-yield 
Comprehensive Test Ban Treaty. He included as part of his 
announcement six safeguards that would accompany the treaty. 
The first of these was that we would conduct a science-based 
Stockpile Stewardship Program. The Senate START II ratification 
text in January 1996 also commits the U.S. to a robust 
Stockpile Stewardship Program.
    President Clinton signed the CTBT in September 1996, and on 
September 22 of this year, he submitted it to the Senate for 
approval. As part of the submission, the administration 
committed to fund stockpile stewardship at about the $4.5 
billion level in fiscal year 1999 and to use the fiscal year 
1999 as a baseline for future funding. This does not include 
funding for construction of a new tritium production source. 
Thus, stockpile stewardship, which is essential to maintain our 
nuclear deterrent, also underpins the Nation's nuclear arms 
policy.
    As President Clinton stated in August 1995, ``I am assured 
by the Secretary of Energy and the directors of our nuclear 
weapons labs that we can meet the challenge of maintaining our 
nuclear deterrent under a Comprehensive Test Ban Treaty through 
a science-based Stockpile Stewardship Program without nuclear 
testing.''
    Thus, Mr. Chairman, within the U.S. national security 
framework, the specific task of stockpile stewardship is to 
maintain high confidence in the safety, reliability, and 
performance of the nuclear stockpile indefinitely without 
nuclear testing, and part of this task is to maintain the 
capability to return to testing and production of new weapons 
if so directed by the President and the Congress.
    So what is the program, what are the risks involved, and 
how do we plan to mitigate those risks? The stockpile 
stewardship concept is simple. Each year, representative 
samples of each type of weapon are returned from the active 
forces to the plants and the labs, disassembled, examined, 
tested, and analyzed for defects, much as you would go for an 
annual physical or take your car to a local automobile 
mechanic. If any defects are found, their effect on 
performance, safety, and reliability is assessed and if that 
effect is deemed significant, the defective part is 
remanufactured. Like the battery or spark plugs in your car, 
some parts we know will require replacement and these are 
replaced at regular intervals. That is it. It sounds simple 
enough.
    Unfortunately, while a modern nuclear weapon has about as 
many parts as a modern automobile, it is much more complicated. 
Many of the parts of a nuclear weapon are made from very 
special materials--plutonium, enriched uranium, tritium--which 
radioactively decay and change both their properties and the 
properties of other materials within the weapon.
    Nuclear weapons are designed and manufactured to 
extraordinarily rigid standards, both to enable huge amounts of 
explosive energy to be packaged in relatively small containers 
and to maintain phenomenal safety standards. A nuclear weapon 
less than the size of a small desk will have the explosive 
power to completely destroy a modern city, and yet must be able 
to survive the worst kind of accident you can think of with 
less than a one in a million chance of exploding. This level of 
performance and safety must be maintained throughout a weapon's 
lifetime, even as it ages and changes.
    While we can expect that aging will cause the defect rate 
to rise, just as it does in both humans and automobiles, we 
cannot go out and buy a new warhead model. There is no new 
warhead production and some of the old factories are out of 
business. Moreover, the weapons designers who have had 
experience with nuclear explosive testing are also aging. In 
about 10 years, most of them will have been retired. This means 
that about the same time all of the weapons reach the end of 
their design life, we will no longer have anyone on the job 
with direct test experience.
    Despite these challenges, people from the weapons 
laboratories, the production plants, and the Federal 
establishment involved in stockpile stewardship have testified 
and will so testify that we can do the stockpile stewardship 
job. We believe we can maintain the safety and the reliability 
of the nuclear weapons in the stockpile indefinitely without 
underground testing and keep the risk to manageable levels.
    How do we expect to do this? First of all, we start from a 
solid position. The current stockpile has been well tested, is 
in very good shape, and is well understood. We have an 
extensive database on each of these weapons and we have a cadre 
of experienced designers, engineers, scientists, and 
technicians that can, with confidence, certify the safety and 
reliability of the current stockpile.
    Now, since we cannot do a complete test of a nuclear 
explosion, we conceptually divide the explosion into each of 
those parts and test and analyze each of these separately, much 
as you would test the ignition system, the cooling system, and 
the brakes of your car. Then we put the whole thing together 
into a computer calculation, a simulation, to see if the 
resulting performance is within its specification. Each part of 
the simulation must predict the results of each of these 
separate tests, and where they exist, be consistent with data 
from previous underground nuclear tests.
    Let me give you some very simplified examples of how this 
works. Some of the processes are relatively straightforward to 
simulate. The first part of the nuclear explosion sequence is 
to send the right electrical signal to the right place at the 
right time. We can test this exactly by flight testing actual 
weapons with inert mockups of the nuclear components.
    We can do a good job of testing the first part of a nuclear 
explosion, the implosion of the plutonium pit, but we do not 
use actual plutonium--it would go off if we did--and we measure 
a number of important features by taking x-ray pictures during 
critical parts of the experiment. We can then compare these 
pictures with calculations and with previous actual underground 
nuclear test results. But current radiographic systems will not 
be sufficient to measure the effects of the potential defects 
in an aged pit, so we are building a new x-ray machine, the 
DARHT, which will look at the shape and size of an imploding 
pit model from two different directions and with much better 
resolution.
    Beyond obtaining x-ray pictures of imploding pit models, 
however, we will no longer experimentally simulate a nuclear 
explosion, but instead use experimental facilities to obtain 
conditions that occurred during such an explosion and then 
check the results of these experiments to check computer 
calculations.
    For example, we are investigating the way old plutonium 
behaves when subjected to the high pressures of an implosion 
through sub-critical tests at the Nevada test site and we 
expect to be able to generate conditions in temperature and 
pressure of nuclear explosions with lasers at the National 
Ignition Facility. These and other experimental facilities that 
are on line, under construction, or in the planning stage will 
give us a set of tools sufficient to investigate and help 
understand anticipated problems in the stockpile.
    As I mentioned previously, the experimental information is 
tied into the assessment process through computation, or more 
precisely, numerical simulation. But we know that the level of 
computation needed to effectively simulate effects of an aging 
or a remanufactured part is much, much greater than that 
currently available, so we have begun a computation development 
program, the Accelerated Strategic Computing Initiative, in 
parallel with the experimental program.
    There is no point in doing elegant experiments if you 
cannot interpret the results in terms of nuclear weapons safety 
and reliability, and there is no point in doing simulations if 
the computer codes cannot be grounded in reality. You need 
both, as well as returning to the archives to match the new 
techniques with the data from underground tests.
    It is this troika of computer simulation, experiments, and 
previous nuclear test data that provides the complete tool box 
for the assessment process. Building this assessment tool box 
in time to train the new cadre of scientists and engineers is 
critical to the Stockpile Stewardship Program.
    This leaves remanufacturing. We know now we will have to 
remanufacture and replace some parts, and are already doing so. 
We know that, eventually, we will have to replace just about 
every part in every weapon. That is the idea of stockpile life 
extension. But to crate these new parts, we cannot rely on the 
Cold War production complex that produced some tens of 
thousands of nuclear weapons. We are establishing a production 
complex that is much smaller, more flexible, and much more 
environmentally sensitive than the production complex it 
replaces.
    We must use every applicable modern manufacturing 
technique, the best that U.S. industry can offer. We must 
understand the details of the manufacturing processes with 
sufficient precision so as not to introduce new defects into a 
remanufactured system. The key here is model-based 
manufacturing, similar to that which created the Boeing 777 and 
is being applied today by much of U.S. industry. Thus, around 
half of the Stewardship Program is devoted to producing current 
replacement parts and to planning and modernizing our 
production complex to match the new job. We envision a complex 
of approximately one-fifth the size of the Cold War complex but 
one that can return to higher levels of production if the need 
ever arises.
    While we do not expect to need additional supplies of 
enriched uranium and plutonium, there is one nuclear material 
which we know we will have to produce, tritium, a radioactive 
isotope of hydrogen that is required for every modern nuclear 
weapon.
    Tritium decays fairly rapidly. Approximately 5 percent is 
transformed to helium every year. The last tritium that was 
produced in the U.S. was in 1988, but with the end of the Cold 
War and the reduction of the numbers of nuclear weapons, we 
have had large amounts of excess tritium. This excess has been 
used to make up for the decayed tritium in the current 
stockpile, but eventually this will run out. Based upon current 
estimates, we must produce tritium by 2005 to support a START I 
nuclear stockpile.
    After a number of years of analysis and changing 
requirements, we are down to two approaches for making tritium, 
using an existing commercial light water reactor or using a 
newly developed accelerator. The DOE will select a primary 
source for tritium production as soon as possible in fiscal 
year 1998.
    So, in a nutshell, that is stockpile stewardship--
maintaining the stockpile without testing, surveillance, 
assessment, remanufacture, tritium, labs and plants--a program 
that must develop a new generation of technical experts before 
the current generation retires.
    Why do we think we can meet this challenge and what are we 
doing to manage the risks? First, let me reiterate that we 
start from a solid base. The current stockpile is well tested 
and well understood. The designers and engineers who built them 
are available and are active. Indeed, they are the ones who are 
creating the current Stockpile Stewardship Program. They are 
working on the stockpile now and they are helping to train 
their successors.
    Second, we have laid out a plan for the Stockpile 
Stewardship Program, weapon by weapon, part by part, that 
projects the tasks that are required to maintain the stockpile 
over the next 10 years and beyond. We have concurrence in this 
program from the Department of Defense and the Joint Chiefs and 
the administration has committed to fund this program and all 
its parts.
    Third, as one of the conditions for ratification, Safeguard 
F, the President requires us to annually certify, to him 
directly, the safety, reliability, and performance of each 
weapon type. This is done by the Secretary of Defense and 
Secretary of Energy on the advice of the Nuclear Weapons 
Council, the directors of the nuclear weapons laboratories, and 
the Commander in Chief of the U.S. Strategic Command. If a high 
confidence in the safety or reliability of a nuclear weapon 
type which the two secretaries consider critical to our nuclear 
deterrent could no longer be certified, the President, in 
consultation with Congress, would be prepared to withdraw from 
the CTBT under the standard ``supreme national interest'' 
clause in order to conduct whatever testing might be required.
    Fourth, we have a backup, Safeguard C, which requires us to 
maintain the Nevada test site in a state of readiness, and the 
sub-critical and other experiments conducted there keep the 
people sharp and ready.
    Fifth, Safeguard B states that ratification is conditioned 
on maintaining the vitality of our nuclear weapons 
laboratories, Los Alamos, Lawrence Livermore, and Sandia 
National Laboratories. Mr. Chairman, those are among the best 
in the world, and in my opinion, they are the best laboratories 
in the world and they are better now than they were 4 years ago 
because of the enthusiasm and vigor with which they are 
attacking the stockpile stewardship effort. History tells us 
that great labs need great missions, and stewardship is just 
such a mission. Our DOE labs will get even better because they 
will attract the kind of people who are drawn to solve tough 
problems of national importance.
    Sixth, we are doing stewardship now and doing it 
successfully. It has been 5 years since the last underground 
nuclear test. We are just completing our second annual 
certification. We have modified the B61 bomb and seen it enter 
the stockpile to replace the aged B53 bomb. We have initiated a 
number of new experimental tools and our computation program 
has developed the world's fastest supercomputer by a factor of 
three.
    And we have solved some problems by using stewardship tools 
that, in the past, would have likely required nuclear testing. 
We have literally done hundreds of experiments that increase 
our understanding of nuclear weapons. We have safely dismantled 
over 9,000 nuclear weapons since the end of the Cold War. We 
have produced numerous parts on time while continuing to 
downsize the complex. This is a system that works, and not just 
at the labs but also at the plants, Oak Ridge Y-12, Pantex, 
Kansas City, Savannah River, and the Nevada test site.
    So let me finish by getting to the essential question. Do I 
have confidence that the stockpile stewardship will work? Can 
we maintain the nuclear weapons stockpile without testing 10, 
20, or 30 years from now?
    My answer now is an almost--almost--unqualified yes. The 
source of my optimism lies not in the immortality of the 
current stockpile weapons, though in truth, they are truly 
technological marvels, but in my faith in the integrity, 
courage, and competence of the people in our weapons labs and 
production complex. They are the men and women that designed 
and produced the weapons that ended World War II and kept the 
Cold War cold. They have put together a program that is 
comprehensive, coherent, and robust. They believe and I believe 
that they can do the job by, first and foremost, maintaining 
and supporting the institutions that do the job.
    I have confidence in them, their integrity, their 
competence, and their overriding dedication to their mission. 
If we give them the tools that they need and stick with it, we 
can manage the risk. In this end, it is not an issue of 
technology but an issue of courage and will and persistence, 
and if we have the courage and will and persistence, we will 
not fail. Thank you, Mr. Chairman, and I would be glad to 
answer any of your questions.
    [The prepared statement of Mr. Reis follows:]

                     PREPARED STATEMENT OF MR. REIS

    Thank you, Mr. Chairman for the opportunity to testify before you 
today on the Stockpile Stewardship Program. This program is fundamental 
to our national security under a Comprehensive Test Ban Treaty. Because 
this is my first time before this committee, I'd like to begin, with a 
brief history of stockpile stewardship, tell you what it is, give you 
its current status, and then answer your questions. In addition to my 
written testimony, I would like to provide the subcommittee, with a 
recently published overview on the program, and if you wish, submit it 
for the record.
    The Stockpile Stewardship program began in July 1993 when President 
Clinton announced he would continue the moratorium on nuclear weapons 
testing and seek a comprehensive test ban treaty for nuclear weapons, a 
goal that has been sought since President Eisenhower. In August of 
1995, President Clinton announced his intention to seek a ``zero 
yield'' CTBT. He included as part of his announcement, six safeguards 
that would accompany the treaty. The first of these was that we will 
conduct a ``science based stockpile stewardship program.'' The Senate 
Start II ratification text in January 1996 also commits the U.S. to a 
``robust Stockpile Stewardship Program.''
    President Clinton signed the CTBT in September of 1996, and on 
September 22 of this year he submitted it to the Senate for approval. 
As part of the submission, the Administration committed to fund 
stockpile stewardship at about $4.5 billion in FY 1999 and to use FY 99 
as a baseline for future funding. This does not include funding for 
construction of a new tritium production source. Thus, stockpile 
stewardship which is essential to maintain our nuclear deterrent--also 
underpins the nation's nuclear arms control policy.
    As President Clinton stated in August of 1995:
    ``I am assured by the Secretary of Energy and the Directors of our 
nuclear weapons labs that we can meet the challenge of maintaining our 
nuclear deterrent under a Comprehensive Test Ban Treaty through a 
science based stockpile stewardship program without nuclear testing.''
    Thus, Mr. Chairman, within the U.S. national security framework, 
the specific task of stockpile stewardship is to maintain high 
confidence in the safety, reliability, and performance of the nuclear 
stockpile, indefinitely, without nuclear testing. And part of this task 
is to maintain the capability to return to testing and production of 
new weapons, if so directed by the President and the Congress.
    So, what is the program, what are the risks involved, and how do we 
plan to mitigate those risks?
    The stockpile stewardship concept is simple. Each year 
representative samples of each type of weapon are returned from the 
active forces to the plants and labs, disassembled, examined, tested 
and analyzed for defects, much as you would go far an annual physical 
or take your car into your local automobile mechanic. If any defects 
are found, their effect on performance safety and reliability is 
assessed, and if that effect is deemed significant, the defective part 
is remanufactured and replaced. Like the battery or spark plugs in your 
car, some parts we know will require replacement, and these are 
replaced at regular intervals. That's it. It sounds simple enough.
    Unfortunately, while a modern nuclear weapon has about as many 
parts as a modern automobile, it is much more complicated. Many of the 
parts of a nuclear weapon are made from very special materials--
plutonium, enriched uranium, tritium--which radioactively decay, and 
change both their properties and the properties of other materials 
within the weapon.
    Nuclear weapons are designed and manufactured to extraordinarily 
rigid standards, both to enable huge amounts of explosive energy to be 
packaged in relatively small containers, and to maintain phenomenal 
safety standards. A nuclear weapon, less than the size of a small desk, 
will have the explosive power to completely destroy a modern city, and 
yet it must be able to survive the worst kind of accident you can think 
of with less than a one in a million chance of exploding. This level of 
performance add safety must be maintained throughout the weapons 
lifetime, even as it ages and changes.
    While we can expect that aging will cause the defect rate to rise--
just like it does in both humans and cars--we can't go out and buy a 
new warhead model--there is no new warhead production, and some of the 
old factories are out of business. Moreover, the weapons designers who 
have had experience with nuclear explosive testing are also aging, in 
about ten years most of them will have retired. This means that about 
the same time all of the weapons reach the end of their design life, we 
will no longer have anyone on the job with direct test experience!
    Despite these challenges, people from the weapons laboratories, the 
production plants, and the federal establishment involved in stockpile 
stewardship have testified, and will so testify, that we can do the 
stockpile stewardship job. We believe we can maintain the safety and 
reliability of the nuclear weapons in the stockpile indefinitely 
without underground testing and keep the risks to manageable levels.
    How do we expect to do this?
    First of all, we start from a solid position. The current stockpile 
has been well tested, is in very good shape and is well understood. We 
have an extensive data base on each of these weapons, and we have a 
cadre of experienced designers, engineers, scientists and technicians 
that can, with confidence, certify the safety and reliability of the 
current stockpile.
    Now, since we cannot do a complete test of a nuclear explosion, we 
conceptually divide the explosion into each of its parts and test and 
analyze each of these separately, much as you would test the ignition 
system, the cooling system, and the brakes on your car. We then put the 
whole thing together into a computer calculation--a simulation--to see 
if the resulting performance is within its specification. Each part of 
the simulation must predict the results of each of the separate tests, 
and where they exist, be consistent with data from previous underground 
nuclear tests. Let me given you some very simplified examples of how 
this works.
    Some of processes are relatively straight forward to simulate. The 
first part of the nuclear explosion sequence is to send the right 
electrical signal to the right place at the right time. We can test 
this exactly by flight testing actual weapons with inert mockups of the 
nuclear components.
    We can do a good job of testing the first part of the nuclear 
explosion, the implosion of the plutonium pit, but we do not use actual 
plutonium--it would go off if we did--and we can measure a number of 
important features by taking x-ray pictures during critical parts of 
the experiment. We can then compare these pictures with calculations 
and with previous actual underground nuclear test results. But current 
radiographic systems will not be sufficient to measure the effects of 
potential defects in an aged pit, so we are building a new x-ray 
machine--the DARHT--which will look at the shape and size of an 
imploding pit model from two different directions and with much better 
resolution.
    Beyond obtaining x-ray pictures of imploding pit models, however, 
we will no longer experimentally simulate a nuclear explosion, but 
instead use experimental facilities to obtain conditions that occur 
during such an explosion and then use the results of these experiments 
to check computer calculations. For example, we are investigating the 
way old plutonium behaves when subjected to the high pressures of an 
implosion, through subcritical tests at the Nevada Test Site, and we 
expect to be able to generate the conditions of temperature and 
pressure of nuclear explosions with lasers at the National Ignition 
Facility. These, and other experimental facilities that are on line, 
under construction, or in the planning stage, will give us a set of 
tools sufficient to investigate and help understand anticipated 
problems in the stockpile.
    As I mentioned previously the experimental information is tied into 
the assessment process through computation, or more precisely, 
numerical simulation. But we know that the level of computation needed 
to effectively simulate effects of aging or a remanufactured part is 
much, much greater than that currently available, so we have begun a 
computation development program--the Accelerated Strategic Computing 
Initiative--in parallel with the experimental program. There is no 
point in doing elegant experiments if you can't interpret the results 
in terms of nuclear weapons safety and reliability, and there is no 
point in doing simulations if the computer codes cannot be grounded in 
reality. You need both, as well as returning to the archives to match 
the new techniques with the data from underground nuclear tests.
    It is this troika of computer simulation, experiments, and previous 
nuclear test data that provides the complete tool box for the 
assessment process. Building this assessment ``tool box'' in time to 
train the new cadre of scientists and engineers is critical to the 
stockpile stewardship program.
    This leaves remanufacture--we know now we will have to 
remanufacture and replace some parts, and are already doing so. We know 
that eventually we will have to replace just about every part in every 
weapon--that's the idea of stockpile life extension. But to create 
these new parts we cannot rely on the cold war production complex that 
produced some tens of thousands of nuclear weapons. We are establishing 
a production complex that is much smaller, much more flexible, and much 
more environmentally sensitive than the production complex it replaces.
    We must use every applicable modern manufacturing technique; the 
best that U.S. industry can offer. We must understand the details of 
the manufacturing processes with sufficient precision, so as not to 
introduce new defects into a remanufactured system. The key here is 
model-based manufacturing--similar to that which created the Boeing 777 
and is being applied today by much of U.S. industry. Thus, around half 
of the stewardship program is devoted to producing current replacement 
parts, and to planning and modernizing our production complex to match 
the new job. We envision a complex of approximately 1/5th the size of 
the cold war complex, but one that can return to higher levels of 
production if the need ever arises.
    While we do not expect to need additional supplies of enriched 
uranium and plutonium, there is one nuclear material which we know we 
will have to produce: tritium--a radioactive isotope of hydrogen that 
is required for every modern nuclear weapon.
    Tritium decays fairly rapidly; approximately 5 percent is 
transformed to helium every year. The last tritium that was produced in 
the U.S was in 1988, but with the end of the cold war and the reduction 
of numbers of nuclear weapons, we have had large amounts of excess 
tritium. This excess has been used to make up for the decayed tritium 
in the current stockpile, but eventually this will run out. Based upon 
current estimates we must produce tritium by 2005 to support a START I 
nuclear stockpile. After a number of years of analysis and changing 
requirements we are down to two approaches for making tritium--using an 
existing commercial light water reactor or using a newly developed 
accelerator. The DOE will select a primary source for tritium 
production as soon as possible in FY 1998.
    So in a nut shell, that's stockpile stewardship--maintaining the 
stockpile without testing--surveillance, assessment, remanufacture--
tritium, labs, and plants--a program that must develop a new generation 
of technical experts before the current generation retires.
    Why do we think we can meet this challenge, and what are we doing 
to manage the risks?
    First, let me reiterate that we start from a solid base. The 
current stockpile is well tested and well understood. The designers and 
engineers who built them are available and are active. Indeed they are 
the ones who are creating the stockpile stewardship program. They are 
the ones who are working on the stockpile now, and are helping to train 
their successors.
    Second, we have laid out a plan for the stockpile stewardship 
program weapon by weapon, part by part, that projects the tasks that 
are required to maintain the stockpile over the next ten years, and 
beyond. We have concurrence on this program from the Department of 
Defense, and the Joint Chiefs, and the administration has committed to 
fund this program and all its parts.
    Third, as one of the conditions for ratification, Safeguard F, the 
President requires us to annually certify, to him directly, the safety, 
reliability and performance of each weapon type. This is done by the 
Secretary of Defense and the Secretary of Energy, on the advice of the 
Nuclear Weapons Council, the Directors of the nuclear weapons 
laboratories and the Commander-in-Chief of the U.S. Strategic Command. 
(If a high level of confidence in the safety or reliability of a 
nuclear weapon type which the two Secretaries consider critical to our 
nuclear deterrent could no longer be certified the President, in 
consultation with Congress, would be prepared to withdraw from the CTBT 
under the standard ``supreme national interest'' clause in order to 
conduct whatever testing might be required.)
    Fourth, we have a back up. Safeguard C, requires us to maintain the 
Nevada Test Site in a state of readiness, and the subcritical and other 
experiments conducted there help keep the people sharp and ready.
    Fifth, Safeguard B states that ratification is conditioned on 
maintaining the vitality of the nuclear weapons laboratories--Los 
Alamos, Lawrence Livermore and Sandia National Laboratories. Mr. 
Chairman, those labs are among the best in the world--in my opinion 
they are the best in the world--and they are better now than they were 
four years ago because of the enthusiasm and vigor with which they are 
attacking the stockpile stewardship effort. History tells us that great 
labs need great missions, and stewardship is just such a mission. Our 
DOE labs will get even better because they will attract the kind of 
people who are drawn to solve tough problems of national importance.
    Sixth, we are doing stewardship now, and doing it successfully. It 
has been five years since the last underground nuclear test. We are 
just completing our second annual certification. We have modified the 
B61 bomb and seen it enter the stockpile to replace the aged B53 bomb. 
We have initiated a number of new experimental tools, and our 
computation program has developed the world's fastest supercomputer--by 
a factor of three. And we have solved some problems by using 
stewardship tools that in the past would have likely required nuclear 
testing. We have literally done hundreds of experiments that increase 
our understanding of nuclear weapons. We have safely dismantled over 
nine thousand nuclear weapons since the end of the Cold War, have 
produced numerous parts, on time, while continuing to downsize the 
complex. This is a system that works, and not just at the labs but also 
at the plants: Oak Ridge Y-12, Pantex, Kansas City, Savannah River, and 
the Nevada Test Site.
    So let me finish by getting to the essential question: Do I have 
confidence that stockpile stewardship will work, can we maintain the 
nuclear weapon stockpile, without testing, ten, twenty, thirty years 
from now?
    My answer now is an (almost) unqualified yes.
    The source of my optimism lies not in the immortality of the 
current stockpile of weapons--though in truth they are truly 
technological marvels--but in my faith in the integrity, courage and 
competence of the people in our weapons labs and production complex. 
They are the men and women that designed and produced the weapons that 
ended World War II and kept the Cold War cold. They have put together a 
program that is comprehensive, coherent and robust. They believe, and I 
believe, they can do the job by first and foremost maintaining and 
supporting the institutions to do the job. I have confidence in them--
their integrity, their competence and their overriding dedication to 
their mission. If we give them the tools that they need, and stick with 
it, we can manage the risk. In the end this is not an issue of 
technology but an issue of courage and will and persistence, and if we 
have the courage and will and persistence, we will not fail.
    Thank you, Mr. Chairman, and I would be glad to answer any of your 
questions.

    Senator Cochran. Thank you very much, Secretary Reis. We 
appreciate your being here and cooperating with our 
Subcommittee.
    Let me ask you a question that seems to just leap out at me 
from what I have been able to learn about the Stockpile 
Stewardship Program and that is, how long will it be until we 
have the necessary degree of certainty that the program will be 
sufficient to ensure the safety and reliability of our nuclear 
weapons? That is, when will we know if the Stockpile 
Stewardship Program will work?
    Mr. Reis. That is a question, Senator, that, of course, I 
have asked myself, I have had to answer in numerous hearings 
over the past few years. Senator Kempthorne always asks me that 
question. Senator Domenici always asks me that question.
    The answer is, you have to ask that question every year. 
That is why we have put in the annual certification. Every 
year, you have to go in and say, OK, where are we now? Where 
are we going? Are there basically any problems? We are doing it 
now. It is not a question of waiting 10 years and then asking 
the question. You have to ask it now. You have to ask it a year 
from now. You have to continually ask it now.
    We start from a base, as Dr. Schlesinger said and I am 
sure--again, we have just gone through our second annual 
certification. We feel solid right now. We continually ask that 
question in the future.
    One, as the problem gets more difficult over time, we are 
putting in more capability over time and it is that match, if 
you will, that you have to continue to ask for. The second part 
of that question is that if it turns out that you cannot--the 
answer to that comes back and says, gee, we do have to go back 
and test, that does not mean the Stockpile Stewardship Program 
has failed. It means the Stockpile Stewardship Program might 
have succeeded in the sense you have asked the right question.
    Senator Cochran. Under the Comprehensive Test Ban Treaty, 
do we have enough flexibility so that we could go back and test 
if we made a determination that we needed to in order to verify 
safety and reliability?
    Mr. Reis. If we make a determination, again, under the 
``supreme national interest'' clause, we would--and again, we 
basically ask that question every year. The Secretary of Energy 
and Defense will go back to the President and say, look, we 
cannot certify on the safety and reliability and then the 
President has said that he will be prepared to withdraw from 
the treaty at that point and then go back and do the testing.
    Senator Cochran. If given the choice, though, would it not 
be more prudent to see how well the Stewardship Program works 
before we abandon nuclear testing?
    Mr. Reis. Well, it has been now 5 years since our last 
test, Senator, and the Stockpile Stewardship Program is 
working. It gets back, I think, to the comment that Dr. 
Schlesinger said about leadership. I think this is one where 
you have to lean forward, and while there are risks, we think 
those risks are manageable.
    Senator Cochran. Most of the questions that have been asked 
today so far have related to the reliability of the weapons, 
whether they will work, whether they are going to deteriorate 
over time, and if so, how much and how serious is that. I am 
also interested, and I know other Senators are, too, in whether 
these weapons meet the safety requirements established for the 
weapons. Have these weapons that we have now been made as safe 
as they could be made or as safe as they could be made if 
testing were permitted?
    Mr. Reis. Senator, we are always concerned about the safety 
of those weapons. That is the first thing that people look at. 
As you know, in the past, weapons have been withdrawn from the 
stockpile because they did not meet our criteria. The criteria 
is just as rigid under a non-testing regime as they are in a 
testing regime. Much of the work in terms of doing the 
experimental facilities and in terms of the computational 
understanding really goes right to the safety questions.
    Senator Cochran. Do you think we have safety measures that 
are advanced to the point where they should be in our nuclear 
weapons at this time?
    Mr. Reis. At this time, yes, I believe so, and let me also 
recommend or state that we do not stop there. I mean, we are 
continually looking for ways to improve the safety of the 
stockpile.
    Senator Cochran. And do you think we can do that without 
testing?
    Mr. Reis. Yes, I do. I think most of the concerns, based on 
if we keep the current stockpile--if you move to a different 
type of stockpile or a new stockpile, of course, all bets are 
off. But most of the concerns about safety really relate to the 
non-nuclear components, making sure that the signal does not 
get to the detonators at the wrong time and that is the sort of 
thing we can do a lot of detailed testing on and are doing 
detailed testing on.
    Senator Cochran. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Do you have less confidence now in the weapons' reliability 
than we did in 1992?
    Mr. Reis. I can only speak to you about 1993, when I began 
to understand this.
    Senator Levin. OK.
    Mr. Reis. I, frankly, have as much or perhaps even more 
confidence in the weapons now than I would in 1993.
    Senator Levin. So even though we have not done testing, you 
have more confidence now in reliability without testing than 
you did when we were testing, and what do you base that on?
    Mr. Reis. I base that on my feelings and in terms of where 
the laboratories are and where the laboratories are going and 
that they have accepted this stockpile stewardship challenge 
with vigor. When I got there in 1993, people were concerned 
about the future of the nuclear weapons programs. Many very, 
very good scientists, engineers, and technicians were leaving. 
They were looking for other things to do. They were not sure 
whether there was a future here. I think that if you will visit 
the laboratories, you will find a very, very different attitude 
in terms of the way they have accepted this stockpile 
stewardship challenge.
    Senator Levin. There is a new certification process. Can 
you describe what is new about the certification process the 
President put in place when he decided to seek the CTBT?
    Mr. Reis. Yes, sir, and we have been working very hard on 
that and we are just at the end of the second annual 
certification. What is new about it is----
    Senator Levin. Dr. Schlesinger said there always had been 
some kind of a certification process. It was our understanding 
there was a new process put in place when the President 
announced the----
    Mr. Reis. That is correct.
    Senator Levin. What is new about it?
    Mr. Reis. In the past, once a weapon had been certified, it 
was considered OK unless there was a problem, and, of course, 
you did a continual surveillance process and unless a problem 
came up, you considered it certified.
    What we are doing now is essentially recertifying every 
single weapon. Every single weapon is evaluated by not just the 
laboratory that designed that weapon but that is reviewed by 
other laboratories. It is reviewed by the Department of 
Defense, the Joint Chiefs. We have a detailed weapon-by-weapon 
certification process where we analyze the weapon, where the 
designers come in, where the engineers come in. We have 
conferences and really look at the figures, again, weapon by 
weapon, and we go through that now, again, on a yearly basis, 
every single weapon, every problem.
    Indeed, the weapons laboratory directors and the Commander 
in Chief of Strategic Command are required now to write a 
letter back to the Secretary of Defense, the Secretary of 
Energy, describing what has happened and with that is a 
detailed backup of all the technical data. To my knowledge, 
that has never been done on an annual basis before.
    Senator Levin. Is there anyone who is not involved in the 
certification process who should be, in your judgment?
    Mr. Reis. I cannot think of any. We have a lot of people 
right now, the services, each of the services, the Nuclear 
Weapons Council, which is a group of people made up of the 
services and the Department of Energy, each of the three 
weapons laboratories. I think we have covered just about 
everybody, Senator.
    Senator Levin. Near the end of your statement, you said 
that you have almost unqualified confidence that the Stockpile 
Stewardship Program will work without testing 10 or 20 or 30 
years from now. Is the basis of your ``almost'' an uncertainty 
as to whether Congress will adequately fund the Stewardship 
Program or is there another piece to the ``almost''?
    Mr. Reis. I think that is primarily it. I think, one, I am 
not concerned about this Congress. The Congress has been, I 
think, very good in the sense of trying to understand what we 
are doing and occasionally making adjustments. Some of those 
adjustments are actually pretty good. But I think we are really 
talking about----
    Senator Levin. That is sort of an almost unqualified 
statement.
    Mr. Reis. Almost unqualified.
    Senator Thompson is here. [Laughter.]
    It is not so much this Congress or this administration 
because we are really talking about in 10 or 30 years. I think 
one of the things that Senator Thompson mentioned in his talk 
is, well, how do we get into place something that--not just 
think about 2 years, 5 years, 10 years. We are really talking 
about how does one really invest in the future.
    I think the answer really does come back, if we put the 
process in properly, and I think we are in the process, again, 
the process of putting that process in, so we keep this on the 
front burner. It is a very important issue and will remain so. 
As long as people recognize how important nuclear weapons are, 
not just in terms of their technical ability but their safety 
and all those other problems, that future administrations and 
future Congresses will support it properly. But that is where 
the ``almost'' came from.
    Senator Levin. So your ``almost'' comes from your 
uncertainty as to whether Congress 10, 20, or 30 years from 
now----
    Mr. Reis. That is correct.
    Senator Levin [continuing]. Will adequately maintain these 
programs.
    Mr. Reis. That is correct, and again, because we are 
talking about, as Dr. Schlesinger said and everybody said, gee, 
the issue is not now. It is really the 10, 20, or 30 years from 
now. That is why it is important, I believe, Mr. Chairman and 
Senator Levin, to look hard at what we are doing now in terms 
of the stewardship. It is not something that will just show up 
10 or 15 years from now and we have to decide then whether it 
is working or not. You really have to keep asking this question 
every year.
    Senator Levin. Is the Stockpile Stewardship Program 
intended to be a complete substitute for testing?
    Mr. Reis. It is not a complete substitute for testing.
    Senator Levin. And can it be successful without being a 
complete substitute?
    Mr. Reis. If we stick to what it is supposed to do, which 
is to maintain the current stockpile indefinitely without 
testing, I think it can be a substitute. In other words, if you 
ask it to do that job, it will do that job.
    Senator Levin. Have we looked at the remanufacturing 
process that the Russians are engaged in? Why are we not doing 
it? Is it because of environmental reasons, cost, or it is just 
not a good idea, or what? Do you know?
    Mr. Reis. Well, yes. It is--I guess the quick answer is he 
says, yes, we have, and the answer to that is yes, it is both 
very costly and I believe the amount of people they have 
working in their production complex--and I could get those 
numbers for you more accurately, Senator--it is probably 
100,000, whereas we have about 30,000, so it was a productivity 
question.
    There is also a question of style. We just, somehow or 
other, just continually manufacture things over and over again. 
It is not--I do not want to say it is just not the American way 
of throwing things away that are still good, but it really is a 
cost--it basically is a cost issue, and every time you 
remanufacture a whole thing, of course, there is the potential 
for introducing new defects.
    Then, as Secretary Schlesinger said, we have gone a long 
way to improving the environmental issues in terms of how we do 
our plants. I think, and you are aware, a good deal of the 
money that comes to the Department of Energy to maintain the 
nuclear weapons are now in the cleanup effort. In fact, the 
cleanup budget is greater than the stockpile stewardship 
budget. That will not happen in the future. We are ensuring 
ourselves that the work at Y-12, Pantex, the plants, and the 
labs are environmentally sound.
    Senator Levin. Is there an immediate requirement for pit 
production?
    Mr. Reis. There will be a requirement for a low level of 
pit production in the near future and we are going to meet that 
requirement.
    Senator Levin. Finally, if the Comprehensive Test Ban 
Treaty were ratified, all of the declared nuclear powers, not 
just us, would be prohibited from testing. Are we in a better 
position than other nations to maintain the reliability of our 
inventory based on this stewardship program?
    Mr. Reis. I cannot really speak to all of the other 
nations, Senator, and we would have to probably go into closed 
session and you would have to ask other people in terms of what 
they are doing. But my sense certainly is that we would be in a 
better position.
    Senator Levin. A better position than other nations?
    Mr. Reis. Yes, sir.
    Senator Levin. To maintain the reliability of our inventory 
without testing?
    Mr. Reis. Yes, sir, if we maintain the commitment and the 
will to do this job.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Levin.
    Senator Thompson.
    Chairman Thompson. Thank you, Mr. Chairman.
    Your initial statement that you had an almost unqualified 
position as to the confidence you had in our Stewardship 
Program 20 or 30 years down the road, I thought was just a 
candid assessment of the obvious. To me, it has to do with more 
than just adequate funding, which, of course, is necessary. I 
mean, how anyone can say that technologically we can be sure of 
where we are going to be 20 or 30 years down the road is 
misplaced, to say the least.
    It seems to me like with regard to the question of how can 
we be sure when will we be able to sure that our Stewardship 
Program is working, it is when we try it out, ultimately. 
Hopefully, we will never have to, but it seems to me it is like 
how well are you keeping your car up, and you replace all of 
the parts, get the best available people to work on it, and 
over a 20- or 30-year period, you do everything you know how to 
do, but you never try to start it. You really do not know 
whether or not you have done the right things until you start 
it, and I think that is just common sense.
    It points up to me the importance of all of the different 
things that you are talking about here, our design capabilities 
and, of course, I am very much interested, as you know, in Y-12 
and the production side of things. I think you very candidly 
point out the problems of getting in new design people who have 
no test experience, new components, maybe some of the component 
suppliers are out of business. Every time you remanufacture, 
you bring in the possibility of new defects. So it is very, 
very important that we have the best that we can have under the 
circumstances.
    I am very concerned about the ramifications of the treaty, 
but assuming for a moment that that is ratified, it certainly 
points out the importance of all these things. If you had a 
table full of experts swearing on a stack of Bibles that they 
are 100 percent sure that this thing is going to work out in 20 
or 30 years, that would not make any difference to me, as one 
individual. But your common sense approach to doing the best 
you can, I think, is about all we can do under the 
circumstances.
    Can you give me any assurance that DOE intends to support 
and strengthen the production activities at the four production 
plants?
    Mr. Reis. I certainly can, Senator Thompson. One of the 
things you may notice, that we are not calling it stockpile 
stewardship and management. We are calling it stockpile 
stewardship. It is one stewardship program. I think people have 
somehow separated the two and tend to pose plants versus labs 
and that just does not make any sense. We are going to 
remanufacture. The whole part of stockpile life extension is 
the necessity.
    You cannot do manufacturing without building things. You 
cannot. So we intend to remanufacture. What we will not do is 
manufacture before we have to, but we know if you are going to 
keep things 30 years, the design life was 30 years beyond the 
life, eventually, just about all the parts are going to have to 
be manufactured. Those are not simple parts. Those represent 
some of the best--again, Y-12, at Pantex, at Kansas City, that 
is some of the best manufacturing in this country and we are 
just going to have to keep that manufacturing technology and 
keep those people--and it is the people, not just the machines 
that I think you have got to really be concentrating on.
    Chairman Thompson. Have you made a determination as to what 
the budgetary requirements are going to be in the out years in 
order to keep that capability?
    Mr. Reis. We have laid out a detailed plan which we call, 
euphemistically, the Green Book. We have laid it out over the 
next 10 years. Again, we worked from the parts to the pieces to 
the experiments to the computing. We have a commitment from the 
administration at $4.5 billion per year, not including the 
source of production, and we believe that will be sufficient to 
do the job.
    Chairman Thompson. Not including what?
    Mr. Reis. The production of tritium. A production source of 
tritium would be in addition to that.
    Chairman Thompson. But of the $4.5 billion, how much are we 
talking about on the production side of things?
    Mr. Reis. Approximately half of that money goes to the 
production side.
    Chairman Thompson. Thank you very much, Mr. Chairman.
    Senator Cochran. Mr. Secretary, there are a couple of 
questions I want to ask you about the budget request. We 
understand that the plan the administration has for funding is 
that over the next 5 years, there will be in the budget $4.5 
billion each year and possibly at least that much for the next 
5-year period following that. Until just recently, the 
administration was suggesting that the Stockpile Stewardship 
Program would require only $4 billion per year. Do you know why 
that was changed to $4.5 billion? What are we getting for the 
additional $500 million that we now think we need that we did 
not think we needed just a few months ago?
    Mr. Reis. Senator, that is another question that I have 
been working on very hard over the past 6 months. I think we 
are learning more. What we have done, again, over the past 2 
years, was really lay out with our colleagues--and, indeed, 
this is with our colleagues from the Department of Defense, 
with the people from Strategic Command, who would be the 
appropriate commander in chief to do that, more of a detailed 
understanding in terms of where we are going. We have a better 
understanding in terms of some of the production needs as well 
as the laboratory needs. We are in the process now, as you 
know, of downsizing. That downsizing requires an investment. 
You just do not move from A to B because you have to ensure 
yourself when you get to B you are working on the right 
dollars.
    We have really scrubbed through in detail what the 
requirements are. As you know, we are going through discussions 
of START I, START II, those sorts of things. So we just have a 
better handle on the problem. There is not one thing that I 
would say, well, I am getting for that additional $500 million 
a year. It is the total program. You cannot say--again, what we 
are now beginning to understand much better is the relationship 
between the detailed requirements that come over from the 
Department of Defense and our ability to respond to those 
requirements.
    Senator Cochran. I cannot remember what we did in our 
energy appropriations bill. I am on the Subcommittee that is 
chaired by Senator Domenici on appropriations that funds the 
DOE activities. I do not know whether we got into the detail so 
much that we allocated the $4.5 billion for this next fiscal 
year in the same way the administration requested that we do 
it. Is there any problem that you see developing in terms of 
political interests and pressures that could develop that would 
cause funds to be allocated within that so that they would 
jeopardize the program?
    Mr. Reis. Let me go back. First, let me just correct, this 
year, in fiscal year 1998, the administration submitted a 
budget at the approximately $4 billion a year level. The 
Congress appropriated about $4.2 billion. With that addition, 
you always get suggestions about where to put those dollars, 
and having been at this game for a long time, Senator, I tell 
you that despite all the pain, it is pretty close. It is not 
perfect, but over time, working with----
    Chairman Thompson. It is not perfect, but we could help you 
get it perfect. [Laughter.]
    Mr. Reis. Godspeed, Senator. In particular, Senator 
Domenici's Committee, with Senator Reid as ranking member, I 
mean, we have been working very closely with them. They are 
very interested in what we are doing and they give us the right 
kind of----
    Senator Cochran. The labs come in probably with requests 
that are higher than that, do they not, and the production 
facilities? If you added up everybody's request that comes 
through the process, you would have requests that exceeded $4.5 
billion, is that not correct?
    Mr. Reis. I think that is fair to say that is correct.
    Senator Cochran. So it is an interesting challenge that we 
face in terms of a budget and the funding of these requests.
    Mr. Reis. It is more than interesting, it is stimulating.
    Senator Cochran. Senator Levin.
    Senator Levin. I have just a couple of questions. You 
indicated that the Stewardship Program is working now.
    Mr. Reis. Yes, sir.
    Senator Levin. Parts of the Stewardship Program are going 
to be phased in, is that correct?
    Mr. Reis. That is correct. As you look out over in time, 
let us take, for example, the first part of that, I think, 
indeed, Dr. Schlesinger mentioned the need to do hydrotesting. 
We have facilities now that do hydrotesting. We have one at 
each of the laboratories. We are looking at improvements on 
that. We have committed to look at improvement on that. That is 
the DARHT. That will basically allow us to look in two 
dimensions.
    As you begin to think about looking further and further 
downstream, when we are trying to get better and better 
understanding, we are saying, all right, maybe it would be 
better to actually produce like a CAT scan, in fact, a motion 
picture CAT scan of how this implosion really works. But we are 
looking at research on techniques to allow us to go even 
basically further than that.
    In particular, I think we are looking at the computation 
area. I think that is one area that I really do have to 
disagree slightly with Dr. Schlesinger, at my peril, I should 
add. But we recognized right from the start that we are going 
to have to move into three dimensions and do it at very, very 
high resolution, which means a lot of computing. So when we say 
we are going to need 100 teraflops, even though that is a 
factor of 10,000 greater than what one could get available to 
us just 2 or 3 years ago, we are building a program which is 
now, a teraflop which will be three teraflops in another 2 
years and will be 100 teraflops in about 5 or 6 years.
    So the program is not static. It really tries to think 
ahead in terms of what we understand what we will need. That is 
where we work it and then work backwards to solve the problems 
as we are moving forward.
    Senator Levin. How are you able to certify that the 
stockpile is safe and reliable now, based on the Stewardship 
Program, when that Stewardship Program is not yet fully phased 
in?
    Mr. Reis. Right now, Senator, we have very good test 
information on all of the nuclear weapons. We have all of the, 
or not all, but almost all of the people who worked on that 
program. They are answering questions right now that have come 
up on several situations. Where in the past we might have had 
to go back and do tests, we have actually gone through some of 
these areas and so when we do the annual certification on a 
year-to-year basis, what we have determined is that we are 
doing just fine.
    In addition, we have produced the modification of the B61, 
the so-called B61 Mod 11. While it is sort of an arch-type of 
what we would do because the physics package stays the same. 
There were no modifications of that. But we modified the 
conditions, the environments. Secretary--I guess we can call 
him Secretary Schlesinger, he has been everything else--
mentioned that these environments are very difficult and we 
have to understand them. We have been through that now and have 
been able to deliver that, working with Y-12, working with 
Pantex, working with Kansas City, a modification, and have been 
able to certify, or so far it has been accepted, that this will 
work. Now, as time goes on, we will get even better and better 
at that.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Senator Cochran. Thank you. Senator Thompson, any further 
questions?
    Chairman Thompson. No.
    Senator Cochran. Thank you very much, Secretary Reis, for 
being here today and helping us with this hearing.
    Our next witness is Robert Barker, Assistant to the 
Director of Lawrence Livermore National Laboratory. Dr. Barker 
has had 30 years of experience in every aspect of the nuclear 
weapon program of the United States and has contributed to U.S. 
efforts to control the proliferation of weapons of mass 
destruction.
    In 1995, Dr. Barker established the laboratory's Department 
of Defense Programs Office and served as the Acting Director 
for the first year. Dr. Barker assumed the position of 
Assistant to the Director in 1992, upon his return to Lawrence 
Livermore National Laboratory, after having spent 9 years in 
government service in Washington.
    Dr. Barker, welcome. Thank you very much for being here. We 
have, I think, a copy of your statement and we will put that in 
the record in its entirety. We encourage you to make such 
summary comments from it that you think will be helpful to the 
Subcommittee. Thank you. You may proceed.

   TESTIMONY OF ROBERT B. BARKER, ASSISTANT TO THE DIRECTOR, 
             LAWRENCE LIVERMORE NATIONAL LABORATORY

    Mr. Barker. Thank you, Mr. Chairman. It is indeed a 
pleasure to be here. This probably is my fifth or sixth 
appearance before Senator Levin, because as the Assistant to 
the Secretary of Defense, I testified annually in support of 
the Department of Energy budget. As the Assistant to the 
Secretary of Defense, I was responsible for understanding and 
making sure the Department of Energy's budget was supportive of 
defense requirements. It is very hard to leave that kind of 
environment behind.
    I probably should begin my comments this afternoon by 
making clear that I am here representing myself. As you have 
commented in your introduction of me, Mr. Chairman, I have had 
a professional career devoted to nuclear weapons related work, 
ranging from doing nuclear weapons design to serving three 
Secretaries of Defense as their expert on nuclear weapons 
matters. The details of that career are described in more 
detail in my statement. I will not go into it further now, but 
I do want to make clear that I do not represent the Department 
of Energy, the University of California, or the Lawrence 
Livermore National Laboratory in my appearance this afternoon.
    I am not going to read my statement. I am going to 
paraphrase some of it. But I do want to introduce something 
that I only recently became aware of. If one of the staff could 
take these pieces of paper from me, I could provide a copy to 
you and Senator Levin.
    The unclassified extract from the Bush report follows:

                       UNCLASSIFIED EXTRACT FROM:

    Report to the Committees on Armed Services and Appropriations of 
the Senate and the House of Representatives on Nuclear Weapons Testing 
required by Section 507 of the FY 1993 Energy and Water Development 
Appropriations Act.
    Transmitted by President George Bush, January 19, 1993
D. (U) Proposed Test Program
    (U) In signing the Energy and Water Development Appropriations Act, 
1993, President Bush described Section 507 of the Act as highly 
objectionable. Specifically, the President noted that Section 507:

        may prevent the United States from conducting underground 
        nuclear tests that are necessary to maintain a safe and 
        reliable nuclear deterrent. This provision unwisely restricts 
        the number and purpose of U.S. nuclear tests and will make 
        future U.S. nuclear testing dependent on action by another 
        country, rather than on our own national security requirements. 
        Despite the dramatic reduction in nuclear arsenals, the United 
        States continues to rely on nuclear deterrence as an essential 
        element of our national security. We must ensure that our 
        forces are as safe and reliable as possible. To do so, we must 
        continue to conduct a minimal number of underground nuclear 
        tests, regardless of the actions of other countries. Therefore, 
        I will work for new legislation to permit the conduct of a 
        modest number of necessary underground nuclear tests.

    (U) Despite our strong concerns with Public Law 102-377, the 
Departments of Defense and Energy have endeavored since its enactment 
to devise a fiscally, militarily and technically responsible testing 
program to comply with its constraints. We have concluded that it is 
not possible to do so, for several reasons.
    (U) First, regarding weapons safety, the Administration considers 
the planned enduring nuclear weapons stockpile to be reliable and safe. 
Given the weapon's safety and the high cost of introducing new warheads 
incorporating additional safety improvements throughout the deployed 
force, we do not believe it would currently be cost-effective to 
incorporate them in the existing stockpile.
    (U) However, one or more of the weapons systems in the enduring 
stockpile might develop a significant flaw and require repair or 
replacement. Of all U.S. nuclear weapons designs fielded since 1958, 
approximately one-third have required nuclear testing to resolve 
problems arising after deployment. Therefore, we should have available 
weapon designs with enhanced safety features, that are thoroughly 
designed and tested, should they be needed. This aspect of planning for 
the future becomes more compelling recognizing that the weapons in the 
enduring stockpile may be retained well into the mid-21st century.
    (U) The administration advocates a series of nuclear tests to 
develop backup warheads which would provide enhanced reliability and 
safety, and serve as a hedge against the emergence of a significant 
flaw in one or more weapons types in the exiting stockpile. However, it 
is not possible to develop warheads with the requisite reliability and 
safety within the constraints of Public Law 102-377. They cannot and 
should not be developed in haste. Realistically, the effort will take 
more than 15 test over three years. In addition, post-production tests 
would be required to have confident in the warheads; such test could be 
well into the future, and thus would not be allowed under Public Law 
102-377.
    (U) Second, in accordance with earlier Congressional direction, the 
Administration has engaged in a major effort to increase predictive 
capability, and thus reduce our reliance on nuclear testing for force 
safety and reliability. It is questionable whether tests dedicated to 
that purpose would be allowed under Public Law 102-377. Even if they 
are, the limited amount and duration of underground nuclear testing 
allowed would permit us only marginally to increase our predictive 
capability, and would certainly not bring it to a point that we could 
maintain the safety and reliability of the U.S. nuclear deterrent 
without underground nuclear tests.
    (U) Third, the legislation provides for one test of the reliability 
of a nuclear weapon per year. That in itself might be adequate, but the 
requirement for weapons reliability testing is a long-term one, that 
will not come to abrupt end on September 30, 1996. The U.S. nuclear 
deterrent is far too important to our security and that or allies to 
forswear in the near future these tests required to ensure that it 
remains safe and reliable.
    (U) Fourth, the legislation does not allow underground nuclear 
testing to ensure that U.S. forces, other than our nuclear weapons, 
would be able to fulfill their functions despite exposure to nuclear 
effects. Such testing is extremely important for a wide range of 
systems, including conventional systems, sensor of all types, other 
defensive systems, and all command and control elements. Thus the 
constraints of Public Law 102-377 will have an adverse impact on a wide 
range of U.S. capabilities, in addition to our nuclear deterrent.
    (U) In consequence, the Administration has concluded that it is not 
possible to develop a test program within the constraints of Public Law 
102-377 that would be fiscally, militarily and technically responsible. 
The requirement to maintain and improve the safety of our nuclear 
stockpile and to evaluate and maintain the reliability of U.S. forces 
necessitates continued nuclear testing for those purposes, albeit at a 
modest level, for the foreseeable future. The administration strongly 
urges the Congress to modify this legislation urgently, in order to 
permit the minimum number and kind of underground nuclear test that the 
United States requires--regardless of the action of other states--to 
retain safe and reliable, although dramatically reduced deterrent 
forces.

    Mr. Barker. Mr. Chairman, when you invited me here today, 
you asked me to try to identify the risks attendant to the 
cessation of nuclear testing and the adequacy of the Department 
of Energy's Stockpile Stewardship Program as an alternative to 
testing. I have taken that responsibility very seriously, 
because I think it is important in the deliberations of the 
Senate as it considers the Comprehensive Test Ban Treaty that 
the Senate look hard at the shortfalls that have been 
introduced by the cessation of testing and look hard to see 
what they believe the limitations of the Stockpile Stewardship 
Program may be. My job is to emphasize the shortfalls, and that 
is what I am going to do.
    The first thing I want to observe is that things have 
changed dramatically in the last less than 5 years. The piece 
of paper that I have distributed, which I only became recently 
aware of, or maybe I was reminded that it existed, dates from 
January 1993. In October 1992, George Bush, then President of 
the United States, signed what was referred to as the Hatfield-
Exon-Mitchell Amendment, part of H.R. 5373, and that amendment, 
Section 507 of that bill limited the number and purpose of 
nuclear tests and set a specific date for the cessation of 
nuclear testing, namely September 1996.
    When President Bush signed that legislation, he 
characterized this particular section as ``highly 
objectionable,'' so much so that in his signature statement, he 
said that he would work for legislation to permit continued 
testing.
    On January 19, 1993, President Bush forwarded to the 
Congress a report to the Committees on Armed Services and 
Appropriations of the Senate and the House of Representatives 
on nuclear weapons testing as required by Section 507. I will 
read the last paragraph of that to you, it says, ``In 
consequence, the administration has concluded that it is not 
possible to develop a test program within the constraints of 
Public Law 102-377,'' that is, the Energy and Water Development 
Appropriation Act of 1993, ``that would be fiscally, 
militarily, and technically responsible. The requirement to 
maintain and improve the safety of our nuclear stockpile and to 
evaluate and maintain the reliability of U.S. forces 
necessitates continued nuclear testing for those purposes, 
albeit at a modest level, for the foreseeable future. The 
administration strongly urges the Congress to modify this 
legislation urgently in order to permit the minimum number and 
kind of underground nuclear tests that the United States 
requires, regardless of the action of other States, to retain 
safe, reliable, although dramatically reduced deterrent 
forces.''
    This report to the Congress was a classified report and 
what I have presented is a totally unclassified section of that 
report which addresses the proposed test program. When you have 
the time to look at it, you will see that as President Bush 
goes through the objections to the limitations on testing 
proposed by the legislation, it very closely parallels the 
areas that I have identified as risks in my prepared statement.
    He addresses the issue of being able to address problems 
that arise in the stockpile that bear on reliability and 
safety. He raises the issue that the safety of the stockpile 
could be improved and will not be able to be improved with the 
cessation of testing. He identifies the fact that the inability 
to do nuclear tests will prevent us from evaluating the 
survivability of our own military systems to the nuclear 
effects that might be imposed by other powers.
    Clearly, here is a very unequivocal statement about the 
continued need for nuclear testing made by a President of the 
United States in January 1993. Here we are, not yet 5 years 
later, a Comprehensive Test Ban Treaty has been signed and the 
Senate has before it the issue of giving its advice and consent 
to that treaty.
    I think there are numerous areas for the Senate to explore 
in its consideration of advice and consent that bear very 
dramatically on the risks of the U.S., and I would like to go 
through them very briefly and then take your questions.
    I think maybe one way to begin is to take a look at some of 
the issues that were raised with Secretary Reis, and using my 
own statement, give my answers to some of those issues.
    Maybe I could begin by making reference to a comment made 
by Senator Thompson. He said, ``You will know it works when you 
try it,'' and that, indeed, has been the philosophy that the 
U.S. has followed up until now. We have done a nuclear test of 
every weapon we have put into the inventory as it comes off the 
production line, usually within 1 year or so after it comes off 
that production line. We have also annually taken at random one 
weapon out of the inventory and tested it to see if it still 
works. Now, that was a requirement of the Defense Department. 
The Defense Department was the one that insisted that the 
Department of Energy take an old weapon out of the inventory 
and test it, because despite the assurances provided to the 
Department of Defense by the laboratories, by the best 
scientists in the world, the Defense Department's view was, we 
will really know it works when it works and so let us adopt 
this test program.
    On the issue of confidence, I say very unequivocally in my 
statement that our confidence is less today than it was in the 
past. I think that is a totally defensible statement based on 
the following things. One, in the past, every year, we used to 
do a stockpile confidence test. We have not for 5 years. We 
have, as Dr. Reis said, found changes in the stockpile. He has 
said that we have solved them without testing. In the past, we 
would have tested. I would challenge that the test and 
demonstration of the result is a much more positive thing than 
judgments drawn even by the best scientists based on 
calculations and laboratory experiments.
    Now, I am not saying that safety and reliability are today 
at an unacceptable level because of this current situation. 
What I am saying is there clearly has been a diminution in 
confidence and we should admit it. In fact, I think one of the 
great challenges for the Senate to understand is how will we as 
a Nation will measure this erosion in confidence. Maybe as SSP 
facilities come on line, maybe some confidence will increase 
again. In fact, there have been curves in existence that have 
been used by the Department of Energy in the past which show 
the decline of confidence as a function of time until stockpile 
stewardship facilities come on board and then that curve 
turning around and going back up.
    I do not think there is any issue that confidence has 
declined and I think it will be of great interest to the Senate 
to determine how one is measuring confidence, what factors go 
into that deliberation, and for the Senate to make up its own 
mind about what is acceptable and what is unacceptable, what is 
adequate and what is not adequate.
    If I may quote from another part of my statement, in the 
area of risk. I think one of the greatest concerns we have is 
that we might not even today know what the risks are.
    In my statement I have rattled through a bunch of questions 
which I do not believe have yet been answered. How much 
confidence in the reliability and the safety of the stockpile 
is enough? How much confidence has been lost already because we 
have stopped testing? How much loss of confidence will trigger 
a need for a nuclear test? To resolve the issue, who will make 
that decision? How much safety is enough? What is the 
probability of success for the Stockpile Stewardship Program? 
What is the probability that a major stockpile problem will 
arise before stockpile stewardship works? What are the risks of 
trying to meet a new weapon requirement for the stockpile 
without nuclear testing?
    I think the Senate has a great interest in the answer to 
all of those questions. Unfortunately, I cannot give you the 
answers today. I think there are experts from both the 
laboratories and review groups, that have been established as 
part of the certification process designed by the President, 
that can give you very interesting testimony on this issue. 
While all Senators may not have the time to burrow into all of 
these details, I think the Senate as a whole will want some of 
their members to probe these issues at great depth.
    At this point, let me just say that I want to join the 
previous two speakers in heaping praise on the Stockpile 
Stewardship Program. I think Assistant Secretary Reis has done 
an absolutely incredible job in managing the development of 
this program. In fact, I am hard pressed to identify anyone 
else who could have pulled it off. He got the three labs to 
work together to design a program where something absolutely 
had to be done because the labs were told, you are not going to 
do nuclear tests.
    In fact, if you did a poll of laboratory scientists these 
days, you would find they are absolutely convinced they will 
never test again. I think it is up to the Senate, when they 
look into this whole issue to make a decision as to whether 
they will give their advice and consent, to make a 
determination as to whether that is true, whether there will, 
indeed, be testing available to the weapon laboratory 
scientists or will there not.
    Clearly, the patent assumption today on the part of most 
nuclear weapons designers and engineers that they will not test 
and they are putting their all, very, very energetically 
putting their all, into a Stockpile Stewardship Program that 
definitely deserves the Nation's full funding. There is no 
doubt about that. The issue in my mind, is whether there should 
be nuclear testing, as well, to make sure that the Stockpile 
Stewardship Program is working and to make sure that we have 
the ability to address problems that will arise in one of 
several different areas.
    Anecdotally, I can tell you that while I was the Assistant 
to the Secretary of Defense for a period of some 5\1/2\ years 
to three different Secretaries of Defense, virtually once a 
year, on average, the Department of Energy would come to me and 
say, one of the weapons in the inventory is not safe or may not 
meet its reliability requirements. That is, it may not work. I 
do not mean one weapon, I mean an entire class of weapons. This 
caused us to have to redline a weapon. That is to say, this 
weapon, in effect, is not in the inventory, or requires a major 
change in its operational capability, because we have no 
confidence in its safety or no confidence in its reliability.
    The day before I was informed of these problems, as the 
Assistant to the Secretary of Defense, I could have gotten 
infinite assurances the stockpile was safe and reliable, and I 
was being given those assurances in an era when nuclear testing 
was allowed. I was being given those assurances by the same 
scientists and engineers who are today at the Nation's nuclear 
weapons laboratories, except maybe we have lost some of the 
more experienced ones as a result of retirement in the last 5 
to 8 years.
    So if anything, the experience base has been eroding and 
the fact that we have not had a problem significant enough, 
apparently, to result in a test in the last 5 years is no 
guarantee that one will not happen tomorrow. An annual 
certification is good the day it is made, and based upon past 
experience, a problem could pop up anytime thereafter. That is 
my personal experience.
    I do not think we can take a tremendous amount of comfort 
that problems will not arise because we have a certification 
program. We may find problems we would have otherwise missed 
because of the certification program, but it does not guarantee 
that surprises will not occur.
    Now, I say that ceding to no one in my respect of the 
competency of the people at our nuclear weapons laboratories. I 
am one, and I think that the laboratories are, indeed, the best 
laboratories in the world. But these scientists and engineers 
are human beings, Mr. Chairman and Senator Levin. They are not 
perfect robots and history says that they have erred. When I 
was a nuclear weapons designer, I sure erred and had nuclear 
tests that did not do exactly what I wanted them to do. So the 
first area of concern where one wants to understand the risks 
is in the area of problems of reliability and safety popping up 
in the stockpile.
    Another area which I think should be of grave concern is 
the safety of the stockpile. The current stockpile is safe. The 
current stockpile is safe because each weapon in it, by and 
large, incorporated the best safety features that existed at 
the time when the weapon was put into the inventory. As time 
went on, new safety inventions came in. The way we did business 
in the old days, older weapons systems would have been replaced 
and the replacement would have included the latest safety 
features.
    But we are not doing that anymore. We are not modernizing 
our stockpile. It seems to me the very prudent thing to have 
done before the cessation of testing was to make sure that 
every weapon in the inventory had every safety feature 
consistent with the current state of the art, but that was not 
done.
    So today, we are living with the fact that every weapon in 
the inventory does not have every feature in it that we know 
how to build. The substitute has been administrative controls, 
and we all know that sometimes administrative procedures can 
fail. I have the greatest respect for the civilians and the 
military that take care of these weapons, but we are putting a 
terrible burden on them by asking them to, by procedure, 
provide for safety that could have been provided by an inherent 
safety feature in a nuclear weapon design. I think the Senate 
should be asking whether this is an acceptable risk for the 
United States when it considers its advice and consent to a 
Comprehensive Test Ban Treaty.
    The third area is the area of new requirements. As has been 
said, I think, by the previous two speakers, one of the 
requirements of this administration coming out of the Nuclear 
Posture Review is that the Department of Energy be prepared to 
meet new requirements. I think you will find the literature of 
the laboratories of the Department of Energy's history rife 
with citations about the dangers of putting something new into 
the stockpile without testing.
    I am going to offer for the record a rather hefty report, 
but one that I think is probably the most authoritative 
document on the subject. It is titled, ``Report to Congress on 
Stockpile Reliability, Weapon Remanufacture, and the Role of 
Nuclear Testing.'' It was done in October 1987. The author is 
George Miller, then the Associate Director for Defense Systems 
at the Lawrence Livermore Laboratory and now the Associate 
Director for National Security there, and by two of his 
staff.\1\
---------------------------------------------------------------------------
    \1\ Report entitled ``Report to Congress on Stockpile Reliability, 
Weapon Remanufacture, and the Role of Nuclear Testing,'' dated October 
1987, submitted by Mr. Barker appears in the Appendix on page 112.
---------------------------------------------------------------------------
    On page 11 of that document, it says, ``Testing of newly 
produced stockpile systems has shown a continuing need for 
nuclear tests. Even an `identical' rebuild should be checked in 
a nuclear test if we are to have confidence that all the 
inevitable small and subtle differences from one production run 
to the other have not affected the nuclear performance.'' He 
provides an example in this report of the same kind of a 
problem occurring with the Polaris missile when the Navy tried 
to rebuild it after a cessation of production and finding great 
difficulties in building an identical missile.
    Another very interesting element of this document is that, 
if I can refer back again to the report that President Bush 
sent to the Congress in January 1993, President Bush says, ``Of 
all U.S. nuclear weapon designs fielded since 1958, 
approximately one-third have required nuclear testing to 
resolve problems arising after deployment.'' This document 
details most of those examples, the ones that had occurred as 
of the date of the document. So one-third of the inventory 
produced by Los Alamos, and one-third of the inventory produced 
by Livermore were affected. The kind of problems that popped up 
after these weapons were in the inventory are listed here.
    So whether it be stockpile problems, whether it be new 
requirements to meet the new challenges of the new world, 
nuclear testing has been essential always in the past to meet 
those kinds of challenges. I think the Senate needs to 
understand whether it is an acceptable risk to not be able to 
respond to those kinds of situations in the future.
    Let me just say a few more words about the Stockpile 
Stewardship Program and then quit. I think, as a matter of 
fact, the threats or the risks associated with stockpile 
stewardship have already been fairly well covered in the 
hearing up to this point.
    I think the Members of the Subcommittee have recognized the 
fiscal liabilities. With what confidence can one assume a 
commitment to a decade of funding at the $4.5 billion level in 
the presence of a balanced budget environment and growth in 
other budget areas?
    There are already people who are assuming that this program 
is just like any other program and it can be incrementally 
whacked and still do its job. I think until a thorough review 
is done of the SSP by the Senate and the Senate itself is 
convinced that there is fat in there, any reduction should be 
viewed as a significant increase in the risk of depending upon 
a Stockpile Stewardship Program.
    So there is the whole fiscal risk, and you, gentlemen of 
the Senate, I think, are much better able than I to assess the 
credibility of sustained funding at a $4.5 billion a year real 
dollar value. I am inclined to believe that the number should 
probably be higher than $4.5 billion, but that, again, is an 
issue for you to explore, for the Senate to explore.
    The other area of risk with SSP is the technical risk. I 
think Senator Thompson basically hinted at it, that you are 
talking about very long-term projections for very complex 
technical things. You will find that in this Nation, the 
American way is the high-tech way and you will find that many 
of those high-tech programs do not meet their milestones and 
some of them even fail.
    I personally think the chances of the SSP elements 
ultimately succeeding are good, but I am less sanguine that 
they will meet this 10-year time line that has been laid out 
for them, trying to dovetail the retirement of the last nuclear 
weapon designer with design experience with the full operation 
of SSP. That is asking an awful lot. It is not only asking for 
technical success, it is asking for technical success on an 
immovable schedule. Again, I think the Senate has plenty of 
data in front of it by which to make an assessment about the 
risks associated with making that assumption.
    I have probably gone on longer than I should have because I 
have forgotten to look at my watch, but let me just tick off 
those areas of risk again. Problems in the stockpile dealing 
with reliability and safety, whether the safety itself is good 
enough for American citizens, and third, whether we are 
prepared to abandon the possibility of modernizing our systems 
in the future in response to changing national security 
requirements.
    The areas of risk are abundant and I certainly hope that 
the Senate will give them every consideration before it takes 
its decision on advice and consent to the Comprehensive Test 
Ban Treaty.
    Only one last comment, please, and that is even if the CTBT 
were not ratified, in the absence of testing, SSP is absolutely 
critical. The issue of SSP is to do as good a job as can be 
done without testing. My own druthers would be very similar to 
what Secretary Schlesinger proposed, except I would include 
without ratification, namely, continued testing at some low 
level and even the ability to conduct high-yield tests as it 
proved necessary to maintain reliability in the stockpile. 
Thank you, sir.
    [The prepared statement of Mr. Barker follows:]

                    PREPARED STATEMENT OF MR. BARKER

    I have been asked to testify today on the risks attendant to the 
cessation of nuclear testing and the adequacy of the Department of 
Energy's Stockpile Stewardship Program (SSP) as an alternative to 
testing. I am pleased to do so because I have been concerned for some 
time about the lack of public awareness and discussion of the tradeoff 
between the risks and purported benefits of the existing cessation of 
testing and its potential permanent codification in the Comprehensive 
Test Ban Treaty (CTBT). Already it has been more than five years since 
the last U.S. test of a nuclear weapon. It is imperative that the 
Senate undertake an assessment of whether the risks inherent in the 
cessation of testing are acceptable and whether the purported benefits 
are real and significant enough to warrant the costs.
    My comments are my own, based upon a professional career devoted to 
nuclear weapons related work, ranging from being a nuclear weapon 
designer to serving three Secretaries of Defense as their expert on 
nuclear weapon matters. The details of that career are described in 
more detail below. I do not represent the Department of Energy, the 
University of California, or the Lawrence Livermore National Laboratory 
in appearing here this afternoon.
    Let me start by briefly summarizing my conclusions:
    First, sustained nuclear testing, with no less than six tests per 
year, is the only demonstrated way of maintaining a safe and reliable 
nuclear deterrent. Our confidence in the safety and reliability of our 
nuclear weapons has already declined, to an as yet unquantified extent, 
since 1992, the year we deprived ourselves of the nuclear testing tool 
to evaluate stockpile safety.and reliability.
    Second, stockpile problems affecting safety and reliability are 
inevitable; they can arise anytime, even as soon as tomorrow. New 
weapon requirements will arise as the current, Cold War stockpile is 
perceived to not meet evolving national security needs. Nuclear weapon 
safety can be improved. The ability to promptly conduct nuclear tests 
will be essential to confidently meeting these challenges. Especially 
in the case of a loss of confidence in the reliability or safety of a 
stockpiled weapon system, we cannot afford to wait years to fix the 
problem.
    Third, the Stockpile Stewardship Plan, a very creative plan 
developed by the nation's nuclear weapon laboratories and production 
facilities, under the leadership of Dr. Reis, to respond to the lack of 
nuclear testing, is not now, and never will be--even ten years from now 
when its major components might be operational--a ``substitute'' for 
nuclear testing in the sense of giving us equal confidence in the 
safety and reliability of our nuclear weapons. Nor will SSP alone allow 
us to improve the inherent safety of nuclear weapons or provide new 
nuclear weapon designs in response to new requirements.
    Fourth, if a sustained, robust, nuclear test program cannot be 
assured a minimum requirement is a fully funded SSP and the ability to 
conduct limited nuclear testing. Two options might be:

        Routine low yield (0.5-1.0 kt) testing, in conjunction with 
        SSP, that can still allow us to address many of the critical 
        issues we will face (At these yields, it should be noted, we 
        could not confidently detect another nation's clandestine 
        testing);

        Infrequent tests conducted to validate SSP capabilities and to 
        address a specific stockpile problem or to meet a new 
        requirement, upon concluding that SSP is inadequate to the 
        task. (These are the same tests whose execution would require 
        the ``Supreme National Interest'' clause to be exercised if the 
        U.S. were party to the CTBT.)

    In each case nuclear testing readiness should be maintained so as 
to enable the conduct of a test within less than a year of identifying 
the need for the test.
    Fifth, the cessation of testing, with its clear risks to the 
maintenance of a credible deterrent, has been justified on the basis 
that national security is enhanced through non-proliferation benefits. 
I can find no evidence that this assertion of benefit has been 
subjected to any reasonable standard of proof. It seems all too likely 
that we are accepting ``risk'' with no ``benefit.''
    In the remainder of my comments I will review with you first those 
aspects of my career in nuclear weapons related work that have been 
most relevant to my reaching these conclusions. I will make clear my 
premises, and amplify on the basis for my assessments.
A Career in Nuclear Weapons Work
    I began my career in nuclear weapons work when I joined Lawrence 
Livermore Laboratory in 1966 fresh from receiving my Ph.D. in Physics. 
I became a nuclear weapon designer, learning to simulate nuclear weapon 
explosions on the computers of the time, bringing designs from 
calculated concepts to real hardware which were then tested in 
underground nuclear detonations.
    Over the next seven years I moved from novice designer to leader of 
the strategic nuclear weapon design group. For the five years following 
I managed the Laboratory's nuclear weapon systems analysis 
organization, working with the military services and the Office of the 
Secretary of Defense, to assure that the nuclear weapon design efforts 
of the laboratory would meet the future needs of the Department of 
Defense. I then became manager of LLNL's Special Projects organization, 
among whose responsibilities were the analysis of the nuclear weapon 
capabilities of other nations, including those of proliferant 
countries. In 1982 and 1983 I served as the Deputy Associate Director 
for Arms Control, providing the Laboratory's technical assistance to 
the Departments of Energy, Defense, State, and the Arms Control and 
Disarmament Agency.
    From October 1983 to October 1986 I served in the Arms Control and 
Disarmament Agency as the Deputy Assistant Director for Verification 
and Intelligence. In this capacity I was responsible for evaluating the 
effectiveness and ineffectiveness of verification technology and 
performing assessments of other nations' non-compliance with existing 
treaties to which the U.S. was party.
    In October 1986 I became Assistant to the Secretary of Defense 
(Atomic Energy) (ATSD(AE)), the position I held until May 1992. In this 
capacity I was the principal advisor to the Secretary of Defense on all 
nuclear weapon matters, including nuclear weapon safety, security, and 
reliability and was DOD's day-to-day interface with the Department of 
Energy for nuclear weapon matters.
    I returned to LLNL in 1992 where I serve as an Assistant to the 
Laboratory Director.
Lessons Learned
    What have been the primary lessons of the various periods of this 
career? As a nuclear weapon designer I learned the limitations of 
simulations and the humility that comes with the failure of a nuclear 
test. Computer calculations, regardless of how good or fast the 
computer is, are only as good as the data and models you give them and 
the knowledge and experience of the individual doing the calculations. 
Even today no computers are big enough or fast enough to simulate all 
that goes on when a nuclear weapon explodes. The true knowledge of and 
experience with the limitations of calculations came from understanding 
the differences between calculations and experiments, including nuclear 
tests.
    As a system analyst I learned that nuclear weapon systems 
inevitably lose effectiveness in the face of emerging threats, changing 
technologies, and evolving requirements. Targets once threatened will 
burrow deeper, out of the range of effectiveness of existing weapons. 
Advances in detection and precision strike capabilities will threaten 
the survival of U.S. delivery systems, thus calling for longer range, 
or faster delivery, or stealthier characteristics, any one of which 
might necessitate changes to the nuclear weapon to be delivered. 
Weapons designed for the Cold War are unlikely to support the 
precision, limited damage strikes that may be required to deter 
proliferant nations' use weapons of mass destruction.
    As an evaluator of other nations' nuclear weapon programs, I 
learned that mirror imaging is dangerous, and we should not assume that 
others will have the same need for testing that we have. Every nuclear 
nation's nuclear weapons will not decay at the same rate; every nation 
will not lose confidence in their nuclear weaponry at the same time. We 
cannot predict whether our weapons will have a longer shelf-life and 
effectiveness than our potential opponents'. Where we have striven for 
minimum weight, others may have chosen to maximize tolerance for 
production defects. Where we have chosen to build unique designs for 
every application, never expecting to rebuild an old design, they may 
have chosen to plan to routinely reproduce older designs. The risks of 
no testing will not be the same for all nuclear weapon states. We 
cannot assume the least risk for ourselves.
    In the arms control arena I discovered that while Treaty proponents 
may argue that ``adequacy'' of verification is all that's needed to 
``deter'' violations after entry into force, too often those same 
advocates of ``adequacy'' will demand absolute proof of violations, a 
standard of evidence that was demonstrably not achievable before treaty 
ratification. It is to hoped that CTBT hearings will explore whether 
the capability will exist to absolutely prove any violation of the 
``zero'' limit.
    In the Pentagon, I became the customer of the DOE nuclear weapon 
infrastructure. In my five and one-half years as ATSD (AE) I found 
myself going to the Secretary of Defense too many times to tell him 
that DOE had just informed me that a weapon type in the inventory was 
not safe or would not work. These were not minor problems; these were 
catastrophic failures. In each case, all was well the day before, with 
no indication of safety or reliability problems. The next day all 
weapons of a given type were red-lined as unfit for duty. Nuclear 
testing was critical in some cases to the finding of these problems 
and, in some cases, to achieving confidence that the fixes for the 
problems were acceptable.
    In each area of my career I have had the opportunity to see a 
different aspect of the U.S. nuclear weapon system. My judgments about 
the risks of the cessation of testing while trying to maintain a safe 
and secure stockpile come from someone who was ``there'', someone who 
has had to live with the real and potential consequences of failure.
Key Assumptions
    Any discussion of the risks to the credibility of our nuclear 
deterrent posed by the abandonment of nuclear testing should be based 
on a clear understanding of the underlying premises. My three key 
assumptions are:
    Nuclear weapons are now and for the foreseeable future will remain 
an important element of the nation's national security posture. The 
views of this Administration on this issue have been made clear in 
testimony before this committee by Under Secretary of Defense Walter 
Slocombe. President Clinton has said ``. . . I consider the maintenance 
of a safe and reliable nuclear stockpile to be a supreme national 
interest of the United States.'' While nuclear threats have diminished 
with the end of the Cold War, they have not disappeared. The need to 
deter the potential use of weapons of mass destruction, nuclear, 
chemical, biological, against the interests of the U.S. and its allies 
has increased. We must maintain our deterrent nuclear force for as long 
as threats remain, or have the potential to emerge, and until such time 
as technologies are developed which could verify without doubt that no 
nuclear threats are posed against us.
    The credibility of our nuclear deterrent can only be sustained if 
we, ourselves, are confident it will work. That is, we must believe 
that nuclear destruction of whatever we target will be sure and swift 
once the decision is made to use a nuclear weapon. We, especially in 
our open society, cannot sustain the credibility of deterrence for long 
if we lose confidence in the actual performance of the weapons.
    We must make sure that our nuclear weapons are safe. To do less 
would be immoral. The history of U.S. nuclear weapon development is 
that with the design of each new weapon, efforts were made to 
incorporate the latest safety features in a steadily evolving safety 
technology. When weapons remained in the stockpile so long that their 
safety features were too deficient with respect to then current 
standards these systems were retired solely because of this deficiency. 
This approach must continue to be our standard.
The Risks for ``Reliability'' and Safety
    The prudent approach to ending nuclear testing, as with any 
endeavor, would have been to demonstrate the success of an alternative 
approach before abandoning what has been demonstrated to be successful. 
The Congress, in the FY89 Defense Authorization Bill, required the 
Department of Energy to define a Test Ban Readiness Program. The 
resultant program was designed to develop and determine the 
effectiveness of non-nuclear test alternatives by direct comparison 
with the results of an ongoing nuclear test program. This program would 
have required ten years to implement and required approximately ten 
nuclear tests per year to validate the alternatives to nuclear testing. 
The program was terminated in 1992 by the premature cessation of 
testing.
    The U.S. abandoned the prudent approach when it ceased nuclear 
testing in 1992 without demonstrating a reliable substitute for nuclear 
tests. Instead we have abandoned the known and embarked on a path whose 
risks are unknown but could be very great.
    There are a number of questions about risk that should be critical 
in discussions of a CTBT and SSP. The questions sound as if there were 
quantitative answers. How much confidence in the reliability and safety 
of the stockpile is enough? How much confidence has been lost already 
because we have stopped testing? How much loss of confidence will 
trigger a need for a nuclear test to resolve the issue? How much safety 
is enough? What is the probability of success for SSP? What's the 
probability that a major stockpile problem will arise before SSP 
``works''? What are the risks of trying to meet a new weapon 
requirement for the stockpile without nuclear testing?
    In my view there has been a major failure in coming to grips with 
these questions. It is not even clear that it has been decided who 
should bear the responsibility for ``officially'' answering the 
questions. For example who decided that today's nuclear weapons are 
safe enough and that further testing should not be conducted to make 
weapons as safe as currently possible before stopping testing?
    The nuclear weapon community has difficulty giving quantitative 
answers to these questions. The national security policy community has 
failed to specify quantitative requirements. Without answers to these 
questions, how can anyone feel comfortable with the risks on continuing 
down the current path? The biggest risk may be that we don't even know 
what the risks are
    I will address four areas of risk that bear on the credibility of 
the U.S. deterrent: stockpile defects; accepting less than the best in 
nuclear weapon safety; the inability to respond effectively to new 
threats and requirements; and betting on SSP before it has shown what 
it can do.
Stockpile Defects
    As I stated earlier, inevitably, based on the history of the 
stockpile to date, a problem will be discovered in a weapon type in the 
inventory. Past problems have been due to the aging of weapon 
components and the discovery of design defects years after a weapon has 
entered the inventory. The problems can bring into question the safety 
or reliability of all the weapons of a particular type. The risks of 
trying to solve such problems without nuclear tests have not been 
quantified.
    I have used the word ``reliability'' because that is the custom in 
the nuclear weapon business, but it is the wrong word. Reliability 
conjures up in most people's minds a vision of some fractional or 
percentage failure rate in something. Today there are many people who 
will say ``You have so many weapons, the Cold War is over, it doesn't 
matter if the reliability is only 65 percent (or some other low number) 
instead of the 99.9 percent you've been used to demanding.'' While this 
attitude is itself debatable, when I and my colleagues, talk about loss 
of ``reliability,'' we are talking about the concern that all weapons 
of a given type will fail to perform their mission.
    John Nuckolls, a former Director of the Lawrence Livermore National 
Laboratory, has likened these different uses of ``reliability'' to the 
difference between owning an automobile ``lemon'' and finding that your 
automobile is in a ``recall'' because the manufacturer has discovered a 
fatal flaw in every car built of that model. The ``lemon'' is an 
example of a statistical problem, where only some limited percentage is 
bad. We can stand some ``lemons'' in the stockpile; we are unlikely to 
be able handle a ``recall'' affecting reliability or safety without 
nuclear testing to help us fix the problem.
    At this point, in the limited debate that has occurred to date, 
somebody (not anybody who has actually been responsible for producing 
hardware) says ``You don't need to do to nuclear tests; just rebuild 
the weapons to their original specifications and the rebuilt weapons 
will last as long as the first production.'' Wrong! Rebuilding weapons 
in trouble as closely as possible to the way they were built originally 
may be the lowest risk approach to solving stockpile problems, but it 
is not trivial and far from risk free. In the future we will find 
establishing confidence in a rebuilt weapon to be as challenging as a 
new weapon requirement.
    Difficulty in recreating a piece of hardware with the same 
performance as the original is not unique to the nuclear weapon 
complex. When production was interrupted on the rocket motor of the 
Navy's Polaris sea-launched ballistic missile and then restarted, even 
with the same design specifications, it could not be reproduced. The 
fix required redesign and recalling retired people to provide data on 
how the original motors were made. Missile motor testing was available 
to the Navy to help them understand their problem and to be confident 
that they had found a solution. Nuclear testing needs to play the same 
vital role when nuclear weapons must be rebuilt.
Safety
    There are weapons in the stockpile today which are less safe than 
they could be because they do not include the full suite of modern 
safety features. Without nuclear testing, improvements in the inherent 
safety of nuclear weapons are impossible. Future research could 
discover approaches that could add additional inherent safety, but 
these too would be precluded by the inability to conduct nuclear tests.
    The history of U.S. nuclear weapon development is that with the 
design of each new weapon, efforts were made to incorporate the latest 
safety features in a steadily evolving technology of safety. When 
weapons remained in the stockpile so long that their safety features 
were too deficient with respect to then current standards, these 
systems were retired solely because of this deficiency.
    Currently available safety technology consists of features that can 
be incorporated into the design of a nuclear weapon, thereby providing 
inherent safety. These features can not only preclude a nuclear 
detonation, except when intended, but can also dramatically reduce the 
possibility of the detonation of the nuclear weapon's high explosive in 
violent accidents and reduce the probability of the dispersal of 
plutonium in fires. Some weapons in the current stockpile were produced 
before all these features were available. The missing safety features 
in some weapons cannot be added without nuclear testing.
    Today these safety shortfalls are partially compensated for by 
handling procedures whose objective it is to shield the weapons from 
the violent events that could result in plutonium dispersal. Such 
procedures will always be dependent upon the human beings who must 
execute them. I have the highest regard for the military and the DOE 
civilians whose job it is handle and transport these weapons, but I 
cannot help thinking that the nation would have been kinder to them and 
the rest of us if all available inherent safety features were part of 
today's stockpile. I was amazed when the decision was made to stop 
testing without conducting the few tests it would have taken to make 
the entire stockpile as safe as it could be made.
    The absence of nuclear testing also removes any incentive for 
designers to invent further enhancements to inherent nuclear weapon 
safety. Even if such features are invented they will sit unused as long 
as we deny ourselves the ability to conduct nuclear tests.
    Will we continue to settle for less than the safest nuclear weapons 
we know how to build? Hopefully the Senate will revisit this decision 
to abandon our long held standard of making our nuclear weapons as safe 
as technology allows.
New Requirements
    Nuclear testing has been critical to the development of new nuclear 
weapons, even when that consists of packaging existing design concepts 
into new or modified delivery systems. There seems to be agreement that 
the production of new designs without nuclear testing constitutes 
unacceptable risk. Where differences of opinion exist is whether it is 
necessary or advisable for the U.S. deny itself new nuclear weapon 
capabilities. Are we prepared to accept the risks of not deploying new 
nuclear weapon systems as necessary?
    Today's nuclear stockpile contains weapons designed to meet the 
requirements of the Cold War. It is an open question how long these 
same weapons will meet the needs of the post-Cold War world. It is 
certainly true that during the Cold War nuclear weapon systems, 
particularly strategic weapon systems, were periodically modernized. 
Modernization was driven by advances in technology that were not unique 
to nuclear weaponry. Targets became harder to threaten; they became 
less vulnerable to deployed yields and delivery accuracy. Our delivery 
platforms--submarines, aircraft, land-based systems--became vulnerable 
to attack as the acquisition and targeting systems of potential 
adversaries improved. As a result, the U.S. response was to preserve 
deterrence by increasing the lethality of our nuclear weapon systems 
and diminishing their vulnerability. Usually the weapon system changes 
caused us to require new nuclear weapon designs.
    Several studies done for the Defense Department during the last 
Administration concluded that deterrence of attacks with weapons of 
mass destruction, nuclear, chemical, and biological weapons, against 
the interests of the U.S. and its allies would be enhanced by the 
addition of new nuclear capabilities to the U.S. nuclear arsenal. The 
testimony before this Committee by Under Secretary Slocombe describes a 
broad basis for the continued retention of an effective nuclear 
deterrent. It is difficult for me to believe that we will be able to 
maintain a credible deterrent against this array of potential threats 
if we are not prepared to deploy new nuclear weapon systems as our 
current ones become progressively less effective as a result of strong 
efforts to make them so. This Administration's 1994 Nuclear Posture 
Review, whose conclusions have been endorsed in the recent Quadrennial 
Defense Review, requires the DOE to maintain the ability to ``Maintain 
capability to design, fabricate, and certify new warheads.''
    The record seems clear: it is a requirement to be able to meet new 
requirements. Nuclear testing is needed to meet new requirements. The 
absence of nuclear testing risks our ability to preserve deterrence in 
a technologically changing world.
SSP
    The risks posed by depending solely upon a Stockpile Stewardship 
Plan for safe and reliable nuclear weapons come from two directions--
one technical and the other, financial. There is the risk that even a 
fully funded SSP, which achieves all its technical objectives, will 
fall short of achieving the levels of confidence we need for the safety 
and reliability of nuclear weapons. From the other direction there is 
the risk that even if a fully funded SSP would ultimately demonstrate 
acceptable levels of confidence, inadequate funding over the decade 
needed to determine the degree to which SSP will work will doom SSP to 
failure. In either case, there is the risk that full SSP capability 
will be delayed, for technical or fiscal reasons, to the point that the 
experienced nuclear weapon designers with nuclear weapon testing 
experience will have retired before the new staff, with new 
capabilities, are ready to take their place.
    The Laboratories in which the country has entrusted the maintenance 
of our nuclear deterrent for the entire nuclear era were told by this 
Administration that they would not test again and must do their best 
without testing. When asked to build a substitute for nuclear testing, 
under the outstanding leadership of Assistant Secretary Reis, the 
Laboratories generated a plan to greatly increase computational 
capability and to create new facilities that could more closely 
approach the physical conditions of nuclear explosions. It is a 
brilliant plan. This capability, if brought to reality, would not only 
allow better approximations of nuclear performance, it would also 
greatly enhance the ability to attract and retain the scientists whose 
judgments-must be depended upon when those with nuclear testing 
experience retired. A sine qua non of this plan was that the new 
capabilities become operational before the experienced cadre of nuclear 
weapon scientists retired.
    The plan is very challenging technically, and very exciting for the 
scientists involved. It calls for an increase of a factor of 100,000 in 
scientific computing capability. This requires computers that run 
faster, vast machine memories, and new ways of storing and analyzing 
calculations. The machines for imaging the implosions of nuclear 
weapons, without nuclear yield, will press the frontiers of technology. 
The objective is to create an x-ray movie of an imploding nuclear 
weapon (without producing nuclear yield) to capture the instant when a 
nuclear explosion would begin. Other machines will create the 
conditions of temperature and pressure heretofore found only in nuclear 
weapons and stellar objects to enable a better understanding of how 
nuclear weapons operate and to explore the effect of certain defects on 
nuclear performance. As good as this plan is, think I can say that no 
one with operational knowledge of nuclear weapon development and 
production believes that it can achieve the same levels of confidence 
that were achieved with nuclear testing. Will they be good enough?
    Any one of the objectives set out constitutes a significant 
scientific achievement. For all of them to succeed on schedule may be 
an even bigger accomplishment. I have great faith in my colleagues and 
am inclined to believe that ultimately, given funding, the objectives 
of calculational speed and facilities performance will be achieved. But 
the timelines are demanding and one or more of the projects may not be 
completed before the last scientist who had nuclear testing experience 
retires. The most prudent plan therefore would be for the United States 
to continue to conduct nuclear tests as necessary to calibrate the new 
capabilities and give the new generation of designers a new nuclear 
test experience base from which to assess their new tools.
    The real challenge that should be on the lips of every individual 
who thinks it's a good idea for the U.S. to have a safe and reliable 
nuclear deterrent is ``Prove to me that this SSP is good enough to 
entrust U.S. national security to it.'' The consequences of failure are 
too great for anyone to simply assume SSP will do the job.
    What are the odds that SSP will be successful? Dr. Sig Hecker, the 
recently retired Director of the Los Alamos National Laboratory, has 
said he can not guarantee success. Dr. Vic Reis, the Assistant 
Secretary of Energy for Defense Programs has asked the question of 
numerous prestigious groups of scientists, and according to him the 
vast majority believe that, if fully funded, the odds of success are 
better than 50/50. Senior nuclear weapon Laboratory scientists and 
managers have said the odds are ``good.'' I was among a group of ex-DOD 
officials who served on a panel at the request of Dr. Reis, to evaluate 
the ability of SSP to meet DOD's requirements. We concluded that ``. . 
. confidence in maintaining a safe and reliable stockpile without 
nuclear tests will be good, but it will never be as good as was 
achieved with nuclear tests.'' The Senate will have to decide whether 
it thinks these odds are good enough for U.S. national security.
    Turning to the financial perspective, the DOE's SSP contains the 
budgeted portion of what the Laboratories have said they needed. The 
SSP also needs to provide for the production of tritium to meet weapon 
needs and the retention of a production complex that can rebuild those 
weapons which must be replaced and any new nuclear weapon production. 
This not an inexpensive program. Recently it has been announced that 
more of what was needed will be funded.
    The Senate should explore in depth whether there are still funding 
shortfalls in the funded SSP. Can it meet all the needs that have been 
identified from tritium production to maintaining a production 
capability to assuring a safe and reliable stockpile?
    I suggest one significant shortfall is the ability to promptly 
conduct a nuclear test when one is shown to be unavoidable if a safe 
and reliable deterrent is to be maintained. I emphasize promptness here 
because I am uncomfortable with the vision of us discovering a fatal 
flaw in the safety and reliability of a stockpiled weapon type and then 
taking years to do the test to determine that we can confidently fix 
the problem. (I am even more troubled by the specter of the public 
debate that would ensue prior to a decision to test if the supreme 
national interest clause procedures outlined by President Clinton were 
carried out under a CTBT while the whole world knew that it was 
triggered by a major U.S. stockpile problem.)
    Both internal and external to the Administration, the debate about 
the adequacy of funding seems to have become dominated by those who 
want to impose some arbitrary financial limitations, independent of 
what the recognized experts say they need. (Ironically, according to my 
reading of the newspaper, those outside government who claim the job 
can be done more cheaply are the same people who have devoted their 
lives to eliminating our nuclear deterrent. One might suspect their 
motivation in gutting the SSP is more to ensure its failure.)
    The Senate will have to make its own assessment of the prospects of 
sustaining the necessary level of funding over the next decade to bring 
all the elements of the SSP to fruition on time. Then the Senate can 
decide if the risks associated with success being dependent upon full 
funding are acceptable.
Concluding Comments
    In my comments today I have focused on the risks associated with 
the cessation of testing and not solely on the CTBT. The damage to our 
confidence in our deterrent is just as damaging with or without a CTBT 
if we continue to deny ourselves the ability to conduct nuclear tests 
as necessary.
    Full funding of the SSP is our hedge, especially if it contains 
funding to ensure we can promptly conduct nuclear tests when it is 
clear we have no other choice. The Senate can ensure the option to test 
to preserve our deterrent exists by not giving its advice and consent 
to the CTBT. The Senate can advance our chances of promptly conducting 
nuclear tests when needed by eliminating the current legislative 
restraints on a President's ability to test when he sees fit. The 
removal of these legislative constraints will also send a clear message 
that the Senate supports a reliable and safe nuclear deterrent. The 
Senate can send the strong message that it is not standing in the way 
of the nuclear testing needed to ensure a reliable deterrent.
    I have not dwelt on the other deficiencies of the CTBT today. Lest 
it be thought that I support contentions that this treaty would inhibit 
proliferation in any way let me set the record straight. A proliferator 
does not need to conduct nuclear tests to establish a nuclear 
capability. South Africa demonstrated that. Also, one of our earliest 
designs was untested before it was used in war. While untested designs 
will be of lower yield, heavier, and larger than optimized, tested 
weapons, such weapons are all that's needed for some countries to 
devastate their neighbors. However, a proliferator can conduct tests 
with little or no risk of detection, or, if conducted on the high seas, 
without fear of attribution. Such tests may add additional confidence 
or increase sophistication for the proliferator.
    I am also concerned that the CTBT will add to proliferation. 
Without testing, as have discussed at length, the effectiveness of our 
nuclear deterrent is guaranteed to erode. Those nations who have felt 
confident of our nuclear umbrella will rightfully lose that confidence 
and, in an increasingly uncertain world, some may conclude they must 
develop their own nuclear deterrent.
    In conclusion, I see no benefits to U.S. ratification of the CTBT, 
and terrible costs. But even with no CTBT we pay the costs unless we 
are ready, able, and willing to conduct the nuclear tests that will 
maintain the nuclear deterrent component of our national security 
posture.

    Senator Cochran. Thank you very much, Dr. Barker. We 
appreciate your testimony.
    In connection with the yield issue on testing, Dr. 
Schlesinger mentioned that one of the most troubling aspects of 
this entire arrangement is the commitment to a no-yield 
program, that some testing with modest yields, and he mentioned 
1 to 2 kiloton yields as what he had in mind, would be 
important to undertake or to have the ability to do in order to 
maintain some confidence in the reliability and safety of our 
arsenal. Do you agree with him on that? What military utility 
is there in conducting a test of 10 kilotons or less?
    Mr. Barker. I think you will find that in the two 
laboratory directors' responses to Senator Kyl's questions. I 
think, Director Tarter of the Lawrence Livermore Laboratory 
talked about half-a-kiloton testing. I think Dr. Hecker talked 
about a kiloton testing. If you go back to the Carter era, 
which is, I think, what Secretary Schlesinger was referring to, 
1 to 2 kilotons was what was talked about, those numbers were 
largely keyed to trying to say we should not impose upon 
ourselves any limitation that we cannot verify and that there 
is, indeed, utility to evaluating the reliability and safety of 
the stockpile down to yields as low as someplace between a half 
a kiloton and a kiloton.
    Clearly, higher yields will deliver higher reliability. Ten 
kilotons would be a significant advantage for many weapons in 
the inventory, but not all, and clearly, under current treaty, 
we have the ability to conduct tests up to 150 kilotons. We 
found great value in doing tests up to that level at certain 
times in our past.
    Senator Cochran. In your opinion, as one who has experience 
designing and testing nuclear weapons, would nations like 
Russia and China be able to conduct testing that could evade 
our detection up to 10 kilotons or less?
    Mr. Barker. I think that is a distinct possibility, 
Senator. The one scenario that I think everyone agrees is the 
most challenging is a nuclear test that took place in the broad 
ocean area. If a nuclear test took place in the middle of the 
South Atlantic with nobody around, to whom would it be 
attributed? Any Nation that could pull off that kind of an 
event, even though detected and measured by our detection 
systems, the ones conducting the test may receive the full 
benefit from it.
    Whether one can conduct tests underground and avoid 
detection in certain areas of both Russia or China, it is 
possible, certainly up into the few kiloton range. Look at the 
ambiguity, the continuing ambiguity associated with the test[s] 
in the neighborhood of Novaya Zemlya as an indication of the 
kind of turmoil that will exist in any attempt to verify a 
zero-yield treaty.
    Senator Cochran. Do nations that aspire to acquire nuclear 
weapons have to test in order to develop nuclear weapons?
    Mr. Barker. Definitely not. In fact, one of the first two 
weapons we used in Japan was not previously tested. The South 
Africans announced in 1993 that they had a nuclear weapons 
program in which they had stockpiled a few weapons of a design 
that had never been tested. We have known for a long time that 
certain kinds of weapons can be developed and deployed with 
reasonable confidence without testing, and the unfortunate, 
tremendous spread of information that was once classified. As 
Secretary Schlesinger, when he first saw this picture here, 
(pointing to diagram of nuclear weapon) said, ``When I was 
Secretary of Energy, all that was classified.'' That kind of a 
thing cannot help but raise the prospects that nations can, 
indeed, develop nuclear weapons without testing and have some 
reasonable confidence that they will work.
    Senator Cochran. You referred to the charts that we have 
here, and I think I should make a point of including both of 
these charts, copies of them, in our hearing record.
    [The charts referred to follow:]

    [GRAPHIC] [TIFF OMITTED] TH267.056
    
    [GRAPHIC] [TIFF OMITTED] TH267.057
    
    Senator Cochran. Would you explain to us what we should 
understand from the first chart, the nuclear warhead chart?
    Mr. Barker. The figure on the left, provided by the 
Department of Energy, is entitled a ``Notional Nuclear 
Warhead.'' There are several key features identified that are 
intended to focus attention on certain parts of the Stockpile 
Stewardship Program. We have a primary, which contains high 
explosive and fissile materials on the left. We have a thing 
called a radiation channel, which couples a primary to the 
secondary. The secondary is actually the source of most of the 
yield of a nuclear weapon. The thing called a case surrounds 
everything.
    The two little circles that have ``T3'' written in them are 
representative of the tritium bottles. As Dr. Reis said in his 
testimony, tritium is the lifeblood of a nuclear weapon. 
Without tritium, you will not get the primary to provide a 
sensible yield that would allow it to make a secondary work. 
Tritium decays at a rate of about 5\1/2\ percent per year. So 
tritium must continuously be replenished into warheads in order 
to make them work. Tritium production is very, very important.
    High explosives are a good example of one of the organic 
materials that are inside a nuclear weapon. Plutonium, as 
everyone knows, is a radioactive material so that having 
plutonium inside this case is like having an electric light 
bulb on, continuously providing heat which will degrade organic 
materials eventually. One of the jobs of the Stockpile 
Stewardship Program will be, as the need has been from time 
immemorial, to detect changes that will make a weapon no longer 
operational including the degradation of organic materials.
    The secondary is of great interest to Senator Thompson 
because that is the thing that is fabricated in his State, and 
as was mentioned by Secretary Schlesinger and Secretary Reis. 
Currently, our ability to make some of those materials is 
dramatically reduced at Y-12 at this time, so these are all 
challenges.
    Now, the other chart, provided by the Department of Energy, 
probably almost nobody but me can read. Across the top, it has 
the various capabilities associated with the Stockpile 
Stewardship Program: the Accelerated Strategic Computing 
Initiative; the Dual Access Radiographic and Hydrodynamic Test 
Facility at Los Alamos; the Advanced Hydro Facility, which is a 
gleam in our eye as a successor to DARHT so we can get actually 
three-dimensional moving x-ray pictures of an imploding device; 
sub-critical experiments; the National Ignition Facility; 
pulsed power; and LANSCE.
    On the vertical axis are listed the various steps in the 
operation of a nuclear weapon, going all the way from basic 
physics through early implosion all the way down to a secondary 
explosion and weapon effects. The color of the boxes is meant 
to indicate the correlation between those facilities and those 
phenomena. Where there is a colored box, that particular SSP 
facility will give information that is important to 
understanding the particular fundamental phenomena.
    We have ``secondary implosion'' here, the second box from 
the bottom. There are only three boxes colored. One is the 
calculational box under ASCI. One is NIF, which the color is 
darkest because NIF is the most relevant to that phenomena, and 
then pulsed power facilities are also colored. This is a 
Department of Energy-generated chart and designed to help 
people understand how these facilities are different from one 
another and how critical they are to different aspects of the 
operation.
    At the same time, I guess the flip side of that, if I am 
going to emphasize risk, is that it points out the 
vulnerability in our understanding if one of those capabilities 
should not come through on time or perform as expected.
    Senator Cochran. In connection with that, it is my 
understanding that before we are able to achieve success or 
even know if success is possible, significant increases in 
computing resources will have to be developed and will be 
required to enable science-based simulations and model 
development that exceed now our present understanding of aging 
effects, like you talked about in this nuclear warhead model, 
and to anticipate needed replacements of degrading materials 
and components.
    In your view, is the new computational capability that the 
Department of Energy anticipates accomplishing necessary to the 
Stewardship Program? Is it something that this ASCI is likely 
to achieve or certain to achieve? What is your opinion about 
that?
    Mr. Barker. I am with Senator Thompson. Nothing is certain. 
But I think that ASCI is a program that has the greatest 
chances of success because it links the best capabilities this 
country has. It links universities, it links laboratories 
together. But the kind of advances that are required to do the 
three-dimensional calculations that Secretary Schlesinger first 
mentioned and Dr. Reis also talked about, at the level of 
detail to take into account the kind of flaws that can pop up 
in a nuclear weapon is a very daunting task.
    One talks about improvements in capability of computers by 
factors of 100,000, and Dr. Reis said 10,000, based upon 
achievements that have occurred in the last year or so. That is 
a big number and it has three major elements associated with 
it. One is to get machines that go that fast. Two is to be able 
to have those machines deal with the volume of data that is 
associated with the performance of a nuclear explosion. And 
third is the software challenge of making that data 
comprehensible to a human being.
    Those are all huge challenges. I think everyone who is 
involved in it is enthusiastic, from universities to 
laboratories, but I would not be so rash as to guarantee 
success and I do not think the laboratories would guarantee 
success.
    Senator Cochran. But it is a key element in this entire 
program.
    Mr. Barker. Absolutely critical, yes.
    Senator Cochran. There is something the Department of 
Energy has known as the Green Book, I understand. It is a 
document dated February 29, 1996, which suggests that 
significant increases in these computing resources will have to 
be developed in order to determine things like whether 
materials are degrading or components are deteriorating to the 
point where the aging effect on the nuclear weapons would 
exceed what you could tolerate.
    Do computing needs necessary for the Stockpile Stewardship 
Program exceed the current capabilities at the DOE 
laboratories?
    Mr. Barker. That is absolutely true.
    Senator Cochran. There is no question about that. When will 
we know if ASCI, then, will achieve the necessary new 
computational capability?
    Mr. Barker. Well, that is one of the areas where there is a 
time line in existance for increases in capability, and so one 
can, indeed, track in real time whether or not those 
capabilities have been achieved.
    Senator Cochran. What is that time line, do you know?
    Mr. Barker. I believe that curve is in the Green Book, 
Senator.
    Senator Cochran. It is in the Green Book? I see.
    There is another point in all of this, too, it seems, and 
that is that several of the facilities will take some number of 
years, maybe as many as 10 years, to build. Is that correct, 
and if that is correct, can an adequate level of confidence in 
the safety and reliability of the stockpile be maintained in 
the interim?
    Mr. Barker. That schedule is, indeed, correct. In fact, the 
Advanced Hydrodynamic Facility, as far as schedule is 
concerned, is the longest term of the things up there. I guess 
that is a good 10 years out. The National Ignition Facility is, 
I guess, 7 years out before it becomes operational.
    These are all, as I said, significant technical challenges, 
and in the meantime, until they become operational, one will 
have to depend upon earlier SSMP capabilities and the 
experience base of the personnel who have stayed on board. That 
is a very complicated piece of arithmetic, weighing the 
iltimate capabilities of the SSP and the retained experiential 
base of nuclear weapons designers and engineers from the past.
    That is clearly an area of risk, again, one that it is very 
important that the Senate assess in its deliberations. If the 
capability to test existed, I will point out, one has a better 
opportunity of training the new scientists that come on board. 
One has the opportunity to validate SSP capabilities as they 
come on board and so there is a tremendous additional advantage 
to our confidence if we have testing in addition to SSP.
    Senator Cochran. When you were mentioning the National 
Ignition Facility, I think my information is that Department 
officials have said we will not know until at least 2003 if the 
National Ignition Facility will achieve ignition. Is that your 
understanding, too?
    Mr. Barker. Yes. That is correct. Like Senator Thompson 
said, you will not know until you do it. There will be a lot of 
experiments going on before one gets to that point and a lot of 
calculations, but the proof will be in the pudding.
    Senator Cochran. As a practical matter, if we get to that 
point and ignition is not achieved, is that grounds for the 
Department of Energy to suggest to the President that as a 
matter of national security interest, we have to abandon the 
treaty or we have to proceed with a testing program? What will 
happen?
    Mr. Barker. Well, let me see. You mean my honest personal 
answer?
    Senator Cochran. Based on your experience and your----
    Mr. Barker. We are talking about 10 years into the future.
    Senator Cochran. Two-thousand-and-three, so that is 6 
years.
    Mr. Barker. Seven years. Thank you, Senator.
    Senator Cochran. Six years.
    Mr. Barker. There will be experiments other than ignition 
that can be done with that facility that will have some 
utility. I think the issue that bothers me most is the 
validation of the correlation between the data from NIF and 
nuclear tests. By 2003, it will be 11 years since the last 
nuclear weapons test. How will we achieve confidence that what 
we are simulating in a NIF is the same as what we would have 
seen in a nuclear test? If we did have nuclear testing 
available to us, we could design experiments that would allow 
side-by-side comparison and we will not have that if we cannot 
test.
    Senator Cochran. Then back to my question, where the 
Department of Energy suggested to the President that he needs 
to, as a matter of national security interest, proceed to use 
testing to verify safety----
    Mr. Barker. Logic might say yes, Senator, but I cannot 
predict what a Department of Energy will say 7 years from now.
    Senator Cochran. Or what the President would do in response 
to the recommendation or the observation.
    Mr. Barker. Correct. No. Even the langauge of the 
safeguard, which the laboratory directors have cited quite 
frequently. Clearly, it provides them with a significant 
comfort factor in association with feeling comfortable about a 
lack of testing. That language is, I think, ``will consider''. 
It does not say, ``we will test''. It says, ``we will 
consider'', and it requires the joint judgment of the Congress 
and the President and the directors, et cetera. It is a very 
complex process that, again, I would encourage the Senate to 
evaluate whether it believes that that is a process that would 
ever lead to a decision to do a test.
    Senator Cochran. Thank you very much. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Mr. Chairman, you positively responded to my suggestion 
late last week that we invite Bruce Tarter, who is the Director 
of Lawrence Livermore, to testify. Regrettably, the invitation 
which you authorized did not get to him until after he had left 
on Friday, so he did not even know about it until this morning, 
when it was too late to come. He did submit some testimony 
which he prepared today, and which I would like to submit for 
the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tartar appears in the Appendix on 
page 71.
---------------------------------------------------------------------------
    Senator Cochran. Without objection, it will be made a part 
of the record.
    Senator Levin. Also, I would ask that the record be kept 
open so that we could ask Dr. Tarter or other witnesses 
questions.\2\
---------------------------------------------------------------------------
    \2\ Questions and responses from Mr. Reis, Mr. Barker, Dr. Tarter, 
and Mr. Hecker appear in the Appendix on pages 69, 70, 71, and 72 
respectively.
---------------------------------------------------------------------------
    Senator Cochran. I think that is an excellent idea. It will 
be done.
    Senator Levin. Dr. Barker, first, let me ask you a question 
about a review document that you participated in back in, I 
believe, August 1997. This, I gather, was a review which was 
made by some persons who were previously involved in the 
nuclear weapons programs, it looks like about 8 or 10 people, 
is that correct?
    Mr. Barker. Yes.
    Senator Levin. This was supposed to be a review of DOD's 
requirements for DOE's defense programs in 2010, and I notice 
that the requirement to test is not one of the requirements 
that that group identified, is that correct, or were you just 
taking the DOD requirements and deciding how to comply with 
them? In other words, were you folks suggesting what was 
necessary or were you given the fact that there would be no 
testing?
    Mr. Barker. We were asked by Assistant Secretary Reis to, 
using our understanding of defense requirements, formulate a 
defense requirement for the DOE to meet its requirements under 
a comprehensive test ban.
    Senator Levin. In other words, you were not given the 
option of recommending that there be testing?
    Mr. Barker. Correct. You will find in here that we thought 
it was very important to be ready to do a test if one were 
necessary, but one of the ground rules was the assumption that 
there would not be routine testing.
    Senator Levin. I understand. And that was a ground rule. 
You accept it as a ground rule, even though you do not agree 
with it?
    Mr. Barker. Yes.
    Senator Levin. Now, do you advocate immediately resuming 
regular nuclear tests?
    Mr. Barker. I think that would be the most reliable thing 
for the stockpile, Senator, yes.
    Senator Levin. So you recommend that we repeal that bill, 
the Exon-Mitchell-Hatfield bill and resume testing immediately?
    Mr. Barker. I believe that this country should be in a 
position to do a test as promptly as it determines one is 
necessary. The elimination of that legislation, I do not call 
for it by name in my statement but I do ask the Senate to 
consider eliminating such limitations so that a President, any 
President, could conduct a test as promptly as possible with as 
little hullabaloo as possible if he discovers a major stockpile 
problem.
    Senator Levin. Well, that is a little different from my 
question, though, because my question was whether or not you 
recommend that we immediately resume regular nuclear weapons 
testing, because we used to do that? We used to take one----
    Mr. Barker. You and I, we were both in the business at the 
time, yes.
    Senator Levin. It used to be done regularly. You, in your 
testimony, said that--was it one a year or whatever the number 
was, or one from----
    Mr. Barker. One stockpile confidence test?
    Senator Levin. Yes. Do you recommend that we resume those 
confidence tests?
    Mr. Barker. I think we would have higher confidence if we 
had them.
    Senator Levin. That is not really the question, because I 
do not think anybody necessarily disagrees with you. The 
question is whether we have adequate level of confidence 
without them, and that is where it seems to me the testimony 
is, that the folks who are supervising the stockpile and have 
the stewardship responsibility over the stockpile say that we 
have a very high level of confidence and we are satisfied that 
the stockpile is safe and reliable. We get that certificate. We 
just got another one.
    My question to you is, do you recommend that we resume the 
confidence testing, and your answer is that it would give us a 
higher level of confidence, but I do not think that is the 
issue.
    Mr. Barker. I will say, yes, I would recommend the 
resumption of those tests.
    Senator Levin. OK.
    Mr. Barker. I do not expect it to happen, but I would 
recommend it.
    Senator Levin. No, I understand that. But nonetheless, you 
do recommend, then, the repeal of that law and that we resume 
regular confidence testing?
    Mr. Barker. I would wholeheartedly support what President 
Bush asked of the Congress in January 1993. I think that would 
allow testing for safety, reliability reasons, allow us to 
improve safety.
    Senator Levin. Now, that was 2 years before the Stewardship 
Program was put together, is that not correct, that 1993 
statement of President Bush?
    Mr. Barker. Yes. We are running into a nomenclature 
problem. If you look at Sig Hecker's letter to Senator Kyl, he 
points out that the day that legislation was signed, he 
returned to Los Alamos and said the Los Alamos designers and 
engineers had to begin immediately to think of a program that 
would substitute for testing. So the three nuclear weapons 
laboratories began in October 1992 to think about how could 
they possibly do their job of continuing to certify the 
reliability and safety of the stockpile without testing. It was 
not until the President made his statement that he would not 
use the 15 tests available to him under Exon-Hatfield-Mitchell 
that the Department of Energy, I think, began to work with the 
laboratories to put together a serious program.
    So dating it back to 1994, which I guess is what you just 
did, is probably the era of a collective, coordinated effort, 
but the concept of stockpile stewardship was something that 
came up immediately, as soon as testing was ended.
    Senator Levin. But the actual program was not put together 
until a couple of years later.
    Mr. Barker. Correct.
    Senator Levin. And then the Commander of the Strategic 
Command at one point said he was not satisfied, is that not 
correct, but later on said that, in fact, he was satisfied that 
the Stewardship Program would give a high level of confidence 
in the reliability and safety of the stockpile? Is he not 
signed off on this program now, whereas he did not a couple of 
years before?
    Mr. Barker. Let me see. I probably cannot authoritatively 
answer that question.
    Senator Levin. But things have changed. There is now, is 
there not, a Stewardship Program which is in place, and now 
people can judge that program----
    Mr. Barker. Exactly.
    Senator Levin [continuing]. Including the Commander of 
Strategic Command, and that was not in place when President 
Bush wrote those words, is that correct?
    Mr. Barker. Correct.
    Senator Levin. So now there is an assessment that needs to 
be made of a specific Stewardship Program that has a $4 
billion-plus budget which had no budget or almost no budget at 
that time, is that correct?
    Mr. Barker. The Senate should make that assessment, I 
agree.
    Senator Levin. All right. Now, I think you indicated that 
the 15 tests that were allowed under the Mitchell amendment 
have not been used, is that correct?
    Mr. Barker. Correct.
    Senator Levin. The Navy indicated, for instance, when given 
an opportunity to get a safety improvement inside an SLBM 
warhead, that they declined to even get that safety improvement 
because they were confident of the safety of the existing 
warhead, is that correct?
    Mr. Barker. I would refer you to President Bush's 
transmittal that I provided to you a moment ago, because what 
it says is that a decision was made that under those 
circumstances, a crash program to develop a safer warhead would 
be unwise. But President Bush goes on to say, better would be a 
continuing testing program that would allow a backup warhead to 
be made that would have all those safety features so that when 
it came time to retire the existing one, one would have the 
best of all safety features in a submarine-based system.
    Senator Levin. But the Navy was given an opportunity to 
conduct a test, is that not correct, and declined that 
opportunity, or is that not accurate?
    Mr. Barker. That is a level of detail that I cannot 
address--I had left the government in May 1992 and so I guess 
what we are talking about is something that occurred subsequent 
to that.
    Senator Levin. I think we will ask the Navy for the record, 
then, whether or not they were, in fact, pursuant to the 
Mitchell amendment, given an opportunity to conduct a test and 
declined to do so, and if so, why, if we could ask that 
question, perhaps, of the Navy, Mr. Chairman.
    Senator Cochran. What do you want to do, write a letter?
    Senator Levin. Yes. Could we ask the Navy whether or not 
they had the----
    Mr. Barker. Senator Levin, you have raised a very important 
issue, and that is who is it who should decide what constitutes 
adequate safety in the nuclear weapons stockpile. Do you want 
the Navy and the Air Force to independently decide what is safe 
enough for them? Do you want the Secretary of Defense to do 
that? Do you want the President of the United States to do 
that? Does the Senate of the United States want to vote on what 
constitutes adequate safety of nuclear weapons that, after all, 
are stored in the United States of America?
    Senator Levin. Is there anybody that does not participate 
in the annual certification that you think should?
    Mr. Barker. That should? I think there is quite a spectrum 
of people involved in that process.
    Senator Levin. No. My question is, we get an annual 
certification relative to safety and reliability. I take it you 
do not disagree with that recent certification, or do you?
    Mr. Barker. Yes.
    Senator Levin. Do you disagree with the recent 
certification of safety and reliability of our stockpile?
    Mr. Barker. Since I was not part of that process, Senator, 
I am not in a position to answer that question.
    Senator Levin. OK.
    Mr. Barker. My suggestion is that the Senate of the United 
States wants to make itself aware of all of the factors that 
led to those conclusions. I have not seen the package that was 
sent to the Congress earlier this year, I guess, in conjunction 
with the first certification process. The second certification 
process has not yet reached the Congress, it is my 
understanding, and I guess it was Assistant Secretary Reis who 
described it. You and he had a dialogue about what that process 
was, which very accurately described it.
    There are very, very detailed meetings, very detailed 
discussions. It would be a mistake to characterize the process 
as saying that there are no concerns developed during it and 
then a subjective judgment is made that things are OK. My 
question is, is that process being run the way it should? Does 
the Senate of the United States want a bigger voice in 
understanding what constitutes acceptable risk?
    Senator Levin. My question of you is, is there anybody who 
is not involved in that process of annual certification that, 
in your judgment, should be in terms of position or title?
    Mr. Barker. No. My view is that there are enough people 
involved in that process. There are many experts who are not 
involved in the process, but any more to the current process 
would just complicate things beyond belief.
    Senator Levin. All right. Do you agree generally with the 
goals of the Nonproliferation Treaty?
    Mr. Barker. Absolutely.
    Senator Levin. Do you believe that an indefinite extension 
of that treaty would have been possible without the Test Ban 
Treaty?
    Mr. Barker. Yes.
    Senator Levin. I disagree with you on that as a matter of 
history, but that is OK. That is a direct answer and I welcome 
it.
    What do you think the world's response would be if we 
decided to resume testing, as you recommend? Do you think it 
would have any effect on other participation in the Test Ban 
Treaty?
    Mr. Barker. My background, as you know, is in physics, so I 
am probably not really very qualified to answer that question. 
But again, I invite the Senate to explore that in its 
consideration of the advice and consent to the Comprehensive 
Test Ban Treaty. I have a great deal of difficulty identifying 
which nation it is that will proliferate if we do not ratify 
the CTBT. I also have difficulty identifying what nation will 
give up its nuclear weapons if we do ratify the CTBT.
    Senator Levin. I wonder if we could ask Vic Reis about the 
sign-off of CINCSTRAT on the Stewardship Program and on the 
CTBT while he is available. Could we do that?
    Senator Cochran. You mean call him back to the witness 
stand?
    Senator Levin. If he is familiar with it. He is sitting 
here.
    Senator Cochran. If you do not mind, Mr. Secretary, could 
you come back and respond to this question from Senator Levin?
    Senator Levin. I wonder if you could tell us whether or not 
the CINC of the Strategic Command has signed off on our 
Stewardship Program.
    Mr. Reis. Senator, perhaps I could back up just a bit and 
answer some of the questions you asked Dr. Barker, because I 
can help you a little bit on that because I do remember the 
history.
    One, we have had a change in Commander in Chiefs of the 
Strategic Command. When we first began to put together the 
Stockpile Stewardship Program, Admiral Chiles, who was then 
CINCSTRAT, was asked by, I suspect it was your Committee or the 
Senate Armed Services Committee asked him what he thought of 
it. He said, ``I do not know. I have not seen it yet. We just 
do not have a plan.'' I know who my customer is, and so we 
immediately started putting together a plan and worked not just 
with the Department of Energy but with the Defense Department, 
with Strategic Command directly, with also other parts of the 
government, as well, OMB, and put together first one document 
and then we just completed a second, a detailed plan.
    As part of that, and working with the Commander in Chief of 
the Strategic Command, we have worked together very closely 
over the past 2 years to put this down. The Commander in Chief, 
General Habiger, first Admiral Chiles, now General Habiger 
participates, I would say, with extreme vigor in the annual 
certification process. As part of development of the Safeguard 
F, he is named specifically. He would have already advised the 
Nuclear Weapons Council, but the Chiefs, the Chairman felt it 
was important to get his voice in very, very specifically and 
that he would write his own letter to the Secretary of Defense 
as part of this process.
    As part of that, General Habiger started a blue ribbon 
panel as part of his strategic advisory group. In fact, he has 
a weapons group that does that and added people. These were 
former weapons designers, former members of the military, 
really some of the genuinely best people in the world who then 
go through this with an extremely detailed, independently of 
what the laboratories are doing, just go through weapon by 
weapon, part by part, and, of course, they are the old, if you 
will pardon the expression, the old bulls who, if anything, 
tend to be more conservative. Those are the weapons that they, 
in some respects, they designed, so they are pushing it very 
hard.
    They have now done this twice. Their report is available. 
When it comes, it will also be available for Congress to--when 
we send it up, that is available for Congress to look at.
    Senator Levin. Does that mean that they join in the 
certification that----
    Mr. Reis. Absolutely. They are part of that certification 
process and we do everything we can to ensure they get all the 
information. He produces that report, however, independently. 
He sends that report to the--in fact, he gives it first to Dr. 
Smith. He gives it first to the Chiefs. Then he will, as a 
matter of courtesy--obviously, it basically comes together when 
he writes it.
    But I think you will find General Habiger has visited every 
single one of our laboratories on several occasions. He has 
visited every one of the plants and so he has done a more than 
yeoman job, I think, in ensuring himself that he fulfills his 
responsibility. So when he signs off, as he has in the past 2 
years, it is not done lightly. They press us very hard on a lot 
of things and, of course, we welcome that. That is really your 
sort of independent--you remember, this is, in a sense, like 
going to a doctor and that is sort of like going up to the Mayo 
Clinic. I mean, they really bring in the best of the people to 
look at this.
    Senator Levin. Thank you. Thank you so much. Thank you, Dr. 
Barker, as well.
    Mr. Barker. I want to support everything that Dick just 
said, Senator. I misunderstood your question. I thought you had 
asked whether the CINCSTRAT bought into the SSP program and 
that was where I was not clear.
    Senator Levin. Thank you.
    Senator Cochran. Thank you.
    Dr. Barker, let me ask you a couple of other questions. We 
have used up about all of the time that we have available to 
us. We have a vote coming up here at 5 o'clock, I think, and 
other obligations.
    The aging process for plutonium is something that is not 
very well known in that it has been in existence for just over 
50 years. Do the labs, in your view, have a good understanding 
of how the aging process affects plutonium, and is there an 
understanding of how aging would affect our nuclear weapons in 
general?
    Mr. Barker. The answer to that question, Senator, is no, 
and that is one of the major reasons for some of those 
activities that are detailed on the chart up there, the 
components of the Stockpile Stewardship Program. It is one more 
reason why it is very important that this program be 
successful, because we do need to understand the performance of 
plutonium in the long term in our weapons. As Secretary 
Schlesinger said, at the moment, we have no ability whatsoever 
to produce plutonium components in quantity.
    Senator Cochran. My other question had to do with safety 
features and modernizing safety features. Is it possible 
without a testing regime to modernize safety features? I mean, 
if you come up with some new technology that you think would 
improve the safety of nuclear weapons, how can you introduce 
that in the system without testing?
    Mr. Barker. I think in the course of the hearing this 
afternoon, there has been a little bit of confusion regarding 
safety. There are two kinds of safety enhancements that we can 
add. Some have to do with the electrical safety, to make sure 
that the currents that would fire a weapon do not get to the 
detonators at the wrong time. Those kinds of features can be 
tested in the laboratory. There are other features that are 
designed to make sure that unauthorized persons cannot make a 
weapon work. Those kinds of things can, by and large, be tested 
in the laboratory.
    There are also things called inherent safety features. What 
I was making reference to in my statement is the fact that we 
have developed an insensitive high explosive that the most 
violent of impacts, the biggest jolts of energy will not 
detonate. That is not in every weapon in the inventory. We have 
developed a feature that allows us to protect plutonium in a 
fire, such that if a weapon were to burn, the plutonium will 
not melt, get vaporized and go into the atmosphere. That 
feature is not in every weapon in the inventory.
    If we had continued to modernize the stockpile, those kinds 
of features would have been included as the replacements for 
today's inventory came in. If these weapons are going to last 
forever, a very serious question to ask is whether we should 
not have included all those safety features before we stopped 
testing forever, and that is one of the issues that was raised 
in the report that President Bush sent to the Congress in 
January 1993.
    Senator Cochran. Or the Senate, as one other option, could 
insist that as a condition to this ratification process, that 
we be permitted to improve the safety features, introducing 
modern technology and testing for that purpose only.
    Mr. Barker. Correct, and that would probably take several 
years of nuclear tests to do that, Senator.
    Senator Cochran. Could we do that with relatively low-yield 
testing of the kind that was described by Secretary 
Schlesinger?
    Mr. Barker. I think you would find the laboratories would 
agree it could be done at acceptable risk at those kinds of 
yields. Obviously, much higher confidence would be achieved if 
one could test at yields closer to 10 kilotons.
    Senator Cochran. My final question has to do with the 
proliferation issue. Our Subcommittee has responsibilities for 
monitoring compliance with the NPT, and from time to time, this 
Subcommittee has undertaken to have hearings on that subject 
and get briefings from administration officials on that issue 
and work closely with the International Atomic Energy Agency in 
helping to ensure that safeguards are maintained at nuclear 
plants and the like.
    What is the effect of our failure to ratify the CTBT, the 
Comprehensive Test Ban Treaty, on proliferation? You had a 
question similar to that from Senator Levin and it struck me 
that there would be no negative consequences in terms of 
proliferation. Is that your testimony?
    Mr. Barker. That is my conclusion, Senator. I am sure you 
will find people who will disagree with that, but it certainly 
is my conclusion.
    Senator Cochran. I appreciate very much your taking time to 
be with us today and the work you have done to prepare for the 
hearing. All of the witnesses, I think, have added to our 
understanding of the issues involved in the Comprehensive Test 
Ban Treaty and the proliferation issues that are involved, as 
well.
    That concludes the hearing. I am going to be sure that we 
include the documents that were referred to both by you, Dr. 
Barker, and other witnesses in our hearing record so that we 
have a complete picture of what was said today.
    With that, our hearing is adjourned.
    [Whereupon, at 5 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

     QUESTIONS AND RESPONSES FROM MR. REIS SUBMITTED FOR THE RECORD
    Question 1: During the hearing you were asked if confidence in the 
stockpile had declined since the cessation of testing in 1992. A 
reading of your response in the record would indicate you only 
addressed your confidence in being able to deal with future problems. 
Has confidence in the stockpile declined since 1992?
    Answer: At the hearing, I stated that ``I frankly have as much or 
perhaps even more confidence in the weapons now than I would [have had] 
in 1993.'' My confidence in the stockpile is based on DOE's Quality 
Assurance and Reliability Testing program which monitors both nuclear 
and nonnuclear test data and the reliability history of all stockpiled 
nuclear weapons. My confidence is further reinforced by my knowledge of 
the thoroughness and intensity demonstrated by the people at the DOE 
weapons labs during the resolution of stockpile issues that have arisen 
since the cessation of testing in 1992. I would also note that the 
nuclear weapon laboratory directors and the Commander-in-Chief United 
States Strategic Command have completed the second annual certification 
which reaffirms their confidence in the safety and reliability of the 
nuclear stockpile without the need for nuclear testing.
    Question 2: Dr. Hecker, in a letter to Senator John Kyl, dated 
September 24, 1997 states the nuclear weapons laboratories ``. . . 
could not guarantee the safety and reliability indefinitely of the 
nuclear stockpile without testing.'' To your knowledge have the 
laboratory directors ever ``assured'' the President that our nuclear 
deterrent under a CTBT can be maintained through a Science Based 
Stockpile Stewardship program without nuclear testing? Was the 
President provided with any caveats if such assurance were given?
    Answer: The weapons laboratory directors or their representatives 
met with the President's National Security Council (NSC) staff prior to 
the President announcing his decision to proceed with a zero-yield CTBT 
in August 1995. The laboratory directors, through the NSC staffs, 
assured the President that the Stockpile Stewardship Program offered 
the best chance to maintain the nuclear stockpile under a CTBT assuming 
sustained support from both the Congress and the Administration. The 
President further emphasized the need for this sustained support in his 
1993 CTBT announcement.
    Question 3. During the hearing Senator Levin asked whether the 
Commander of the Strategic Command ``. . . was satisfied that the 
Stewardship program would give a high-level of confidence in the 
reliability and safety.'' You joined Dr. Barker in responding to the 
question but described the history of the certification process and 
General Habiger's participation in it. Are you aware of General Habiger 
saying that he is satisfied that the stockpile stewardship Program will 
provide a high level of confidence in the reliability and safety of the 
stockpile for the foreseeable future without nuclear testing? Has he 
endorsed full funding of SSP at the $4.5 billion level for the next 
decade?
    Answer: On an annual basis, General Habiger provides an independent 
certification input to the Secretary of Defense on his confidence in 
the stockpile without the need for nuclear testing. A part of the 
certification process is to note potential issues with individual 
warheads that may require corrective actions in the foreseeable future. 
Because General Habiger's input to the certification report addresses 
emerging and potential issues, he is stating his confidence in the 
stockpile, not only for the reporting year, but also for the 
foreseeable future.
    With regard to the question of the $4.5B budget, General Habiger 
gave testimony to Senator Robert Smith's Strategic Forces Subcommittee 
(March 1997) which clearly indicates support for a budget level that is 
required to do the job to maintain the nuclear deterrent under a CTBT. 
General Habiger stated that STRATCOM's confidence in the success of the 
stockpile stewardship program will depend, among other factors, on how 
well the program is funded. No specific dollar amount was mentioned at 
the March 1997 hearing and I am not aware of other comments by General 
Habiger relative to a $4.5 billion budget for the next decade.
                               __________

     QUESTIONS AND RESPONSES OF MR. BARKER SUBMITTED FOR THE RECORD

    Question: Dr. Barker, in your discussion of the Report sent to the 
Congress by President Bush in January of 1993, you have made no mention 
of the President's concerns about the impact of the Hatfield, Exon, 
Mitchell provisions (Section 507, of Public Law 102-377) on the effort 
to develop predictive capability. Is this still an important issue?
    Response: My failure to address President Bush's concerns in the 
area of the development of predictive capability was a significant 
oversight on my part. There is a tremendous irony in the Hatfield, 
Exon, Mitchell amendment's elimination of testing in support of the 
development of predictive capability. President Bush stated that the 
limited number of tests permitted by Section 507 ``. . . would 
certainly not bring it (our predictive capability) to a point that we 
could maintain the safety and reliability of the U.S. nuclear deterrent 
without underground nuclear tests.'' President Clinton chose to not 
perform even the few tests Section 507 allowed.
    The FY 88 Defense Authorization Bill required the Department of 
Energy to develop a program that would reduce the dependence of 
stockpile safety and reliability on nuclear testing. The program that 
was developed by DOE and the laboratories, sometimes known as the Test 
Ban Readiness Program, called for the development of increased 
predictive capability, both computational and experimental 
capabilities, whose validity would be established by direct comparison 
with the results of an ongoing nuclear test program. In other words, 
this program's objective was to scientifically verify the credibility 
of predictive capabilities before any decision to stop nuclear testing. 
The nuclear testing moratorium initiated by Section 507 and perpetuated 
by President Clinton, if codified by ratification of the CTBT will 
prevent ever knowing if the predictive capabilities, now known as SSP 
capabilities, will provide the same answers as would a nuclear test. If 
the CTBT is not ratified, we will retain the ability of some future 
President to conduct nuclear tests for the purpose of determining if 
SSP is giving the right answers.
    Question 2: Senator Levin asked Dr. Reis, ``Are we in a better 
position than other nations to maintain the reliability of our 
inventory based on this stewardship program?'' Do you see SSP as a 
superior, higher confidence method of preserving confidence in aging 
nuclear weapons than the continuous rebuilding process that is 
attributed to the Russians?
    Response: It is not at all clear that U.S. dependence on SSP, 
without nuclear testing, will give rise to higher confidence in 
stockpile safety and reliability than the Russians would achieve by 
periodic remanufacture of their weapons. The Russians may be better 
off.
    If our understanding is correct, the Russians produced their 
weapons with a limited time warrantee. Therefore they knew that they 
would need to periodically remanufacture their weapons, when the 
warrantee ran out, and could have, should have, put in place procedures 
that would assure that the remanufactured weapons were identical to the 
initial production. They would have had to preserve initial production 
machinery, and to have specified materials and manufacturing processes 
in sufficient detail to guarantee that remanufactured weapons would 
perform identically to weapons from the original production run. Over 
the last 40 years they have had the opportunity, through nuclear 
testing, to establish that their remanufactured weapons do replicate 
the performance of earlier production runs. Thus they have had the 
opportunity to validate the credibility of their process.
    In contrast, the United States, if nuclear testing does not resume, 
will be hard pressed to validate SSP. And SSP will be what the U.S. 
will have to depend upon for confidence that its remanufactured weapons 
will perform in the same way as did the initial weapons produced. The 
U.S. has not anticipated that it would rebuild weapons in production 
quantities after initial weapon production. The pace of weapon system 
modernization was such that we, in general, retired weapons well before 
their projected end-of-life and new weapon systems demanded optimized 
new nuclear weapons. Because we did not anticipate remanufacture in 
quantity, there are real concerns among the experts that our ``specs'' 
for the weapons in the stockpile may not accurately specify all the 
parameters that must be controlled to replicate the performance of the 
original weapon. In the 1987 Report to Congress on Stockpile 
Reliability, Weapon Remanufacture, and the Role of Nuclear Testing, 
that I referenced in my testimony, the authors state, ``Even an 
`identical' rebuild should be checked in a nuclear test if we are to 
have confidence that all the inevitable, small and subtle differences 
from one production run to she other have not affected the nuclear 
performance.''
                               __________

                 PREPARED STATEMENT OF MR. BRUCE TARTER

    Mr. Chairman, Senator Levin, and Members of the Committee, I am the 
Director of Lawrence Livermore National Laboratory (LLNL), one of the 
three Department of Energy (DOE) laboratories responsible for the 
safety and reliability of the nuclear weapons that comprise our 
deterrent forces. We are an integral part of efforts being implemented 
by DOE Defense Programs to maintain confidence in the safety and 
reliability of the U.S. nuclear weapons stockpile without nuclear 
testing or new weapon development.
    Livermore's commitment to maintaining a safe and reliable nuclear 
weapons stockpile is an enormous responsibility--an undertaking 
described by President Clinton as being ``a supreme national interest 
of the United States.'' As steps are taken to reduce global nuclear 
arsenals and prevent proliferation, the nation must retain sufficient 
nuclear forces to deter any adversary. My responsibility is to assure 
the President that nuclear weapons in the enduring U.S. arsenal remain 
safe and reliable. To date I have been able to provide such assurances 
with confidence even though we last conducted a nuclear test in 1992. 
The challenge will become greater as the weapons continue to age beyond 
their designed lifetimes and as experienced nuclear weapons designers 
retire.
    Our Laboratory is strongly committed to making the Department of 
Energy's Stockpile Stewardship and Management Program (SSMP) work. This 
program is designed to maintain the safety and reliability of the U.S. 
nuclear weapons arsenal that underpins national security within the 
constraints of a CTBT. I enthusiastically support the SSMP and am quite 
optimistic that we will achieve the very challenging program goal of 
preserving confidence in the stockpile.
Changing National Needs and Technical Programs
    The SSMP builds on the fact that mission of the nuclear weapons 
programs at Livermore has changed in a fundamental way. We have moved 
from the weapon development paradigm of the Cold War (design, test and 
build) to a weapon-assurance paradigm (stockpile surveillance, 
assessment, and refurbishment). Now there are no requirements for new 
nuclear weapon designs and our responsibility is maintenance of the 
reliability and safety of a stockpile consisting of nuclear weapons 
that are well-tested--they have a good pedigree. However, the weapons 
are aging beyond their intended lifetimes and there will inevitably be 
changes in the weapons, some of which will require a ``fix'' that in 
the past would have been validated by a nuclear test.
    To meet the challenge, we are able to build on the substantial 
increase in our understanding of the fundamentals of weapon science 
that we achieved in the decade leading up to the cessation of nuclear 
testing in 1992. In addition, we expect that we can continue to 
increase our knowledge base of nuclear weapons physics through 
nonnuclear testing and advanced computer simulations, which will 
significantly compensate for the cessation in testing. The SSMP is 
making use of--and in some cases driving--tremendous advances in 
technology. The SSMP will implement advanced surveillance technologies 
to anticipate the detailed effects of aging together with advanced, 
flexible manufacturing technologies to greatly reduce the cost of 
required refurbishment without introducing new defects. We are rapidly 
advancing the state of the art in supercomputing and we are pursuing 
the design and construction of major experimental facilities that will 
enable weapon scientists and engineers to resolve important stockpile 
issues and validate their physics simulation models. These new 
capabilities will be developed and tested by experienced weapons 
scientists and engineers, who will then train the next generation of 
stockpile stewards to use the new tools correctly.
    The ultimate measure of SSMP success will be our continuing ability 
to assure the President on a yearly basis the safety and reliability of 
the stockpile without nuclear testing. The program includes formal 
processes, conducted with the Department of Defense (DOD), for 
validating assessments of stockpile performance and modification 
actions. The processes, which we will seek to improve as we gain 
experience in them, fundamentally depend on the use of expertise and 
capabilities at each of the laboratories and independent evaluations--
widely referred to as ``peer review.''
    Should the SSMP fail to achieve its objectives, vitally important 
safeguards specified by the President on August 11, 1995, allow the 
U.S. to resume nuclear testing if the deterrent is judged to be at 
risk.
A Highly Qualified and Experienced Technical Staff
    Confidence in the stockpile since the beginning of the nuclear age 
has relied on much more than the limited number of development and 
stockpile confidence tests we conducted at the nation's nuclear test 
sites. During weapon development we did not test designs at all 
extremes of conditions anticipated during stockpile lifetime and 
potential use. Nevertheless, national leadership has had full 
confidence in the system that maintains U.S. nuclear weapons and in the 
judgments of the technical staff. In the future, the nation will be 
even more reliant on the these judgments, their supporting scientific 
capabilities and tools, and the peer review processes established to 
ensure rigorous critique of the work performed. Accordingly, the SSMP 
will develop the skills and capabilities of the next generation of 
stockpile stewards. This requires moving ahead with the SSMP as rapidly 
and completely as possible so that our current cadre of experienced 
scientists will be available to both train and evaluate the skills of 
their successors. They will provide an extremely important assessment 
of both the people and their capabilities in implementing the SSMP, and 
thereby will contribute in a major way to a determination that the SSMP 
is indeed successful.
Sustained Program Support
    My greatest concern regarding the success of the SSMP is the 
possibility of a lack of timely and sustained support. Maintenance of 
the safety and reliability of the nation's nuclear weapons stockpile is 
an extremely important matter and difficult challenge. Program support 
must be timely because we must get on with the task before existing 
experienced people retire or leave to pursue other endeavors. In 
addition, the support must be sustained at an adequately funded level 
because every element of the SSMP is needed for the success of the 
program as a whole. The technical risks in SSMP will be significantly 
greater if we are forced to stretch out activities in time or reduce 
the scope of planned research activities to meet more constrained 
budgets.
Summary Remarks
    The DOE's Stockpile Stewardship and Management program has been 
formulated and is being pursued to assure the safety and reliability of 
the U.S. nuclear weapons stockpile in the absence of nuclear testing. 
We must retain confidence in the nuclear weapons themselves, in the 
system that maintains them, and in the judgments of the technical 
staff, who will rely on experimental and computation tools to obtain 
needed data. So far, the quality of the stockpile and the 
implementation of the SSMP have enabled me to certify to the President 
the safety and reliability of our weapons without the need for a 
nuclear test.
    Livermore is strongly committed to making SSMP work. Provided that 
the SSMP continues to receive strong bipartisan support and we proceed 
expeditiously, I am quite optimistic that the program will enable us 
for the foreseeable future to maintain confidence in the stockpile.

                               __________

   LETTER TO SENATOR KYL WITH QUESTIONS AND RESPONSES FROM MR. TARTER
             Lawrence Livermore National Laboratory

                                                 September 29, 1997
The Honorable Jon Kyl
United States Senate
702 Senate Hart Building
Washington, DC 20510

    Dear Senator Kyl: Thank you for the request for technical input 
regarding the Comprehensive Test Ban Treaty. I hope the information 
provided in my attached answers to your 21 questions is responsive to 
your needs.
    In addition I want to express how strongly both my Laboratory and I 
are committed to assuring the safety and reliability of the nation's 
nuclear weapons. We have had this responsibility for over 45 years, and 
believe our ability to do the job has strongly depended on bipartisan 
support. Whatever course the debate in the Senate on the CTBT takes, I 
hope this common commitment can be preserved in those deliberations.
    I would be pleased to provide you with any additional information. 
I appreciate the opportunity to respond to your questions, and thanks 
for your continued support.
            Sincerely,
                                            C. Bruce Tarter
                                                   Director

 RESPONSE TO QUESTIONS REGARDING COMPREHENSIVE TEST BAN TREATY (CTBT) 
   FOR SENATOR JON KYL FROM C. BRUCE TARTER, DIRECTOR, UNIVERSITY OF 
           CALIFORNIA, LAWRENCE LIVERMORE NATIONAL LABORATORY

    Question 1. Will confidence in the safety and reliability of U.S. 
nuclear weapons decline without nuclear testing?
    Although we have not tested since 1992, I continue to have 
confidence in the safety and reliability of the nuclear weapons in the 
stockpile. Specifically, I have so stated for the past two years 
through the Annual Certification Process established by the President.
    My ability to provide that certification has resulted from several 
factors: (1) The weapons in the stockpile are well-tested--they have a 
good pedigree; (2) we have a cadre of experienced personnel who can 
evaluate stockpile issues and recommend responsive actions needed to 
retain that confidence; and (3) we have developed and are pursuing the 
Stockpile Stewardship and Management Program (SSMP), which puts in 
place capabilities and methodologies to identify, assess, and respond 
to problems that occur in the stockpile. This program relies heavily on 
the independent judgments and unique capabilities of DOE's two nuclear 
weapon design laboratories to provide peer review of one another.
    However, as the stockpile ages there will inevitably be changes in 
the weapons, some of which will require a ``fix'' that in the past 
would have been validated by a nuclear test. I believe the SSMP, if 
carried out in accord with current plans, will provide me with the 
confidence necessary to certify the safety and reliability of weapons 
with those changes. Specifically, the computer simulation, experimental 
capabilities, and expert judgment resulting from the SSMP will allow me 
to provide the formal statement of stockpile confidence made through 
the Annual Certification Process.
    Without a successful SSMP or extensive nuclear testing, however, I 
believe the confidence in the nuclear stockpile would decline to an 
unacceptable level. Because it is unlikely that we will ever return to 
the high levels of nuclear testing of the past, it is absolutely 
essential that we move forward expeditiously with the SSMP.
    Should I conclude at any time in the future that I can not certify 
the safety and reliability of a weapon type, I will make this clear in 
accordance with the President's Safeguard F.\1\ Should I believe that a 
nuclear test is needed to resolve the uncertainty, I would so state.
---------------------------------------------------------------------------
    \1\ Safeguard F, set forth by the President on 11 August 1995 as a 
condition for his acceptance of the CTBT, states: ``. . . if the 
President of the United States is informed by the Secretary of Defense 
and the Secretary of Energy--advised by the Nuclear Weapons Council, 
the Directors of DOE's nuclear weapons laboratories and the Commander 
of the U.S. Strategic Command--that a high level of confidence in the 
safety or reliability of a nuclear weapon type which the Secretaries 
consider to be critical to our nuclear deterrent could no longer be 
certified, the President, in consultation with Congress, would be 
prepared to withdraw from the CTBT under the standard `supreme national 
interest clause' in order to conduct whatever testing might be 
required.''
---------------------------------------------------------------------------
    Question 2. Do you expect the Stockpile Stewardship and Management 
Program (SSMP) to give you the same confidence in the stockpile as was 
achieved by nuclear testing? If not, by how much will confidence be 
reduced, assuming the SSMP is successful?
    As discussed in Question #1 above, the measure of confidence is the 
ability to provide the annual certification statement to the President. 
Testing would make that an easier task, but I believe the SSMP can do 
the job.
    Although the SSMP has already provided capabilities I needed to 
provide assurances to the President that the stockpile continues to be 
safe and reliable for the last two years, the major challenge lies 
ahead. More powerful computers, advanced experimental facilities, 
modern manufacturing facilities and enhanced surveillance capabilities 
are required to deal with inevitable aging problems in the stockpile 
and to demonstrate unambiguously our level of expertise to make 
judgments about the stockpile.
    I should also point out that we have been able to retain great 
confidence in high yield weapons in the stockpile even though we could 
not test them above 150Kt since the Threshold Test Ban Treaty (TTBT) in 
1974. Our confidence in those yields is based on our extensive testing 
at high yields prior to the TTBT, a thorough understanding of the 
science of ``high yield,'' and the judgment of experts who designed and 
tested such weapons prior to the TTBT. The SSMP will exploit analogous 
factors to do its job: past test data, experienced personnel, and a 
program of experiments and computation designed to improve the 
scientific understanding so that confidence can be maintained well into 
the future.
    Question 3. What proportion of the research and testing envisioned 
for the first 10 years of operation of the National Ignition Facility 
(NIF) is directly related to nuclear weapons? What proportion is 
indirectly related to nuclear weapons?
    Almost all research to be conducted during the first ten years on 
NIF is either directly or indirectly related to nuclear weapons. A 
preliminary experimental plan for NIF has been developed that describes 
the number and type of experiments that will occur in the first several 
years. Approximately 85% of NIF experiments will be related to weapon 
physics. Half of that 85% will directly address identified weapon 
issues. These experiments will provide data on specific weapon issues 
that will have been identified in the weapon surveillance program or 
they will test weapon physics models contained in new computer codes 
being developed in the Accelerated Strategic Computer Initiative 
(ASCI).
    The other half of the 85% will be experiments directed at achieving 
fusion ignition, both in the direct drive mode and indirect drive mode. 
They will provide an integral test of our weapon scientists' abilities 
to use computer models to predict the detailed outcome of complex 
experiments with physical conditions (i.e., temperatures and densities) 
similar to those in weapons. These technically challenging experiments 
will not only test and validate simulation codes, but they will 
strongly contribute to development of weapon scientists' skills and 
expert judgment. The success of these fusion ignition efforts should 
broadly affect the confidence others place in the capabilities of 
scientists and engineers engaged in SSMP and their technical judgments, 
which form the basis of the Annual Certification Review. Once fusion 
ignition is achieved, experiments with burning capsules will probe some 
of the underlying thermonuclear physics in weapons.
    The remaining 15% of NIF experiments will be devoted to several 
user communities, including nuclear weapon effects testing, basic 
sciences, and fusion energy development, each of which will explore 
physics questions important to weapons science. The exact allocation 
among these users has not yet been determined. The effects experiments 
will, of course, be directly related to nuclear weapons. They will 
examine either nuclear weapon vulnerability issues or the effects of 
nuclear weapon output on other military systems such as detectors and 
electronic systems.
    Question 4. A purpose of SSMP is to maintain a cadre of scientists 
and technicians who will be capable of designing and working on nuclear 
weapons. Will scientists and technicians working on SSMP have weapons 
classification clearances and will they have a clear commitment to 
working on nuclear weapons should the need arise?
    Yes. A central objective of the SSMP is the development and 
maintenance of a cadre of personnel who can effectively utilize the new 
SSMP experimental and modeling capabilities to address warhead issues 
as they arise. Scientists and technicians working on SSMP at my 
Laboratory have the necessary weapon classification clearances, and are 
committed to the nuclear weapons program. The SSMP is the weapons 
program, not separate from the job of keeping the stockpile safe and 
reliable. Since most of these personnel will be continually working on 
weapons topics, we can expect their continued commitment to address 
future issues that might arise.
    Question 5. Much of the capability of SSMP is a decade or more away 
from being fully functional. Furthermore, many of the technologies 
involved are unproven. From a technical standpoint, would it be 
advisable to conduct nuclear tests to calibrate the existing and 
planned technologies? If so, what is the lowest yield at which 
meaningful tests can be conducted? What is the minimum number of tests 
that would be required in the interim before SSMP becomes fully 
functional?
    From a purely technical standpoint, some level of nuclear testing 
would be a useful addition to the SSMP to address the effects of aging-
related changes on weapon safety and reliability and to validate the 
capabilities of the next generation of weapon scientists and their 
experimental and computational facilities, particularly in addressing 
hydrodynamic phenomena related to boosted primaries. However, 
occasional nuclear tests can not supplant the need for a comprehensive 
SSMP.
    Today, we are depending heavily on the experience base of veteran 
nuclear weapon designers and their familiarity with a wealth of past 
nuclear test data. These designers are working with--and, in the 
process, training--their younger colleagues to develop and validate the 
much more sophisticated tools that will be needed for stewardship in 
the longer run. The most important issue is to make the transition from 
reliance on the nuclear test experience to validated experimental and 
computational tools in a carefully thought-out manner, as quickly and 
reasonably as possible. That goal is built into the design of the SSMP.
    If additional tests were to be allowed, then 500 tons would be the 
minimum nuclear test yield that would be of value for validating 
experimental and computational tools used to assess weapon performance. 
For purposes of helping to validate models for assessing weapon safety, 
nuclear test yields of a few pounds would be of value. The rationale 
behind these levels is provided in a classified addendum to these 
answers. I must reemphasize that the incremental benefits of such tests 
would not be realizable in the absence of an effective SSMP to 
interpret and extrapolate the results.
    Question 6. What are the specific measures by which you will know 
whether SSMP has succeeded or failed?
    A critical yearly measure of the success of the SSMP will be our 
ability to provide formal statements of stockpile confidence through 
the Annual Certification process. Should we not be able to certify the 
safety or reliability of a weapon system in the enduring stockpile, the 
SSMP will not have been totally successful. Three supportive 
interrelated, detailed factors should be considered in assessing 
program success.
    First, we can examine how the SSMP is progressing compared to the 
specific milestones set forth in the DOE Stockpile Stewardship and 
Management Plan. This comprehensive plan includes the detail needed to 
judge progress in providing the necessary experimental, computational 
and manufacturing capability and in demonstrating scientific and 
technical performance (e.g., demonstration of fusion ignition on NIF or 
experimental confirmation of 3-dimensional predictions of hydrodynamic 
implosion).
    Second, we can examine specifically how well the tools being 
developed as part of the SSMP are working. In particular, the success 
of the SSMP, and the resulting confidence in the certification process, 
can be gauged by our future ability to ``predict'' past nuclear test 
data (failures as well as successes), to computationally match past and 
future non-nuclear (e.g., hydrodynamic) test data, to perform the 
experiments that provide the fundamental information needed for 
successful predictions, and to successfully achieve major relevant 
integrated demonstrations of our capability (one example, cited above, 
is fusion ignition on the NIF). Our computational simulations must 
consistently match a broad range of past nuclear test data and 
experimental data from the new facilities with a significantly reduced 
need for empirical factors and phenomenological models.
    Third, there are ways we can assess the judgment of the scientists 
and engineers engaged in SSMP. It is absolutely crucial that we 
maintain expert judgment about nuclear weapon issues by developing the 
skills and capabilities of the next generation of stockpile stewards. 
We have to move ahead with the SSMP as rapidly and completely as 
possible so that our current cadre of experienced scientists will be 
available to both train and evaluate the skills of their successors. 
They will provide an extremely important assessment of both the people 
and their capabilities in implementing the SSMP, and thereby will 
contribute in a major way to a determination that the SSMP is indeed 
successful. Our ability to retain and attract new top-notch scientists 
and engineers to the program will be another key index of the program's 
success.
    The judgment of the stockpile stewards will be exercised through 
the Annual Certification and Dual Revalidation processes, which entail 
formal peer review activities involving the two weapon design 
laboratories (LANL and LLNL). Each of the laboratories, with its own 
unique capabilities, will be put to the test before the other 
laboratory and experts from Sandia, DOE Defense Programs, and our 
customer, the DOD. Peer-review activities must include independent 
evaluations, dual revalidation and ``red-teaming'', and iterative 
critiques of each other's technical work. In the past, the two-
laboratory system has proved crucial in addressing stockpile problems. 
In a future without nuclear testing, such peer review will play an 
increasing important--and very visible--role in establishing confidence 
in the stockpile.
    Question 7. Since the last US nuclear test, have there been age-
related or other changes in the stockpile that previously would have 
been addressed by conducting at least one nuclear test? If so, how 
certain are you of the fixes? If your level of confidence in the fixes 
is not extremely high, how has this affected your view of stockpile 
reliability?
    The LLNL-designed warheads in the present stockpile are the W62 
warhead for Minuteman III, the B83 bomb, the W84 warhead (previously 
for the Ground-Launched Cruise Missile), and the W87 Peacekeeper 
warhead (to be used on Minuteman III). The only change in these weapons 
that is now under way is the W87 Life Extension Program (LEP), which is 
an effort to prepare that warhead for an extended life in the stockpile 
with structural enhancements. We have previously stated that if we were 
still testing, we would conduct a nuclear test to demonstrate the 
performance of the W87 with the LEP change. I anticipate that at the 
end of the W87 LEP development we will be able to confidently certify 
the design after structural enhancement, based on past nuclear test 
results, new non-nuclear tests, and computer modeling assessments.
    Completion of the W87 LEP and certification of the warhead's 
performance without nuclear testing will be a significant achievement, 
but not the first since we started the SSMP. We have already used our 
nonnuclear experimental facilities and the new computing capabilities 
developed in our ASCI Program to address a number of other stockpile 
issues. Resolution of some of these issues could in the past have 
involved some nuclear testing. Issues have arisen where the independent 
efforts of each design laboratory were needed to develop an effective 
solution that both laboratories could find acceptable. Because more 
complicated warhead performance issues may lie ahead and the base of 
nuclear test experience is steadily diminishing, we must continue to 
aggressively improve our SSMP capabilities. Some of these issues are 
discussed in a classified addendum to these answers.
    Question 8. How safe is the stockpile today? Have there been any 
changes since the 1990 Drell safety study that would have changed the 
conclusions of that study today?
    Today's stockpile is safe. If it were not, I would raise my 
specific concerns as part of the annual certification process. LLNL 
designed warheads in the present stockpile--the W62, B83, W84, and 
W87--are all safe in their stockpile deployments. Furthermore, the 
overall safety of the stockpile continues to improve as older warheads 
with less modern inherent safety features are being preferentially 
retired as a result of the end of the Cold War.
    We have achieved an outstanding safety record with the U.S. nuclear 
stockpile through a combination of inherent safety features designed 
into the warheads and procedural requirements for their handling and 
deployment.
    Newer weapon designs generally have included more and improved 
inherent safety features. The B83, W84, and W87 are unique in that they 
have the full set of advanced safety features of insensitive high 
explosive (IHE), fire resistant pits, and enhanced nuclear detonation 
safety (ENDS). The W84 and W87 have an extra positive safety margin in 
multiple combined abnormal environments because of their detonator 
designs. Although it does not include these most modern features, the 
W62 meets the safety criteria to which it was designed and is 
considered safe in its current deployment. Many of the recommendations 
of the Drell Panel were adopted and the changes that have been made 
since 1990 in response to the panel would have altered some of the 
panel's conclusions. These changes include:

    (1) LFormation of ``Red Teams'' to evaluate specific warhead safety 
issues (an activity now formally instituted in the Dual Revalidation 
process).
    (2) LEstablishment of a Joint Advisory Committee (JAC) that 
actively reports to the Secretary of Defense on warhead safety issues.
    (3) LInstitution of a joint training program for individuals who 
have responsibilities for weapon safety and security.
    (4) LImportant safety improvements restricting transportation of 
weapons lacking IHE to ground transport unless otherwise approved at 
high level.
    (5) LA national policy review of the acceptability of retaining 
missile systems without IHE and fire resistant pits, which concluded 
that existing systems are acceptable.
    (6) LThe conduct of detailed Weapon System Safety Analyses using 
risk assessment methods for all systems in the stockpile.
    (7) LIn response to the Panel's concerns about the W88 Trident II 
warhead, changes to the loading procedure for the warhead on the 
missile, which later were changed back to the original process after a 
thorough experimental and computational review.

    Finally, the retirement of older systems that were designed before 
the advent of modern safety features would probably change the tone and 
recommendations of parts of the Drell report if it were written today.
    Question 9. What known safety vulnerabilities are we accepting? 
Should we be accepting them?
    As I have responded in answer to the previous question, I judge the 
current stockpile to be safe. I also noted that safety is achieved 
through a combination of ``inherent'' design safety features and 
procedures for warhead handling and deployment. Over the years, 
modernization has shifted this reliance balance in the direction of 
improved inherent features, with the result that safety has become more 
resistant to human error during operations.
    Some systems in the enduring stockpile have the full set of 
advanced safety features--insensitive high explosive (IHE), fire 
safety, and enhanced nuclear detonation safety (ENDS)--but others do 
not. Nuclear testing would have been needed to incorporate these 
features into the warheads that lack them. A national policy review 
conducted in response to the Drell Panel concluded that missile systems 
without IHE and fire resistant pits are acceptably safe considering how 
they are deployed and handled.
    Question 10. Are there any tests you would advocate doing today, if 
allowed, to address safety or reliability concerns?
    We see no immediate safety concerns that would warrant nuclear 
testing. Several activities are underway in the SSMP that could 
potentially affect weapon reliability--the W87 life extension program, 
the development of the B61-11, and the manufacture of new pits at the 
LANL TA-55 facility. In the past a number of these changes would have 
been evaluated with full or partial yield nuclear tests. As I stated in 
my response to Question #7, I am confident that the weapon laboratories 
will be able, through the evolving SSMP capabilities, to certify these 
changes without resorting to nuclear tests. This will be an important 
achievement.
    Question 11. If U.S. leadership requires a new nuclear design, 
would you be willing to certify and deploy it without testing?
    My answer depends on the design, and how much the design or its 
required operational environment departs from the existing nuclear test 
base. I believe it unlikely that an entirely new warhead, developed 
without the benefit of nuclear testing, would be certifiable by today's 
standards. However, some modifications of designs that had been 
previously tested successfully may be possible. My ability to certify 
such modifications would strongly depend on the conservatism of the 
design, the ability of weapon scientists to make use of existing data 
and information we will be able to obtain from future SSMP facilities, 
and the fidelity of computational capabilities to be developed in the 
ASCI program in predicting past and future experimental data.
    Question 12. What yield of testing would be the lowest possible to 
accomplish new designs as well as safety and reliability.
    If SSMP leads to a solid, fundamental understanding of nuclear 
weapons physics, we should not need any nuclear testing to maintain the 
safety and reliability of existing weapons. If we were to resume 
testing the lowest useful test for safety issues would be a few pounds, 
and for a reliability test around 500 tons.
    As for a new design, the test yield required depends on many 
factors. If an existing design were repackaged or slightly modified, 
that would not really be a ``new'' design and the need for nuclear 
testing would be unlikely if SSMP goals are achieved. If the design 
were further from, but still similar in concept to, existing designs, I 
might be able to certify the design with only low yield (approximately 
500 tons) testing. If the design were a major departure from existing 
designs we would need a number of tests at significant yields to design 
and certify the system.
    Question 13. How difficult is it, technically, to maintain the 
capability to test without testing at some level?
    It will be difficult to maintain the capability to quickly return 
to conducting full-scale nuclear tests. However, we plan to use the NTS 
to provide essential non-nuclear experimental capability to the SSMP. 
This use of NTS resources returns essential data for the stewardship 
mission, keeps laboratory and contractor technical teams together, and 
provides opportunity for conducting test-like operations on occasion. 
It also limits the decline in the capability to quickly execute nuclear 
tests. The current state of readiness to resume testing at NTS is two 
to three years.
    The DOD Nuclear Weapons Council's Joint Advisory Committee on 
Nuclear Weapons Surety (JAC), agrees with this assessment: 
``maintaining test readiness as a mission is likely to succeed only if 
the activities associated with that mission produce a useful 
contribution to stockpile stewardship. Furthermore, a pure `readiness' 
mission would not long attract the quality of people needed to resume 
testing. In a few years, test capability would have to be rebuilt 
almost from a standing start. Hence, to be viable over time, test 
readiness must be a by-product of ongoing activities including 
stockpile stewardship work at the NTS.''
    Question 14. If CTBT enters into force for the US, the budgetary 
and political pressures to close the NTS will increase significantly. 
How important is the retention and maintenance of the NTS?
    The NTS is a critical element of and contributor to the SSMP. It 
provides an essential extension of the experimental capabilities of the 
laboratories. Subcritical experiments are one example of the essential 
work conducted at NTS. These dynamic and shock physics experiments 
using plutonium are key elements of SSMP activities to ensure 
continuing safety and confidence in the stockpile. Such experiments are 
most economically conducted underground at NTS, and some experiments 
using plutonium can be performed only at NTS. The Big Explosives 
Experimental Facility (BEEF) at NTS allows us to conduct experiments 
with amounts of explosives that exceed the environmental limits at the 
laboratories. The NTS is also being considered as a possible future 
site for facilities such as an Advanced Hydrodynamic Facility (AHF) and 
the X-1 pulsed power facility.
    Furthermore, if the nation were to resume nuclear testing, NTS is 
the only suitable U.S. location to do so rapidly, safely, and 
economically. Owing to its remoteness and small local and regional 
population, NTS has been the major U.S. location for nuclear testing 
since 1951. The geology of the site is uniquely suited for cost-
effective containment of radioactive debris.
    Question 15. Why did your laboratory change its long-held view that 
nuclear testing is essential?
    Our view on the need for nuclear testing has not changed in a 
fundamental way. As I have answered to Question #11, I believe it 
unlikely that an entirely new warhead, developed without the benefit of 
nuclear testing, would be certifiable by today's standards.
    What has changed in a fundamental way is our mission. We have moved 
from the weapon-development paradigm of the Cold War (design, test, and 
build) to a weapon-assurance paradigm (stockpile surveillance, 
assessment, and remanufacture). To accomplish our present mission, we 
are building on tremendous advances in technology that enable ASCI and 
experimental facilities such as NIF. We are also building on the 
substantial increase in our understanding of the fundamentals of weapon 
science that we achieved in the decade leading up to the cessation of 
nuclear testing in 1992, together with the expectation that we can 
continue to increase our knowledge base through nonnuclear testing. An 
appropriately scoped and funded SSMP will enable further developments 
in experimental and computational capabilities that we believe will 
enable us to continue to certify the safety and reliability of the 
stockpile without nuclear testing.
    While I am optimistic regarding the ultimate success of the SSMP, 
there are technical risks. Presidential Safeguard F provides for the 
performance of a nuclear test, should the SSMP fall short of meeting a 
specific challenge.
    Question 16. What is your understanding of the limitations imposed 
by ``zero''? Are these limitations acceptable in your view?
    The Clinton Administration has adopted the policy that any 
experiments that will be performed under a CTBT will release ``zero'' 
nuclear yield. Our interpretation of zero yield means that experiments 
involving the use of fissile material must remain subcritical, i.e., a 
nuclear chain reaction is not sustained. (The need for this 
interpretation results from the fact that plutonium has an isotope that 
undergoes spontaneous fission and thus releases energy continuously.) 
We further understand that zero energy release does not preclude our 
performing inertial confinement fusion (pure fusion) experiments driven 
by lasers, or other analogous experiments.
    The limitations posed by zero energy release are the same as those 
posed by the CTBT. The issue is whether certain kinds of activities 
would not be prohibited by a zero yield CTBT. The Administration will 
be submitting to the Senate as part of the CTBT ratification package a 
description of such activities. We have reviewed the activities and 
find them compatible with the SSMP strategy.
    Question 17. What are your major concerns about your ability to 
fulfill your responsibilities under a zero CTBT?
    My greatest concern is that the success of the SSMP would be 
hampered by a lack of timely and sustained support. Program support 
must be timely because we must get on with the task before existing 
experienced people retire or leave to pursue other endeavors. In 
addition, the support must be sustained at an adequately funded level 
because every element of the SSMP is needed for the success of the 
program as a whole. The technical risks in SSMP will be significantly 
greater if we are forced to stretch out activities in time or reduce 
the scope of planned research activities to meet more constrained 
budgets.
    I am also concerned that the nation could be unprepared in the 
event that SSMP does not prove adequate to the task. Unless we maintain 
backup warheads \2\ for each of the weapons in the enduring stockpile, 
there must be a willingness and capability to implement Safeguard F if 
we are unable to certify a particular stockpiled warhead type.
---------------------------------------------------------------------------
    \2\ By backup warheads, I mean that there should be two warheads 
for each delivery system in the stockpile. For example, the W87 and W78 
warheads for the Minuteman III missile are backups for each other 
should either one need to be removed from the stockpile. Likewise, the 
B83 and B61 Mod7/11 bombs serve as backups for each other, and the W76 
and W88 serve as warheads for the Trident D-5 missile.
---------------------------------------------------------------------------
    Question 18. What importance do you attach to being able to 
exercise the ``supreme national interest'' test?
    I regard of utmost importance the ability to exercise the ``supreme 
national interest'' clause of the CTBT to address concerns that I have 
outlined here in my answers. This option mitigates the risks in 
pursuing a no-nuclear-testing strategy. We must be prepared for the 
possibility that a significant problem could arise in the stockpile 
that we will be unable to resolve. The fact that the President's 
Safeguard F specifically cites this provision reinforces its 
importance.
    Question 19. What is the monitoring capability of the international 
system? Of U.S. national technical means?
    If the proposed seismic, hydroacoustic, low-frequency sound, and 
radionuclide network of the International Monitoring System (IMS) are 
installed and operated as planned, the system is expected to detect, 
locate and identify with high confidence \3\ non-evasive \4\ explosions 
with yields of about one-kiloton or above conducted underground, 
underwater, or in the atmosphere. Detection, location, and 
identification would still be possible at yields less than one kiloton, 
but with reduced confidence. At lower yields, the number of non-nuclear 
events of similar size increases (e.g., mining explosions and 
earthquakes on land, explosions for geophysical exploration, volcanoes 
at sea, meteorite impacts in the atmosphere). These non-nuclear events 
increase the total number to be processed, and a small percentage of 
them generate signals similar to those expected from nuclear 
explosions. This increases the difficulty of identification. At sea, an 
additional challenge arises because it may not be possible to attribute 
a nuclear explosion to a specific evader, even if the nuclear explosion 
is identified. Experience with the actual networks coupled with 
supporting research should provide definitive estimates of capability 
and enable monitoring improvements. The Treaty's consultation and 
clarification, confidence building, and on-site inspection provisions 
should also help deter evasion attempts and improve confidence in the 
verifiability of the Treaty.
---------------------------------------------------------------------------
    \3\ ``High confidence'' is not precisely defined, but here I have 
in mind the often-used measure of 90%.
    \4\ An ``evasive'' test is one that is designed to produce smaller 
or altered signals, or take advantage of masking by non-nuclear events.
---------------------------------------------------------------------------
    At an unclassified level, it is not possible to discuss the 
specific capabilities of the U.S. National Technical Means (NTM). They 
are addressed in a classified addendum to these answers.
    Question 20. What is the U.S. capability, by whatever means, to 
detect very low level tests or experiments?
    At an unclassified level it is not possible to discuss specific 
U.S. capabilities to detect very low yield tests or experiments. These 
capabilities are addressed in a classified addendum to these answers. 
However, in general, as the yield level of a test decreases, confidence 
in the ability to detect, locate, and/or identify the test also 
decreases. Intelligence assets, the CTBT's consultation and 
clarification, confidence building, and on-site inspection provisions, 
and ad hoc confidence building measures may allow the U.S. to address 
specific concerns (e.g., subcritical experiments at known test sites). 
However, such measures require the cooperation of the nation of 
concern, and activities conducted at undeclared locations could remain 
undetected.
    Question 21. At what yield would a clandestine foreign nuclear test 
be a technically and militarily significant violation of the CTBT?
    I am qualified to address the technical significance of violations 
at various yield levels. The military significance of such violations 
would best be answered by military experts in the DOD.
    The technical significance depends strongly on the technological 
capability of the country performing the test, the type of device, the 
information they are seeking (e.g., a reliability test), and the 
uncertainty they are willing to accept. In a classified addendum to 
these answers, I have included a table on the Role of Testing 
Thresholds in Nuclear Weapons Development that describes what countries 
of three different levels of capability-those with a modest technology 
base, with a highly developed base, and the acknowledged nuclear weapon 
states-would gain technically from tests at various yields.
    It is generally acknowledged that a first generation fission weapon 
can be developed and stockpiled without nuclear testing. This would 
include devices such as those used in 1945. Designs that are more 
advanced in their deliverability, use special nuclear materials more 
efficiently, and/or have greater military effectiveness are more likely 
to require some level of nuclear testing.

                               __________

        LETTER TO HON. JON KYL FROM MR. HECKER, WITH ENCLOSURES
Los Alamos National Laboratory of the University of 
                                         California

                                                 September 24, 1997
The Honorable Jon Kyl
United States Senate
702 Senate Hart Building
Washington, DC 20510

    Dear Senator Kyl: Thank you for your request for input on the 
Senate's deliberation on the ratification of the Comprehensive Test Ban 
Treaty (CTBT). As you indicate in your letter, the United States must 
have high confidence that the U.S. nuclear weapons stockpile remains 
safe and reliable. You are correct in stating that ``the CTBT would 
profoundly alter the way in which we would maintain and improve the 
stockpile.'' In fact, this ``profound'' change has already occurred. It 
was ushered in almost exactly five years ago when President Bush 
declared a moratorium on nuclear testing; one that President Clinton 
extended before signing the treaty last year. Enclosed are my answers 
to the specific questions you posed in the spirit of providing you with 
the best technical information possible. Please allow me to add some 
overarching comments on the challenge ahead.
    At Los Alamos, we have the responsibility to provide the nuclear 
weapons technology for the United States to carry out its national 
security objectives in concert with national policy. We support the 
nation's policy decisions; we don't make them. We provide sound 
technical judgment to the policy makers. We feel a great sense of 
responsibility for the nuclear weapons we designed--from cradle to 
grave.
    During the Cold War our job was to design and help the military 
field the nuclear weapons to keep the U.S. deterrent viable. We did our 
job well--our weapons helped to prevent global war. We never allowed 
the United States to be surprised. Nuclear testing was imperative 
during an era of new weapons development. Our theoretical knowledge of 
nuclear weapons and ability to simulate nuclear explosions in 
laboratory experiments were inadequate to allow us to design and field 
new modern weapons without nuclear testing.
    As we look back now, we can say that nuclear weapons ``bought us 
time'' while the Soviet Union collapsed under 75 years of communism, 
and eventually was dissolved on Christmas Day, 1991. When President 
Bush decided to declare a moratorium on nuclear testing in conjunction 
with halting the deployment of new nuclear weapons in September, 1992, 
our world changed dramatically. I recall returning from a trip to 
Washington, DC, right after President Bush's announcement to tell our 
people that we, the laboratories, must immediately change our approach 
to one of stewardship, away from nuclear testing and toward gaining a 
better fundamental understanding. I thought it was crucial that we 
would not be caught unprepared if the policy decision to stop testing 
held.
    For the next nine months the idea of conducting 15 more nuclear 
tests, as discussed in the Hatfield, Exon, Mitchell amendment, before 
entering into a CTBT in 1996, was debated in Washington. We favored 
conducting such tests with the objective of preparing us better for a 
CTBT. However, all tests were ruled out by the Clinton Administration 
for policy reasons. On August 11, 1995, President Clinton declared his 
intent to seek a ``zero-yield'' CTBT.
    By that time, the laboratories, in conjunction with Dr. Victor 
Reis, the Department of Energy's Assistant Secretary for Defense 
Programs, had developed what we believed was the best approach to 
nuclear weapons stewardship in a no-test environment--science-based 
stockpile stewardship (SBSS). With limited resources, we focused our 
efforts on implementing a science-based approach, rather than counting 
on an unlikely return to nuclear testing. We believed that SBSS, 
together with a stockpile management program that would provide for the 
ability to remanufacture all components of nuclear weapons systems, we 
had the best chance of discharging our responsibilities.
    However, we also knew that there was risk associated with this 
approach and that we could not guarantee the safety and reliability of 
the nuclear stockpile indefinitely without testing. President Clinton 
acknowledged that risk and instituted a series of safeguards. 
Specifically, he stated, ``While I am optimistic that the stockpile 
stewardship program will be successful, as President I cannot dismiss 
the possibility, however unlikely, that the program will fall short of 
its objectives. Therefore, in addition to the new annual certification 
procedure for our nuclear weapons stockpile, I am also establishing 
concrete, specific safeguards that define the conditions under which 
the United States can enter into a CTBT.'' He added, ``In order for 
this program to succeed, both the Administration and the Congress must 
provide sustained bipartisan support for the stockpile stewardship 
program over the next decade and beyond. I am committed to working with 
the Congress to ensure this support.''
    In my opinion, the science-based stockpile stewardship program, 
backed by strong bipartisan support, can, in the long term, serve the 
nation better than a program that lacks a strong scientific commitment 
and substitutes an occasional nuclear test for such commitment. Let me 
contrast the situation as I see it now, two years into the SBSS 
program, to what we faced in August, 1995. At that time, we had not 
conducted a nuclear test for three years. Our people at the Laboratory 
were discouraged, sensing a lack of national commitment to a 
comprehensive program of stewardship. Some of our best were preparing 
to leave or had left the nuclear weapons program. The production 
complex was in disarray; we had no firm plans on how to produce 
plutonium pits, make tritium, or manufacture other key replacement 
components for our aging nuclear weapons.
    Now, two years later, the spirit and the excitement in the nuclear 
weapons program are back. Our people sense not only an immense 
challenge, but also that our government cares and supports their 
effort. Our best are coming into the nuclear weapons program. SBSS is 
rejuvenating the scientific and engineering spirit of our Laboratory. I 
am optimistic that we will be able to attract the best and the 
brightest to be stewards of our nuclear arsenal for the foreseeable 
future.
    Moreover, I was able to certify the safety and reliability of the 
nuclear weapons eve designed in my annual certification letter to the 
Secretaries of Energy and Defense (a requirement instituted by 
President Clinton's 1995 CTBT decision). A copy of my letter is 
enclosed. Although we have not tested for five years now, I still have 
high confidence in the safety and reliability of our nuclear weapons in 
the stockpile. However, we have seen several age-related changes in the 
stockpiled weapons, which underscore the difficulty of the challenge 
ahead. Fortunately, we still have on board experienced designers and 
engineers to help us cope with this challenge. We are also beginning to 
apply the new tools of stockpile stewardship as they are developed. We 
feel a great sense of urgency to develop these tools and use them 
before these experienced people retire.
    Senator Kyl, you stated in your letter that the ultimate decision 
on how much confidence is required in our nuclear arsenal is a 
political determination; one in which the Senate will play a key part 
through its advice and consent role on the CTBT. Our responsibility is 
to be prepared to do the best job for the nation whatever that decision 
may be. At this point, we must be prepared to ensure the safety and 
reliability of the stockpile without nuclear testing. I believe that 
not doing so and, instead, hoping for a return to nuclear testing is 
not responsible.
    I hope you find these comments and my answers to your specific 
questions helpful as you prepare for your important role. Thanks for 
asking, and thanks for your continued support.
            Sincerely,
                                                S.S. Hecker
                                                   Director

Enclosure 1: Answers to Senator Kyl's questions
Enclosure 2: Letter dated September 9, 1997, to Secretary Pena and 
Secretary Cohen
Cy: The Honorable P. V. Domenici, U.S. Senate, Washington, DC
      The Honorable J. Bingaman, U.S. Senate, Washington, DC
      The Honorable F.F. Pena, U.S. DOE, Washington, DC
      Dr. V.H. Reis, U.S. DOE, Washington, DC
Enclosure 1. S.S. Hecker (Los Alamos National Laboratory) to Senator 
        Kyl
    Question 1. Will confidence in the safety and reliability of U.S. 
nuclear weapons decline without nuclear testing?
    The stockpile stewardship and management program, designed jointly 
by the Department of Energy's Defense Programs and the weapons 
laboratories, has allowed us to continue to certify the safety and 
reliability of the stockpile although it has been five years since we 
last conducted a nuclear test. As anticipated, our confidence in the 
nuclear stockpile has decreased somewhat during that time frame. This 
decline in confidence is an inevitable consequence of lack of testing. 
To date, we have found the decline in confidence manageable because we 
have not introduced any new weapons into the stockpile and we still 
have on hand a cadre of experienced nuclear weapons designers and 
engineers. Moreover, we have an adequate nuclear test history for the 
weapons in the stockpile. I have just sent my second annual letter to 
the Secretaries of Energy and Defense certifying the nuclear weapons we 
designed to be safe and reliable without nuclear testing. For the 
longer term, science-based stockpile stewardship is designed to develop 
new tools to better understand the fundamental science and technology 
of nuclear weapons that will help us shift to basing our confidence in 
the nuclear stockpile on SBSS, and away from our historic reliance on 
nuclear testing.
    Question 2. Do you expect the Stockpile Stewardship and Management 
Program (SSMP) to give you the same confidence in the stockpile as was 
achieved by nuclear testing? If not, by how much will confidence be 
reduced, assuming that SSMP is successful?
    I believe that the SSMP as currently configured and fully funded 
provides the best approach to keeping the confidence level in our 
nuclear stockpile as high as possible for the foreseeable future. We 
recognize there is no substitute for full-systems testing in any 
complex technological enterprise. This is certainly true for nuclear 
weapons. A robust nuclear testing program would undoubtedly increase 
our confidence. However, our long-term confidence in the stockpile 
would suffer if we substituted a program consisting of an occasional 
nuclear test for a robust stewardship program because it would lock us 
into an empirical approach tied to limited testing data without the 
benefit of the flexibility and resiliency provided by better scientific 
understanding.
    The premise of SBSS is that we can offset the loss of confidence in 
the safety and reliability of existing weapons without nuclear testing 
by demonstrating improved understanding of the underlying science and 
technology. In effect, we limit the range of possible errors by 
replacing the empiricism of testing by thorough scientific and 
technological investigations. The various aspects of science-based 
stockpile stewardship (such as better computing, enhanced hydrotesting, 
enhanced surveillance, better materials studies, and high-energy-
density physics experiments, etc.) are all designed to enhance our 
confidence without the benefits of nuclear testing. These activities 
have all been extensively reviewed by senior advisory panels. We must 
also retain the ability to remanufacture and replace all nuclear 
weapons components and develop the ability to certify those components 
without nuclear testing. Since the materials for some weapons component 
are no longer available and some manufacturing processes can no longer 
be duplicated, we will not be able to make components ``the same.'' 
Hence, we must understand the consequences of different materials and 
different processes m order to evaluate and predict performance. This 
will also require a science-based approach.
    We cannot assess at this time exactly how much our confidence will 
decrease over time and how well the SSMP will offset that loss, but we 
are currently developing a formal methodology by which the success of 
the SSMP will be evaluated. We will continue to depend critically on 
the annual certification process to assess if our current level of 
confidence is sufficient to certify the stockpile.
    Question 3. What proportion of the research and testing envisioned 
for the first 10 years of operation of the National Ignition Facility 
is directly related to nuclear weapons? What proportion is indirectly 
related to nuclear weapons?
    From the Los Alamos perspective approximately 2/3 of the Los Alamos 
experiments on NIF will be directly related to weapons physics and 1/3 
will be indirectly related. Our Laboratory intends to utilize the 
special capabilities of NIF to the fullest extent possible to help us 
discharge our SBSS responsibilities.
    Question 4. A purpose of SSMP is to maintain a cadre of scientists 
and technicians who will be capable of designing and working on nuclear 
weapons. Will scientists and technicians working on SSMP have weapons 
classification clearances and will they have a clear commitment to 
working on nuclear weapons should the need arise?
    The principal responsibility of scientists and engineers engaged in 
SSMP will be doing everything that needs to be done to keep the weapons 
in the stockpile safe and reliable, today and in the future. They will 
divide their time between theoretical and experimental studies intended 
to improve our understanding of the physics of nuclear weapons and how 
this understanding can be applied to keeping the stockpile safe and 
reliable. The improved understanding will be applied to analyses of 
past nuclear test data, ongoing weapons surveillance data, and issues 
associated with remanufacturing various components. We will engage 
scientists from across the Laboratory to make certain that the best 
talent is brought to this challenging endeavor. Our people feel a 
special sense of obligation for all weapons designed and fielded by the 
Laboratory. We fully expect these scientists and engineers to have 
weapons classification clearances. However, I must report that today, 
because of some disagreements between DOE and the Congress, there are 
insufficient funds at DOE to provide timely security clearances for the 
people we need to do the job. Any help would be appreciated in this 
area.
    Question 5. Much of the capability of SSMP is a decade or more away 
from being fully functional. Furthermore, many of the technologies 
involved are unproven. From a technical standpoint, would it be 
advisable to conduct nuclear tests to calibrate the existing and 
planned technologies? If so, what is the lowest yield at which 
meaningful tests can be conducted? What is the minimum number of tests 
that would be required in the interim before SSMP becomes fully 
functional?
    I am pleased to report that some of the capabilities of SSMP that 
you have supported over the past couple of years are already paying 
great benefits. In this year's certification process, we demonstrated 
that the enhanced computational capabilities resulting from the 
Accelerated Strategic Computing Initiative (ASCI) were instrumental in 
helping us assess the stockpile.
    ASCI also enabled the application of new computer codes to some 
particularly difficult X-ray radiographic analysis. Similarly, the 
newly-developed technique of dynamic proton radiography was used 
successfully to validate the new computational approaches. The benefits 
of ASCI will continue to accrue essentially immediately as we acquire 
increasingly more sophisticated and powerful computational 
capabilities. All of these will work toward ensuring that computation 
will provide us with the final integration of all previous test 
experience, all laboratory and subcritical experiments, and all 
theoretical understanding of nuclear weapons to allow us to predict the 
safety and reliability of existing weapons. Some of the experimental 
tools that require extensive development and facility construction will 
take longer to bring on board. These include facilities such as 
advanced hydrotest facilities, the National Ignition Facility, and 
pulsed-power machines. In all of the above, we feel a great sense of 
urgency to apply these new tools to existing stockpile issues while we 
still have on board designers and engineers with previous nuclear 
testing experience.
    Of course, if nuclear testing were allowed, we would gain greater 
confidence in the new tools. We could validate these tools more 
readily, as well as validate some of the new remanufacturing 
techniques. One to two tests per year would serve such a function quite 
well. Yields of 10 kt would be sufficient in most cases. Yields of 1kt 
would be of substantial help. We have previously conducted a study of 
what can be accomplished at various yield levels. This study is 
classified and available through appropriate channels upon request.
    Again, I would like to add the caution that conducting an 
occasional nuclear test in lieu of a fully-funded SSMP will jeopardize 
our long-term confidence in the stockpile. The SSMP is designed to 
predict and correct problems in the stockpile, whereas an occasional 
nuclear test would focus primarily on existing problems. It is critical 
at this time that we focus the attention of our people on being able to 
do the best possible job without nuclear testing.
    Question 6. What are the specific measures by which you will know 
whether the SSMP has succeeded or failed?
    This is a very difficult question to answer quantitatively. We are 
attempting to develop a formal methodology by which we can adequately 
quantify uncertainties in our assessment, thus allowing us to evaluate 
the success of SSMP. We envision a detailed process by which we will 
estimate uncertainties in fundamental data, theoretical descriptions 
and computational assessments of weapons, and the behavior of weapons 
materials over time. These estimates will be validated whenever 
possible by comparing them to laboratory experiments and to past 
nuclear test data. We will rely heavily on peer review by the Lawrence 
Livermore National Laboratory. We will also seek out other 
organizations in government and industry that have experience in 
assessing highly complex systems in which full-scale testing has been 
reduced or eliminated.
    In the mean time, we will rely on the annual certification process 
to guide us on how successful we are with SSMP. In the longer term, our 
ability to continue to keep and attract the best scientists and 
engineers working on nuclear weapons will be a good test of the success 
of SSMP. Over the next few years, our ability to achieve the milestones 
of SSMP will provide some measure of its success. These milestones 
include specific enhancements of our computational capability, 
developing new tools for stockpile surveillance, and demonstrating the 
ability to remanufacture and certify critical weapons components.
    Question 7. Since the last U.S. nuclear test, have there been age-
related or other changes in the stockpile that previously would have 
been addressed by conducting at least one nuclear test? If so, how 
certain are you of the fixes? If your level of confidence in the fixes 
is not extremely high, how has this affected your view of stockpile 
reliability.
    Yes, there have been several instances since the cessation of 
nuclear testing in September 1992, where we have found problems, either 
age-related or otherwise, for which in the past we would have turned to 
a nuclear test in the kiloton range to resolve. In the absence of 
testing, we have used the methodology of SSMP to evaluate the problem 
and suggest fixes if required. This has included more extensive 
calculations, non-nuclear laboratory experiments, comparison to 
previous nuclear test data, and the extensive experience of our 
designers and engineers. Moreover, our assessment has been checked 
against the rigors of peer review by the Lawrence Livermore National 
Laboratory. We examined several problems of this nature during this 
year's certification cycle. At this time, we have sufficient confidence 
in our solutions to certify the stockpile without a resumption of 
nuclear testing. If our confidence in the fixes were not sufficiently 
high, we would not certify the stockpile. Our experience to date in 
resolving suspected problems has increased our confidence in SSMP and 
in the process of annual certification.
    Question 8. How safe is the stockpile today? Have there been any 
changes since the 1990 Drell safety study that would change the 
conclusions of that study today?
    I have full confidence in the safety of the stockpile today. I have 
certified the safety of the stockpile in this year's annual 
certification. We continue to assess all safety features of our weapons 
and continue to learn as much as we can. We have not seen any 
fundamental changes in safety concerns since the 1990 Drell safety 
study. The principal change since 1990 is that with a CTBT it will not 
be possible to make some of the potential safety improvements for 
greater intrinsic warhead safety that we considered during the 1990 
time frame. Nevertheless, we certify the stockpile as being safe today, 
and we will continue to assess safety annually.
    Question 9. What known safety vulnerabilities are we accepting? 
Should we be accepting them?
    Not all weapons in the stockpile today contain all modern safety 
features such as insensitive high explosives, fire-resistant pits, and 
enhanced nuclear detonation safety. However, with the cooperation of 
the services we have placed restrictions on the handling and operations 
of these weapons that allow us to certify the safety of such warheads. 
Should we find an unacceptable safety vulnerability, then I will not 
certify the weapon. I would like to add that the nation made a major 
safety improvement to the stockpile by replacing the B53 bomb with the 
B61 Mod. 11 during this past year.
    Question 10. Are there any tests you would advocate doing today, if 
allowed, to address safety or reliability concerns?
    I have certified the weapons in the stockpile designed by the Los 
Alamos National Laboratory to be safe and reliable, without the need to 
resume nuclear testing at this time. I stand by that certification. 
There are no outstanding problems in the stockpile that currently 
require testing. Let me again caution that an occasional nuclear test 
in lieu of a robust stockpile stewardship program carries the risk of 
not retaining high confidence in the stockpile over the long term.
    We were last asked in October 1992, what types of nuclear tests we 
would conduct if we were allowed 15 more tests before entering a CTBT. 
We laid out a series of tests at that time that addressed safety and 
reliability issues. Today, we would be concerned mostly about how to 
validate some of the new tools of SSMP and how to certify aged or 
remanufactured components.
    Question 11. If U.S. leadership requires a new nuclear design, 
would you be willing to certify and deploy it without testing?
    Personally, I would not certify a new design of a modern, high 
yield/weight ratio warhead (such as those we have in the stockpile 
today) without nuclear testing. If the new design were very robust with 
large margins in weight and volume, then it may be possible to certify 
such a ``new'' weapon.
    Question 12. What yield of testing would be the lowest possible to 
accomplish new designs as well as safety and reliability?
    The nuclear yield required would depend upon warhead requirements. 
I believe most designs could be adequately tested at yields between one 
and 10 kilotons. In 1995, the Department of Energy conducted a study 
for STRATCOM that provides some specific details related to your 
question. That study is classified and available upon request.
    Question 13. How difficult is it, technically, to maintain the 
capability to test without testing at some level?
    It is important to exercise the key skills required for nuclear 
testing. Otherwise, the time to reconstitute will increase 
substantially. Right now, we find that most of the key skills are being 
exercised with the subcritical tests at NTS. We are also working 
diligently to keep some skills alive by utilizing some of the 
techniques and people, previously at the test site, here at our 
laboratory. Merely preserving facilities and support infrastructure at 
NTS will not provide readiness. In spite of our best efforts, some 
special skills such as test containment reside in only a few 
individuals today, and some of the special equipment is no longer 
maintained or available from private industry.
    Question 14. If CTBT enters into force for the United States, the 
budgetary and political pressures to close the Nevada Test Site (NTS) 
will increase significantly. How important is the retention and 
maintenance of the NTS?
    The Nevada Test Site is very important to us. It allows us to 
conduct experiments with special materials such as plutonium and large 
quantities of high explosives. Closing NTS would preclude subcritical 
experiments which are essential to understanding the properties of 
plutonium. For example, it is imperative to understand whether aging 
effects in plutonium could result in safety or performance problems in 
the stockpile. We presently do not have this data. In addition, we 
believe it is critical to keep NTS for potential future nuclear tests. 
It is an important element of the President's safeguard for the CTBT. 
We should not, under any circumstances, give it up.
    Question 15. Why did your laboratory change its long-held view that 
nuclear testing is essential?
    We did not change our view that from a purely technical standpoint 
nuclear testing in the appropriate yield range continues to be the most 
effective way to ensure the safety and reliability of the nuclear 
stockpile. However, once the President made his decision to end 
testing, it was our duty to do the best job we possibly could to keep 
the stockpile safe and reliable without nuclear testing. We agreed with 
the Department of Energy that without nuclear testing, the SSMP 
provides the most logical approach for certifying the stockpile today 
and decades from now. We said that we could not guarantee that SSMP 
would work, although we had reasonable confidence that it would, 
especially with the safeguards added by the President. These safeguards 
include a strong commitment to science-based stockpile stewardship and 
to strong laboratories, as well as the supreme national interest clause 
to withdraw from the CTBT should we lose our confidence in the safety 
and reliability of one of our key warheads. In addition, the President 
instituted a new certification process for the stockpile, which, for 
the first time, requires us to certify all of the weapons in the 
stockpile annually.
    I should also add that in August 1995, when the President made his 
decision, we had already not conducted a nuclear test for almost three 
years. Our budgets had decreased precipitously over the previous six 
years. Our people were looking to get out of the nuclear weapons 
program. The production complex appeared hopelessly broken. The 
prospects of doing an occasional nuclear test was proving to be a 
barrier to adopt a new approach to nuclear stewardship. This situation 
has turned around dramatically in the past two years with the emphasis 
on science-based stockpile stewardship. Our people have a renewed 
commitment to stockpile stewardship and an enthusiasm for the 
development of a new methodology, based on rigorous science and 
engineering, to ensuring the safety and reliability of the stockpile.
    Question 16. What is your understanding of the limitations imposed 
by ``zero''? Are these limitations acceptable in your view?
    During the discussions in the summer of 1995, we emphasized the 
importance of conducting laboratory experiments (including inertial 
confinement fusion with lasers or pulsed-power machines) and 
subcritical experiments at the Nevada Test Site as an integral part of 
the SSMP. We pointed out that ``zero yield'' has no technical basis. 
Plutonium (or any radioactive material, including radioisotopes used in 
medicine) could be considered to have a non-zero yield just sitting 
there because of radioactive decay. I believe the ``zero yield'' 
criterion was devised to preclude so-called hydronuclear experiments in 
which the nuclear energy released in those experiment is less than 4-lb 
equivalent of high-explosives. The SSMP is consistent with a ban on 
hydronuclear experiments. Today, we are keeping the NTS open and 
exercised with subcritical experiments, and we are proceeding with a 
vigorous program of laboratory experiments, including the construction 
of the National Ignition Facility at Livermore. If ``zero yield'' is 
interpreted more strictly than outlined here, then our SSMP approach 
falls apart. We could not live with that.
    Question 17. What are your major concerns about your ability to 
fulfill your responsibilities under a zero CTBT?
    My major concern is that the U.S. government remain committed to a 
vigorous stockpile stewardship and management program. No technical 
enterprise has much experience in maintaining complex systems without 
full-systems testing. While significant progress has been made in the 
construction of a comprehensive SSMP, it remains to be proven that the 
plan is sufficient to maintain confidence in the stockpile over the 
long term. President Clinton realized this when he announced his 
decision to pursue a CTBT on Aug. 11, 1995. He laid out a path that 
promised a vigorous program to keep the stockpile safe and reliable 
using all other means short of nuclear testing. He announced a set of 
safeguards that he was willing to take should we fall short of our 
goal. I should point out that we have lived with some restrictions on 
``full-systems'' testing in the nuclear weapons program because of the 
limitations of 150 kilotons prescribed by the Threshold Test Ban Treaty 
observed since 1974. The CTBT represents a significant step beyond this 
limitation. The SSMP is designed to allow us to do so successfully. I 
hope Congress will join the President in reiterating the strong 
commitment to a vigorous, fully-funded stockpile stewardship and 
management program.
    Question 18. What importance do you attach to being able to 
exercise the ``supreme national interest'' test?
    I view the ``supreme national interest'' clause as being extremely 
important. The President's National Security Strategy holds that 
nuclear weapons are the ultimate deterrent against strategic attack of 
the United States. Hence, it is imperative that our nuclear weapons 
stockpile be maintained in a safe and reliable status. On August II, 
1995, the President stated ``While I am optimistic that the stockpile 
stewardship program will be successful, as President I cannot dismiss 
the possibility, however unlikely, that the program will fall short of 
its objectives. Therefore, in addition to the new annual certification 
procedure for our nuclear weapons stockpile, I am also establishing 
concrete, specific safeguards that define the conditions under which 
the United States can enter into a CTBT. In the event that I were 
informed by the Secretary of Defense and Secretary of Energy--advised 
by the Nuclear Weapons Council, the Directors of the DOE's nuclear 
weapons laboratories and the Commander of U.S. Strategic Command--that 
a high level of confidence in the safety or reliability of a nuclear 
weapons type which the two Secretaries consider to be critical to our 
nuclear deterrent could no longer be certified, I would be prepared, in 
consultation with Congress, to exercise our `supreme national 
interests' rights under the CTBT in order to conduct whatever testing 
might be required.''
    Question 19. What is the monitoring capability of international 
system? Of U.S. national technical means?
    The Comprehensive Test Ban Treaty establishes an International 
Monitoring System (IMS) that includes four synergistic monitoring 
technologies distributed worldwide:

    <bullet> LSeismological monitoring
      <bullet> Lmonitor for earth tremors produced by nuclear 
explosions,
      <bullet> L50 primary stations, 120 auxiliary stations.
    <bullet> LRadionuclide monitoring
      <bullet> Lsample the air for debris from a nuclear explosion,
      <bullet> L80 stations monitoring particulates/aerosols,
      <bullet> L40 noble gas monitoring stations initially, 40 more 
later.
    <bullet> LHydroacoustic monitoring
      <bullet> Llisten for sound waves that could be caused by a 
nuclear explosion in the oceans,
      <bullet> L11 stations.
    <bullet> LInfrasound monitoring
      <bullet> Llisten for very low-frequency sound waves in the 
atmosphere that could be caused by a nuclear explosion,
      <bullet> L60 stations.

    These elements of the IMS will be very important in providing an 
effective verification regime. The CTBT does not specify the technical 
requirements for the performance of the IMS. The IMS is designed, 
however, to provide global coverage for potential nuclear explosions 
underground, under water and in the atmosphere. It provides no coverage 
in the upper atmosphere or in space. There is considerable disagreement 
in the scientific community over the low-yield detection capability of 
the IMS. We stress the importance of developing cooperative measures, 
on-site inspection, and transparency measures to make the IMS an 
effective verification tool.
    The U.S. national technical means (NTM) has evolved over the years, 
and have been upgraded substantially since the 1970s. Seismic 
capabilities have improved over the years. However, low-yield 
explosions underground, especially if they are seismically decoupled 
from the geologic environment, continue to be a major challenge. Upper 
atmosphere and space monitoring via satellite-deployed sensors exists 
today, but will need to be replaced after the year 2000. New 
electromagnetic pulse detection instrumentation is needed on the GPS 
satellite to adequately cover atmospheric explosions.
    The monitoring capability of the U.S. NTM is classified for reasons 
of not providing potential proliferators with sufficient knowledge to 
evade such means. We will provide you with classified responses through 
appropriate channels.
    Question 20. What is the U.S. capability, by whatever means, to 
detect very low level tests or experiments?
    We can categorically state that ``zero yield'' is beyond the 
verification capabilities of our NTM. For the detection and 
verification of very low yield levels the NTM will have to be 
supplemented by cooperative agreements, including on-site inspection 
protocols and transparency measures. Such agreements must be at least 
multilaterial and, preferably, part of an International Monitoring 
System.
    Question 21. At what yield would a clandestine foreign nuclear test 
be a technically and militarily significant violation of the CTBT?
    This is a very difficult question to answer because it depends 
greatly on whether the testing entity is an established nuclear power 
(even here, our response would be different for Russia and China), a 
rogue state, or a terrorist. We can state that crude nuclear weapons 
can, with the knowledge that is in the open literature today, be 
fielded without any nuclear testing. It is instructive to note that the 
bomb dropped on Hiroshima was not tested. A detailed answer to this 
question is also classified. Again, we will provide a classified 
response.
                               __________
  Letter to Hon. Federico F. Pena and Hon. William S. Cohen from S.S. 
                                 Hecker
Los Alamos National Laboratory of the University of 
                                         California

                                                  September 9, 1997
The Honorable Federico F. Pena
Secretary of Energy
United States Department of Energy
1000 Independence Avenue, SW
Washington, DC 20585
The Honorable William S. Cohen
Secretary of Defense
United States Department of Defense
1000 Defense Pentagon
Washington, DC 20301

    Dear Secretary Pena and Secretary Cohen: Annual certification of 
the safety and reliability of the nuclear weapons stockpile was 
initiated by President Clinton in his August 11, 1995, announcement to 
seek a zero-yield comprehensive test ban treaty (CTBT). The Los Alamos 
National Laboratory has just completed the second annual cycle of this 
process, and I am able to certify that the B61 (Mods 3, 4, 7, 10 and 
11), W76, W78, W80 and W88 warheads are safe and reliable without the 
resumption of underground nuclear testing at this time. The details of 
our assessment have been provided to Dr. Reis in classified reports. 
The concerns we expressed last year about the B53 bomb have been 
addressed by the Air Force replacing the B53 with the B61-11.
    Our detailed review, conducted jointly with the Sandia National 
Laboratories and the military services, pointed out to me again the 
difficulty of the job ahead. We continue to see some age-induced 
degradation of materials and components as well as find some defects 
introduced in the initial manufacturing. Fortunately, we still have on 
hand people with experience and proper judgment to evaluate and correct 
these problems. None of these were judged to require nuclear testing. 
We are continuing to evaluate measures that will enhance the 
performance margins of primaries and to develop more sophisticated 
surveillance techniques.
    With the replacement of the B53 bomb by an earth-penetrating 
version of the B61 bomb, we were faced for the first time in the no-
test regime with having to certify a modification to an existing 
weapon. The B61-11 changes did not modify the physics package, but the 
Mod-11 must work under very different conditions from previous versions 
of the B61. We took advantage of several of the improved tools 
developed by the stockpile stewardship program and all previous, 
relevant nuclear testing data to provide an interim certification in 
December, 1996. We expect that our final certification in June, 1998, 
will still reflect a greater uncertainty than what we achieved in the 
past for modifications that were verified with nuclear tests.
    Although this year's certification process demonstrates that some 
of the improved stockpile stewardship tools such as the Accelerated 
Strategic Computing Initiative and proton radiography are already 
useful, we were also reminded that these tools are yet immature, and 
that we rely heavily upon our experienced weapons scientists and 
engineers for the actual certification. We will face future challenges 
as we maintain or repair weapons in the stockpile through life 
extension programs or other modifications. We must not only 
aggressively pursue improved hydrotesting, subcritical experiments at 
the Nevada Test Site, and enhanced surveillance and integrate those 
into our certification with a more powerful computing and simulation 
capability, but we must also continue to remain sufficiently skeptical 
of these tools to avoid falling into the trap of rising confidence but 
diminishing competence. Training the next-generation of scientists and 
engineers to use the new tools while we still have the experienced 
personnel around will be key to our success, and it continues to 
provide a sense of urgency for the stockpile stewardship and management 
program.

            Sincerely,
                                                S.S. Hecker
                                                   Director
[GRAPHIC] [TIFF OMITTED] TH267.088

[GRAPHIC] [TIFF OMITTED] TH267.089

[GRAPHIC] [TIFF OMITTED] TH267.090

[GRAPHIC] [TIFF OMITTED] TH267.091

[GRAPHIC] [TIFF OMITTED] TH267.092

[GRAPHIC] [TIFF OMITTED] TH267.093

[GRAPHIC] [TIFF OMITTED] TH267.094

[GRAPHIC] [TIFF OMITTED] TH267.095

[GRAPHIC] [TIFF OMITTED] TH267.096

[GRAPHIC] [TIFF OMITTED] TH267.097

[GRAPHIC] [TIFF OMITTED] TH267.098

[GRAPHIC] [TIFF OMITTED] TH267.099

[GRAPHIC] [TIFF OMITTED] TH267.100

[GRAPHIC] [TIFF OMITTED] TH267.101

[GRAPHIC] [TIFF OMITTED] TH267.102

[GRAPHIC] [TIFF OMITTED] TH267.103

[GRAPHIC] [TIFF OMITTED] TH267.104

[GRAPHIC] [TIFF OMITTED] TH267.105

[GRAPHIC] [TIFF OMITTED] TH267.106

[GRAPHIC] [TIFF OMITTED] TH267.107

[GRAPHIC] [TIFF OMITTED] TH267.108

[GRAPHIC] [TIFF OMITTED] TH267.109

[GRAPHIC] [TIFF OMITTED] TH267.110

[GRAPHIC] [TIFF OMITTED] TH267.111

[GRAPHIC] [TIFF OMITTED] TH267.112

[GRAPHIC] [TIFF OMITTED] TH267.113

[GRAPHIC] [TIFF OMITTED] TH267.114

[GRAPHIC] [TIFF OMITTED] TH267.115

[GRAPHIC] [TIFF OMITTED] TH267.116

[GRAPHIC] [TIFF OMITTED] TH267.117

[GRAPHIC] [TIFF OMITTED] TH267.118

[GRAPHIC] [TIFF OMITTED] TH267.119

[GRAPHIC] [TIFF OMITTED] TH267.120

[GRAPHIC] [TIFF OMITTED] TH267.121

[GRAPHIC] [TIFF OMITTED] TH267.122

[GRAPHIC] [TIFF OMITTED] TH267.123

[GRAPHIC] [TIFF OMITTED] TH267.124

[GRAPHIC] [TIFF OMITTED] TH267.125

[GRAPHIC] [TIFF OMITTED] TH267.126

[GRAPHIC] [TIFF OMITTED] TH267.127

[GRAPHIC] [TIFF OMITTED] TH267.128

[GRAPHIC] [TIFF OMITTED] TH267.129

[GRAPHIC] [TIFF OMITTED] TH267.130

[GRAPHIC] [TIFF OMITTED] TH267.131

[GRAPHIC] [TIFF OMITTED] TH267.132

[GRAPHIC] [TIFF OMITTED] TH267.133

[GRAPHIC] [TIFF OMITTED] TH267.134

[GRAPHIC] [TIFF OMITTED] TH267.135

[GRAPHIC] [TIFF OMITTED] TH267.136

[GRAPHIC] [TIFF OMITTED] TH267.137

[GRAPHIC] [TIFF OMITTED] TH267.138

[GRAPHIC] [TIFF OMITTED] TH267.139

[GRAPHIC] [TIFF OMITTED] TH267.140

[GRAPHIC] [TIFF OMITTED] TH267.141

[GRAPHIC] [TIFF OMITTED] TH267.142

[GRAPHIC] [TIFF OMITTED] TH267.143

[GRAPHIC] [TIFF OMITTED] TH267.144

[GRAPHIC] [TIFF OMITTED] TH267.145

[GRAPHIC] [TIFF OMITTED] TH267.146

[GRAPHIC] [TIFF OMITTED] TH267.147

[GRAPHIC] [TIFF OMITTED] TH267.148

[GRAPHIC] [TIFF OMITTED] TH267.149

[GRAPHIC] [TIFF OMITTED] TH267.150

[GRAPHIC] [TIFF OMITTED] TH267.151

[GRAPHIC] [TIFF OMITTED] TH267.152

[GRAPHIC] [TIFF OMITTED] TH267.153

[GRAPHIC] [TIFF OMITTED] TH267.154

[GRAPHIC] [TIFF OMITTED] TH267.155

[GRAPHIC] [TIFF OMITTED] TH267.156

[GRAPHIC] [TIFF OMITTED] TH267.157

[GRAPHIC] [TIFF OMITTED] TH267.158

[GRAPHIC] [TIFF OMITTED] TH267.159

[GRAPHIC] [TIFF OMITTED] TH267.160

[GRAPHIC] [TIFF OMITTED] TH267.161

[GRAPHIC] [TIFF OMITTED] TH267.162

[GRAPHIC] [TIFF OMITTED] TH267.163

[GRAPHIC] [TIFF OMITTED] TH267.164

[GRAPHIC] [TIFF OMITTED] TH267.165

[GRAPHIC] [TIFF OMITTED] TH267.166

[GRAPHIC] [TIFF OMITTED] TH267.167

[GRAPHIC] [TIFF OMITTED] TH267.168

[GRAPHIC] [TIFF OMITTED] TH267.169

[GRAPHIC] [TIFF OMITTED] TH267.170

[GRAPHIC] [TIFF OMITTED] TH267.171

[GRAPHIC] [TIFF OMITTED] TH267.172

                                  <all>
</pre></body></html>
